<html>
<title> - LOOKING FORWARD: THE FUTURE OF AMERICA'S AVIATION MAINTENANCE AND MANUFACTURING WORKFORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
   LOOKING FORWARD: THE FUTURE OF AMERICA'S AVIATION MAINTENANCE AND 
                        MANUFACTURING WORKFORCE

=======================================================================

                                (116-53)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure            
             
                                               


             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                               ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
 43-345 PDF              WASHINGTON : 2021                              
                             
                             
                             



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania



                        Subcommittee on Aviation

  RICK LARSEN, Washington, Chair
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DON YOUNG, Alaska                    STACEY E. PLASKETT, Virgin Islands
DANIEL WEBSTER, Florida              STEPHEN F. LYNCH, Massachusetts
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON,
SCOTT PERRY, Pennsylvania              District of Columbia
ROB WOODALL, Georgia                 DANIEL LIPINSKI, Illinois
JOHN KATKO, New York                 STEVE COHEN, Tennessee
DAVID ROUZER, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
LLOYD SMUCKER, Pennsylvania          Georgia
PAUL MITCHELL, Michigan              DINA TITUS, Nevada
BRIAN J. MAST, Florida               JULIA BROWNLEY, California
MIKE GALLAGHER, Wisconsin            ANTHONY G. BROWN, Maryland
BRIAN K. FITZPATRICK, Pennsylvania   GREG STANTON, Arizona
TROY BALDERSON, Ohio                 COLIN Z. ALLRED, Texas
ROSS SPANO, Florida                  JESUS G. ``CHUY'' GARCIA, Illinois
PETE STAUBER, Minnesota              EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri (Ex Officio)    SEAN PATRICK MALONEY, New York
                                     DONALD M. PAYNE, Jr., New Jersey
                                     SHARICE DAVIDS, Kansas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     GRACE F. NAPOLITANO, California
                                     SALUD O. CARBAJAL, California
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)




                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chairman, Subcommittee on Aviation:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     7
    Prepared statement...........................................     7
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure, prepared statement.............................    81

                               WITNESSES
                                Panel 1

Catherine Lang, Senior Advisor for Aviation Workforce Outreach, 
  Federal Aviation Administration:

    Oral statement...............................................     8
    Prepared statement...........................................    10
Heather Krause, Director, Physical Infrastructure, U.S. 
  Government Accountability Office:

    Oral statement...............................................    13
    Prepared statement...........................................    15

                                Panel 2

Steven R. Jackson, Principal, Aviation High School, accompanied 
  by Mario Cotumaccio, Assistant Principal, Aviation High School:

    Oral statement of Mr. Jackson................................    40
    Prepared statement of Mr. Jackson............................    42
Sharon B. DeVivo, President, Vaughn College of Aeronautics and 
  Technology:

    Oral statement...............................................    48
    Prepared statement...........................................    50
Joseph McDermott, Managing Director, Technical Operations, Delta 
  Air Lines:

    Oral statement...............................................    51
    Prepared statement...........................................    53
John J. Neely III, Vice President, Law and Public Affairs, 
  Gulfstream Aerospace, a General Dynamics Company:

    Oral statement...............................................    56
    Prepared statement...........................................    58
Dana Donati, General Manager and Director of Academic Programs, 
  LIFT Academy:

    Oral statement...............................................    63
    Prepared statement...........................................    64

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Rick Larsen:

    Letter of February 11, 2020, from Christian A. Klein, 
      Executive Vice President, Aeronautical Repair Station 
      Association................................................    82
    Statement of the Aircraft Mechanics Fraternal Association....    85
    Statement of Mark Baker, President and CEO, Aircraft Owners 
      and Pilots Association.....................................    86
    Letter of February 26, 2020, from Crystal Maguire, Executive 
      Director, Aviation Technician Education Council............    89
    Statement of Ed Bolen, President and CEO, National Business 
      Aviation Association.......................................    90
    Statement of Faye Malarkey Black, President and CEO, Regional 
      Airline Association........................................    91
Submissions for the Record by Hon. Garret Graves of Louisiana:

    Statement of Airbus..........................................    95
    Letter of March 4, 2020, from Jordan G. Lyons, Associate 
      Professor, Louis Waller Endowed Professorship, Department 
      of Professional Aviation, Louisiana Tech University........    96
    Press Release, ``United Airlines To Become Only Major U.S. 
      Carrier To Own and Operate a Flight Training Academy''.....    97

                                APPENDIX

Questions to Catherine Lang, Senior Advisor for Aviation 
  Workforce Outreach, Federal Aviation Administration, from:

    Hon. Salud O. Carbajal.......................................    99
    Hon. Sam Graves of Missouri..................................    99
    Hon. Garret Graves of Louisiana..............................   100
Questions to Heather Krause, Director, Physical Infrastructure, 
  U.S. Government Accountability Office, from:

    Hon. Sam Graves of Missouri..................................   100
    Hon. Garret Graves of Louisiana..............................   102
Questions to Steven R. Jackson, Principal, Aviation High School, 
  from:

    Hon. Sam Graves of Missouri..................................   102
    Hon. Garret Graves of Louisiana..............................   104
Questions to Sharon B. DeVivo, President, Vaughn College of 
  Aeronautics and Technology, from:

    Hon. Sam Graves of Missouri..................................   104
    Hon. Garret Graves of Louisiana..............................   105
Questions to Joseph McDermott, Managing Director, Technical 
  Operations, Delta Air Lines, from:

    Hon. Sam Graves of Missouri..................................   106
    Hon. Garret Graves of Louisiana..............................   107
Questions to John J. Neely III, Vice President, Law and Public 
  Affairs, Gulfstream Aerospace, a General Dynamics Company, 
  from:

    Hon. Sam Graves of Missouri..................................   107
    Hon. Garret Graves of Louisiana..............................   108
Questions to Dana Donati, General Manager and Director of 
  Academic Programs, LIFT Academy, from:

    Hon. Sam Graves of Missouri..................................   108
    Hon. Garret Graves of Louisiana..............................   108

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            February 7, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Aviation
    FROM:  LStaff, Subcommittee on Aviation
    RE:      LSubcommittee hearing on ``Looking Forward: The 
Future of America's Aviation Maintenance and Manufacturing 
Workforce''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Aviation will meet on Tuesday, February 
11, 2020, at 10:00 a.m. in 2167 Rayburn House Office Building 
to hold a hearing titled, ``Looking Forward: The Future of 
America's Aviation Maintenance and Manufacturing Workforce.'' 
The hearing will examine the current state of the U.S. aviation 
manufacturing and maintenance workforce, challenges to ensuring 
this workforce can meet future industry demands and needs, and 
current Government and industry initiatives designed to address 
those challenges. The Subcommittee will hear testimony from the 
Federal Aviation Administration (FAA), U.S. Government 
Accountability Office (GAO), the Aviation High School, Long 
Island City, N.Y., Vaughn College, Delta Air Lines, Gulfstream 
Aerospace, and the LIFT Academy.

    I. OVERVIEW

    The U.S. aviation industry is in the midst of an economic 
renaissance. Just over a decade ago, the 2008 financial crisis 
led to an unprecedented wave of industry restructuring that 
ultimately resulted in a loss of more than 100,000 jobs.\1\ The 
effect of the crisis was so profound that the industry did not 
return to pre-crisis payroll levels until November 2017.\2\ 
Now, for the first time in history, U.S. carriers have recorded 
three consecutive years of record or near-record profits, 
largely due to low oil prices and more efficient operations.\3\
---------------------------------------------------------------------------
    \1\ Gov't Accountability Office, GAO-14-237, Aviation Workforce: 
Current and Future Availability of Aviation Engineering and Maintenance 
Professionals p.1 (2014).
    \2\ Seth Borko. ``10 Years Later: How the Travel Industry Came Back 
From the Financial Crisis'', Skift, (Sept. 14, 2018), available at: 
https://skift.com/2018/09/14/10-years-later-how-the-travel-industry-
came-back-from-the-financial-crisis/.
    \3\ Brianne Eby and Paul Lewis, ``Aviation Workforce Challenges in 
the United States and the United Kingdom'', Eno Center on 
Transportation (March 2019) p. 23 Available at: www.enotrans.org/wp-
content/uploads/2019/03/3.26-US-UK-Aviation-Workforce_final.pdf.
---------------------------------------------------------------------------
    In 2014, aviation accounted for more than 5 percent of U.S. 
Gross Domestic Product (GDP), contributed $1.6 trillion in 
total economic activity, and supported nearly 11 million 
jobs.\4\ Aviation manufacturing was and continues to be the 
Nation's top net export, accounting for 0.8 percent of the U.S. 
GDP in 2014.\5\ Recent events have affected U.S. manufacturing 
and the Secretary of Commerce has stated that U.S. GDP growth 
could be reduced by 0.5 percentage points.\6\ These effects 
have also been felt down the supply chain including layoffs and 
costs to airlines could be more than $1 billion.\7\
---------------------------------------------------------------------------
    \4\ Federal Aviation Administration, ``The Economic Impact of Civil 
Aviation on the U.S. Economy'' (November 2016).
    \5\ Id.
    \6\ Anneken Tappe, ``Boeing's 737 Max crisis will weigh on 
America's GDP growth in 2020'', CNN Business, (December 19, 2019) 
available at: https://www.cnn.com/2019/12/18/economy/boeing-gdp-impact/
index.html.
    \7\ Emma Newburger, ``Boeing 737 Max crisis could slow US growth by 
a half point in 2020, Mnuchin says'', CNBC, (January 12, 2020), 
Available at: https://www.cnbc.com/2020/01/12/mnuchin-says-boeing-737-
max-grounding-could-slow-us-growth-by-a-half-point.html.
---------------------------------------------------------------------------
    The airline industry growth in recent years has driven 
production of new aircraft to record numbers, delayed 
retirements of older jets, and increased spending on aircraft 
maintenance, increasing demand for a skilled workforce in the 
aircraft maintenance and manufacturing fields.\8\ But as the 
airline industry has grown in recent years, it has become more 
difficult to hire and train qualified workers to service, 
repair, and design an increasing amount of new aircraft and 
aviation products. For instance, in a recent survey by the 
Aeronautical Repair Station Association, 55 percent of its 
members reported having unfilled maintenance technician 
positions and 82 percent experienced at least some difficulty 
in finding qualified workers to fill open positions.\9\
---------------------------------------------------------------------------
    \8\ Id.
    \9\ Id.
---------------------------------------------------------------------------
    Hiring difficulties during times of high growth and low 
unemployment is not uncommon among industries that depend on a 
skilled workforce. Additionally, the surging number of 
retirements among the baby boomer generation will likely make 
the problem much worse.\10\ Without effective strategies to 
address these underlying workforce challenges, the aviation 
industry's economic growth and technological advances could be 
hampered in the future.
---------------------------------------------------------------------------
    \10\ Laura Schneider, ``How Retiring Baby Boomers Affect the Job 
Market'', The Balance Careers, (November 29, 2019), available at: 
https://www.thebalancecareers.com/retiring-boomers-affect-job-market-
2071932
---------------------------------------------------------------------------

    II. STATE OF THE U.S. AVIATION MAINTENANCE AND MANUFACTURING 
                    WORKFORCE

A. OCCUPATIONAL PROFILES

    The aviation maintenance workforce generally falls into two 
categories: (1) certificated mechanics and service technicians 
(repairman) and (2) avionics technicians.\11\ FAA-certificated 
mechanics inspect and repair aircraft fuselages and wings 
(airframes) and engines (powerplants).\12\ Generally, it takes 
between one and three years of education or training to become 
FAA-certificated and the worker can be certificated to repair 
airframes, engines, or both (A&P certificated).\13\
---------------------------------------------------------------------------
    \11\ Gov't Accountability Office, GAO-20-206, Aviation Maintenance: 
Additional Coordination and Data Could Advance FAA Efforts to Promote a 
Robust, Diverse Workforce p.5 (2020)
    \12\ Id. at 3.
    \13\ Id.
---------------------------------------------------------------------------
    There are generally three ways to become eligible to take 
the test to become an FAA-certificated mechanic: (1) military 
training and experience; (2) aviation maintenance technician 
(AMT) schools; and (3) practical work experience under the 
supervision of a certificated mechanic.\14\
---------------------------------------------------------------------------
    \14\ Id.
---------------------------------------------------------------------------
    FAA-certificated repairmen service aircraft components and 
must be recommended for certification by their existing 
employer to perform specific tasks like welding or 
painting.\15\ It generally takes a year to receive the 
necessary training or education to become a certificated 
repairman and, unlike mechanics, a repairman's certification is 
limited to the employer who issued it.\16\ Mechanics and 
repairman who are not certificated may still perform repair 
work, but they must be supervised by an FAA-certificated 
mechanic or repairman. One of the primary differences between 
certificated mechanics and repairman is that only a 
certificated mechanic can approve an aircraft for return to 
service.\17\
---------------------------------------------------------------------------
    \15\ Id.
    \16\ Id.
    \17\ Id.
---------------------------------------------------------------------------
    Avionics technicians generally install, inspect, test, or 
repair avionics equipment, such as radar, radio, navigation, 
and missile control systems in aircraft and space vehicles.\18\ 
There is no required test to become an avionics technician, but 
the technician may hold an A&P, repairman, or related FAA 
certificate.\19\
---------------------------------------------------------------------------
    \18\ Id. at 7
    \19\ Id.
---------------------------------------------------------------------------
    Though the aviation manufacturing workforce contains 
mechanics and repairmen, it also includes a variety of other 
professions as well. These include business strategy, cyber 
security, data science, and direct manufacturing, among other 
things.\20\ While all these professions support the aviation 
manufacturing industry, the profession that is most directly 
linked to the design of new aircraft is aerospace engineering. 
Aerospace engineers design, construct, and test aircraft and 
aircraft components to ensure they function according to 
design.\21\ Most entry-level positions for professional 
aerospace engineers generally require a bachelor's degree, 
although some may require a master's degree or doctorate.\22\
---------------------------------------------------------------------------
    \20\ Eno Center, supra note 3, at 41.
    \21\ GAO-14-237 at 4.
    \22\ Learn.org, What Training Do I Need for a Career in Aerospace?, 
available at: https://learn.org/articles/
What_Training_is_Necessary_for_a_Career_in_Aerospace.html
---------------------------------------------------------------------------

B. LABOR SHORTAGE

    Aviation maintenance and manufacturing companies are 
growing increasingly concerned about a labor shortage. The FAA 
predicts that more than 50 percent of the current science and 
engineering workforce is expected to soon hit retirement 
age.\23\ Half of the 330,000 FAA-certificated mechanics and 
repairmen as of December 2018 were between 50 and 70 years 
old.\24\ The problem is not limited to just retirements; for 
example, the number of students receiving degrees in avionics 
has significantly decreased in recent years.\25\ The Aviation 
Technician Education Council (ATEC) estimates that while 30 
percent of the current workforce is at or near retirement age, 
new entrants comprise only two percent of the workforce 
annually.\26\
---------------------------------------------------------------------------
    \23\ Federal Aviation Administration. ``Aviation and Space 
Education''. https://www.faa.gov/about/office_org/headquarters_offices/
ang/offices/tc/education/aviation/?set=whycare.
    \24\ GAO-20-206
    \25\ GAO-14-237 at 16.
    \26\ Eno Center, supra note 3, at 27.
---------------------------------------------------------------------------
    A recent analysis by the GAO found that, while not 
definitive, there was evidence of hiring difficulties 
consistent with a potential labor shortage for aircraft 
mechanics and service technicians.\27\ The same analysis found 
even stronger evidence of a labor shortage for aerospace 
engineers.\28\
---------------------------------------------------------------------------
    \27\ GAO-20-206 at 29-30.
    \28\ Id.
---------------------------------------------------------------------------
    Moreover, nearly 39 percent of aerospace companies predict 
an ``extreme'' effect on their business growth caused by a 
labor shortage.\29\ A 2014 report estimated that U.S. 
manufacturers face reduced earnings of up to 11 percent due to 
revenue losses stemming from skills shortages.\30\ And Boeing 
predicts that the aviation industry will require 754,000 new 
aircraft technicians over the next two decades.\31\
---------------------------------------------------------------------------
    \29\ Aerospace Industries Association. ``The Defining Workforce 
Challenge in U.S. Aerospace & Defense''. Available at: https://www.aia-
aerospace.org/wp-content/uploads/2016/09/STEM_Report_lowres_V11.pdf
    \30\ Accenture. ``The Manufacturing Skills and Training Study''. 
(2014) Available at: http://www.themanufacturinginstitute.org/Research/
Skills-and-Training-Study//media/70965D0C4A944329894C96E0316DF336.ashx
    \31\ Leslie Josephs. ``College of $70,000 a year? Aviation Industry 
scrambles for mechanics as retirements loom.'' (September 3, 2018), 
Available at: https://www.cnbc.com/2018/09/03/airlines-search-for-
young-mechanics-as-retirement-wave-looms.html.
---------------------------------------------------------------------------

    III. KEY CHALLENGES AFFECTING THE U.S. AVIATION MAINTENANCE AND 
                    MANUFACTURING WORKFORCE

A. RETIREMENT OF ``BABY BOOMER'' GENERATION

    By the year 2029, a majority of Americans who were born 
between 1946 and 1964 will have retired, and nearly one-fifth 
of the U.S. population will be 65 or older.\32\ And their 
retirements have already started. It is estimated that since 
2011, nearly 10,000 baby boomers reach retirement age every 
day.\33\ In terms of aviation, for example, Boeing estimates 
that nearly 10 percent of its U.S. workforce is eligible for 
retirement.\34\ As the baby boomer generation continues to exit 
the workforce, it becomes even more vital for Government and 
industry to develop strategies that expand the pipeline of 
workers into the aviation maintenance and manufacturing 
industry.
---------------------------------------------------------------------------
    \32\ Richard Fry. ``Millennials Are the Largest Generation in the 
U.S. Labor Force''. (April 11, 2018). Available at: https://
www.pewresearch.org/fact-tank/2018/04/11/millennials-largest-
generation-us-labor-force/ Also, Schneider, supra note 6.
    \33\ Schneider, supra note 6.
    \34\ Eno Center, supra note 3, at 41.
---------------------------------------------------------------------------

B. THE SKILLS GAP

    Many employers in the aviation industry express concern 
over the potential for a labor shortage, but when it comes to 
maintenance workers, employers are not concerned about just the 
supply of workers, but also the supply of qualified workers. 
For instance, according to a 2014 GAO report on the 
availability of aviation maintenance and engineering 
professionals, nearly 70 percent of employers interviewed by 
the GAO expressed some level of difficulty hiring workers with 
the desired experience levels.\35\
---------------------------------------------------------------------------
    \35\ GAO-14-237 at 23.
---------------------------------------------------------------------------
    This ``skills gap'' stems from several causes. One cause is 
the limited supply of certificated maintenance workers compared 
to the larger aviation maintenance workforce. For instance, 
from fiscal year 2001 to 2012, about 16,000 workers trained in 
aviation maintenance related occupations separated from the 
military annually.\36\ However, the vast majority of these 
workers will not obtain an A&P certificate before entering the 
civilian workforce, making them less desirable to 
employers.\37\ Since the military serves as a primary source of 
workers for employers looking to hire mechanics and service 
technicians, the lack of certificated workers among separated 
service members could limit employers' hiring pools.
---------------------------------------------------------------------------
    \36\ Id. at 18.
    \37\ Id.
---------------------------------------------------------------------------
    Another cause for the skills gap is the lack of skilled 
workers in positions requiring more than a high school diploma 
but less than a four-year college degree. In a 2014 report on 
the manufacturing industry, more than 75 percent of respondents 
cited a shortage of skilled workers, primarily in positions 
that only required an associate degree or other form of 
vocational training.\38\
---------------------------------------------------------------------------
    \38\ Accenture, supra note 26.
---------------------------------------------------------------------------
    The 2014 report echoes a more recent finding by the GAO 
that nearly 70 percent of employers in the aviation industry 
expressed hiring difficulties, specifically with respect to 
workers with craft skills--such as upholstery and cabinetry--
which are typically gained through either technical training or 
community college programs.\39\ In a white paper published last 
year, a U.S. aviation maintenance and repair company pointed to 
this workforce challenge as the primary reason the company had 
nearly 400 openings at its five U.S. facilities and two 
Canadian facilities.\40\
---------------------------------------------------------------------------
    \39\ GAO-14-237 at 23.
    \40\ Rob Mark. ``AAR White Paper Focuses on Maintenance Technician 
Shortage''. (February 5, 2019) Flying. Available at: https://
www.flyingmag.com/aar-maintenance-technician-shortage/
---------------------------------------------------------------------------

C. OUTDATED CURRICULUM FOR AMT SCHOOLS

    Many aerospace employers are reluctant to hire recent 
graduates since their education alone may not prepare them to 
begin work in their specified field.\41\ According to a GAO 
report, employers have expressed concern that the curriculum 
taught at AMT schools focuses too much on outdated 
technologies, such as aircraft built with dope and fabric, and 
not enough on modern technologies, such as composite materials, 
which are increasingly being used by manufacturers.\42\ 
Additionally, researchers have identified other subjects, such 
as soldering and welding, as issues in the curriculum that 
could be completely eliminated or condensed.\43\ The current 
AMT school requirements, which are prescribed through FAA 
regulations, do not always provide schools with the flexibility 
needed to control how these subjects are taught.\44\
---------------------------------------------------------------------------
    \41\ GAO-20-206 at 14.
    \42\ GAO-14-237 at 24.
    \43\ Id.
    \44\ See 14 CFR Part 147.
---------------------------------------------------------------------------
    The FAA is responsible for approving and overseeing AMT 
schools as well as establishing the minimum curriculum and 
training requirements students need to obtain before becoming 
eligible to take the FAA mechanic tests.\45\ Due to rising 
concerns from industry and AMT schools that FAA curriculum and 
testing requirements are becoming obsolete, the FAA has 
recently proposed to modernize these requirements, which have 
remained largely unchanged for decades.\46\ Unfortunately, 
there has been little progress since the FAA issued its 
proposed rule aimed at modernizing the AMT educational 
curriculum in 2015.
---------------------------------------------------------------------------
    \45\ GAO-20-206 at 6.
    \46\ Id.
---------------------------------------------------------------------------
    At the same time, AMT schools are increasingly pushing back 
against the Federally-mandated curriculum and training 
requirements. For instance, in 2018, Southern Utah University 
(SUU) unsuccessfully petitioned the FAA for exemption from the 
Federal training requirements of approved curricula.\47\ In its 
petition, SUU claimed that FAA requirements severely limited 
the school's ability to design a program that met its students' 
needs and that the current rules required training on items 
that most AMTs will never utilize in their careers.\48\ Many in 
industry assert that if AMT students were taught subjects more 
relevant to modern industry needs, employers would be more 
willing to hire applicants straight out of school.
---------------------------------------------------------------------------
    \47\ Eno Center, supra note 3, at 25.
    \48\ Id.
---------------------------------------------------------------------------

D. LACK OF DIVERSITY

    To meet industry demand for new, skilled aviation workers, 
employers will need to expand the pool of workers from which 
they traditionally hire. One way to expand this candidate pool 
is to recruit workers from historically underrepresented groups 
in the aviation industry. Currently, the percentage of female 
FAA-certificated A&P mechanics remains low at only 2.4 
percent.\49\ Only 13 percent of aerospace engineers are women, 
while 75 percent of aerospace engineers are white.\50\ In 
contrast, women and minorities make up 50 and 40 percent of the 
U.S. population, respectively.\51\ These significant 
discrepancies suggest that increased outreach to these 
underrepresented groups could expand the hiring pool and help 
alleviate a future labor shortage in the aviation maintenance 
and manufacturing industry.
---------------------------------------------------------------------------
    \49\ GAO-20-206 at 28.
    \50\ Peter Dizikes, ``Why Do Women Leave Engineering?''. MIT News 
(June 2016). Available at: http://news.mit.edu/2016/why-do-women-leave-
engineering-0615; Also Sophia Shaw, ``75% of US Scientists and 
Engineers are White. We Need Diversity to Lead on STEM''. The Guardian 
(June 2015). Available at: https://www.theguardian.com/commentisfree/
2015/jun/02/75-per-cent-scientists-engineers-white-diversity-stem
    \51\ U.S. Census Bureau, ``Quick Facts''. Available at: https://
www.census.gov/quickfacts/fact/table/US/LFE046218
---------------------------------------------------------------------------

E. THE GLAMOUR GAP AND INDUSTRY COMPETITION

    Another reason the aviation maintenance and manufacturing 
industry is having hiring difficulties relate to the waning 
interest among younger generations to enter the aviation field, 
otherwise known as the ``Glamour Gap.'' \52\ For instance, 
enrollment at FAA-certificated AMT schools has decreased by 2 
percent in recent years and AMT school programs are currently 
only operating at 50 percent capacity.\53\ Several employers 
and stakeholders point to the declining number of ``shop'' 
classes in high school and the perception that well-paying 
professions can be obtained only through four-year institutions 
as leading causes of the growing disinterest among young people 
to seek jobs in the aviation maintenance and manufacturing 
fields.\54\
---------------------------------------------------------------------------
    \52\ Jim Freaner, ``Aerospace Skills Gap: Workforce Declines, As 
Talent Needs Increase''. Area Development. Available at: https://
www.areadevelopment.com/Aerospace/q3-2015-auto-aero-site-guide/
Aerospace-Skills-Gap-Workforce-Declines-Needs-Increase-45711.shtml
    \53\ Eno Center, supra note 3, at 26.
    \54\ Id.
---------------------------------------------------------------------------
    This trend appears to be made worse by industry 
competition. For instance, the lack of job security resulting 
from the cyclical nature of the aviation industry has made it 
harder for aviation companies to compete with other industries, 
such as the financial services or information technology 
industry, to attract and retain engineers and other 
professionals with similar skill sets.\55\ In fact, 20 percent 
of graduates of AMT schools ultimately pursue careers in fields 
outside of aviation.\56\
---------------------------------------------------------------------------
    \55\ GAO-14-237 at 16.
    \56\ Id.
---------------------------------------------------------------------------

    IV. KEY INITIATIVES SUPPORTING THE U.S. AVIATION MAINTENANCE AND 
                    MANUFACTURING WORKFORCE

A. CONGRESSIONAL MANDATES AND INITIATIVES

    Aviation Maintenance Workforce Grants. Section 625 of the 
FAA Reauthorization Act of 2018 directed the Department of 
Transportation (DOT) to establish a grant program to ``support 
the education and recruitment of aviation maintenance technical 
workers and the development of the aviation maintenance 
workforce.'' \57\ The first-of-its-kind program is authorized 
at $5 million for each fiscal year through 2023. The program--
delegated to the FAA--will provide grants for educational 
programs, scholarships, apprenticeships and other outreach 
initiatives to expand educational opportunities in the field of 
aviation maintenance.\58\
---------------------------------------------------------------------------
    \57\ P.L.115-254,  625 (2018).
    \58\ Id.
---------------------------------------------------------------------------
    Student Outreach Report. Section 601 of the FAA 
Reauthorization Act of 2018 directed the FAA to submit a report 
to Congress describing the agency's outreach efforts to 
elementary and secondary students interested in STEM careers in 
order to prepare them for aviation- and aeronautical-related 
careers and mitigate the anticipated shortage of pilots and 
other aviation professionals.\59\ The FAA completed the report 
and submitted it to Congress in September 2019. In the report, 
the FAA highlighted a 20 percent increase in the number of 
outreach representatives and a 50 percent increase in the 
number of its outreach events.\60\
---------------------------------------------------------------------------
    \59\ P.L.115-254,  601 (2018).
    \60\ Federal Aviation Administration, Section 601 Youth in Aviation 
Student Outreach Report, p.2, available at https://www.faa.gov/about/
plans_reports/congress/media/
Section_601_Youth_in_Aviation_Student_Outreach_Report.pdf
---------------------------------------------------------------------------
    Youth Task Force and Women in Aviation Advisory Board. The 
FAA Reauthorization Act of 2018 included several other 
provisions targeted toward recruiting more young people and 
women to pursue careers in the aviation industry.
    <bullet> LSection 612 of the Act directed the FAA to create 
the Women in Aviation Advisory Board, which is tasked with 
``promoting organizations and programs that are providing 
education, training, mentorship, outreach and recruitment of 
women in the aviation industry.'' The FAA solicited nominations 
for the board in October 2019 and anticipates selections to be 
announced in the spring of 2020.
    <bullet> LSection 602 of the bill directed the FAA to 
establish the Youth Access to American Jobs in Aviation Task 
Force. The task force is responsible for providing 
recommendations and strategies to the FAA that will facilitate 
and encourage high school students to enroll in high school 
career and technical courses that would prepare them for an 
aviation career or enroll in a course of study related to an 
aviation career, including aviation manufacturing, engineering, 
and maintenance.\61\ The FAA solicited nominees for the task 
force in October 2019 and anticipates selections to be 
announced in the spring of 2020.
---------------------------------------------------------------------------
    \61\ P.L.115-254,  602, 612 (2018).
---------------------------------------------------------------------------

B. FAA PROGRAMS AND INITIATIVES

    FAA Office of Aviation and Space Education. The FAA's 
Science, Technology, Engineering, and Math (STEM) Aviation and 
Space Education (AVSED) program was created to expose students 
to aviation and aerospace careers, help recruit new workers 
into these fields, and promote STEM education to students at 
all levels.\62\ For example, through the program, the agency 
works collaboratively with government and private sector 
entities to promote aviation-related STEM skills and grow the 
pipeline of students interested in working in these fields.\63\ 
AVSED has produced promotional materials, such as brochures and 
DVDs, that it shares with college recruiters and guidance 
counselors and distributes at career fairs. Additionally, AVSED 
is also involved in initiatives such as the Real World Design 
Challenge, a high school engineering competition and the Build 
a Plane program, which provides schools with actual aircraft to 
be used as teaching tools.\64\ The AVSED program has been in 
existence since 1961, but it has been criticized for not having 
a dedicated budget for these programs and not instituting 
mechanisms for evaluating the effectiveness of its outreach 
efforts.\65\
---------------------------------------------------------------------------
    \62\ Federal Aviation Administration. About STEM AVSED. Available 
at: https://www.faa.gov/education/about/
    \63\ GAO-14-237 at 30
    \64\ Id.
    \65\ Id.
---------------------------------------------------------------------------
    FAA Aviation Workforce Steering Committee. The FAA's 
Aviation Workforce Steering Committee (Steering Committee) was 
established in February 2019 to determine agency goals for 
addressing aviation workforce challenges, exploring options 
[for resolving those challenges], and facilitating cross agency 
strategic coordination.\66\ The Steering Committee's charter 
emphasizes providing diverse populations with clear pathways 
into aviation careers to expand the talent pool from which both 
Government and industry may recruit.\67\ While the Steering 
Committee considers all aviation professions, it identifies its 
immediate challenge is to focus on the shortage of pilots and 
technicians.\68\
---------------------------------------------------------------------------
    \66\ Federal Aviation Administration. Section 601 Youth in Aviation 
Student Outreach Report. Pg. 15. Available at: https://www.faa.gov/
about/plans_reports/congress/media/
Section_601_Youth_in_Aviation_Student_Outreach_Report.pdf
    \67\ GAO-20-206 at 19.
    \68\ Id.
---------------------------------------------------------------------------
    AMT Curriculum and Testing Reform. In 2015, as mentioned 
earlier, the FAA issued a notice of proposed rulemaking (NPRM) 
to modernize and remove outdated portions of the curriculum to 
become a certificated AMT.\69\ However, the rule did not move 
forward until April 2019, when the agency published a 
supplemental NPRM \70\ in which the FAA proposed allowing AMT 
schools the option of including certain competency-based 
training requirements and allowing satellite training 
locations, among other things, in an effort to provide AMT 
schools with more flexibility in teaching the curriculum.\71\ 
Even with the additional flexibility, some still believe that 
the rule as currently proposed does not go far enough. For 
instance, ATEC--an organization that advocates on behalf of the 
aviation maintenance education community--has expressed concern 
that many of the new requirements in the proposed rule are 
duplicative and do not provide the flexibility needed to train 
the next generation of aviation technicians.\72\
---------------------------------------------------------------------------
    \69\ GAO-20-206 at 23.
    \70\ Id.
    \71\ 84 Fed. Reg. 15533 (April 16, 2019)
    \72\ ARSA, ``Congress Fully Funds New Aviation Maintenance 
Workforce Grant Program''. September 2019. https://www.atec-amt.org/
part-147.html
---------------------------------------------------------------------------
    The FAA has yet to issue a final rule for modernizing 
curriculum requirements, as required by section 624 of the FAA 
Reauthorization Act of 2018. According to the FAA, the final 
rule is scheduled for release by October 2020, with revised 
mechanic standards to be finalized soon thereafter.\73\
---------------------------------------------------------------------------
    \73\ GAO-20-206 at 26.
---------------------------------------------------------------------------

C. OTHER GOVERNMENT INITIATIVES

    In addition to FAA-led efforts, there are several other 
Government programs that seek to help address the mounting need 
for aviation maintenance and manufacturing workers. For 
instance, in addition to the Joint Services Aviation 
Maintenance Technician Credentialing Council (JSAMTCC) bridge 
program, which allows military service members to take the A&P 
exam after completion, the Defense Department also administers 
the Credentialing Opportunities On-Line (COOL) program, which 
creates a pathway for service members to earn industry 
recognized professional certifications and licenses.\74\ The 
program provided more than $5 million toward aviation 
maintenance-related credentials from 2015 through 2018 for more 
than 2,500 service members.\75\
---------------------------------------------------------------------------
    \74\ Id. at 15.
    \75\ Id.
---------------------------------------------------------------------------
    The Department of Labor (DOL) also has programs directed 
towards growing the aviation maintenance workforce. The DOL's 
Registered Apprenticeship Program awards grants to provide 
employer-driven training opportunities that combine on-the-job 
learning with related classroom instruction.\76\ The Labor 
Department has awarded nearly $3.8 million in grants and 
contracts from 2014 through 2018 to promote these 
apprenticeships for aviation maintenance workers.\77\
---------------------------------------------------------------------------
    \76\ Id.
    \77\ Id.
---------------------------------------------------------------------------
    Further, over the course of the last decade, the Department 
of Education (ED) has also pursued a number of initiatives to 
promote aviation education and careers. For example, in June 
2017, ED announced a new grant program, the High School Career 
and Technical Education (CTE) Teacher Pathway Initiative to 
address the shortage of CTE programs.\78\ The ED has also 
partnered with the FAA to hold career fairs at colleges and 
universities, including Historically Black Colleges and 
Universities.\79\ Across the aerospace industry, there is 
growing interest in and support for greater access to 
scholarships and student loan assistance for those attending 
technical colleges.
---------------------------------------------------------------------------
    \78\ See: https://www.atec-amt.org/news/department-of-ed-announces-
high-school-cte-teacher-pathway-initiative.
    \79\ See: https://sites.ed.gov/whhbcu/2014/01/29/the-federal-
aviation-administration-faa-at-the-u-s-department-of-transportation-is-
hiring/.
---------------------------------------------------------------------------

D. INDUSTRY INITIATIVES

    Many companies are establishing their own training programs 
and outreach initiatives to further develop and maintain their 
workforce. Below are several examples of industry-led 
initiatives and partnerships.
    <bullet> LIn an effort to hire 2,000 mechanics over the 
next decade, a major airline is providing $350,000 in grants to 
nine aviation high schools around the country in an effort to 
expand its workforce.\80\
---------------------------------------------------------------------------
    \80\ Josephs, supra note 27.
---------------------------------------------------------------------------
    <bullet> LAnother major airline is focusing on recruiting 
and developing its workforce internally, allowing its ramp 
workers to apprentice and become mechanics.\81\
---------------------------------------------------------------------------
    \81\ Eno Center, supra note 3, at 23.
---------------------------------------------------------------------------
    <bullet> LAn aviation maintenance and repair company is 
creating a program at schools located near its repair stations 
to demonstrate how students can learn skills leading to 
multiple career paths at the company. The learned skills that 
students develop within the program can then be used to pursue 
an A&P mechanic certificate.\82\
---------------------------------------------------------------------------
    \82\ Rob Mark, ``AAR White Paper Focuses on Maintenance Technician 
Shortage,'' Flying. (Feb. 2019). Available at: https://
www.flyingmag.com/aar-maintenance-technician-shortage/
---------------------------------------------------------------------------

                               WITNESSES

PANEL 1

    <bullet> LMs. Kate Lang, Senior Advisor for Aviation 
Workforce Outreach, FAA
    <bullet> LMs. Heather Krause, Director, Physical 
Infrastructure Issues, GAO

PANEL 2

    <bullet> LMr. Steven Jackson, Principal, Aviation High 
School, accompanied by Mr. Mario Cotumaccio, Assistant 
Principal, Aviation High School
    <bullet> LMs. Sharon DeVivo, President, Vaughn College
    <bullet> LMr. Joseph McDermott, Managing Director, 
Technical Operations, Delta Air Lines
    <bullet> LMr. Jay Neely, Vice President of Law and Public 
Affairs, Gulfstream Aerospace
    <bullet> LMs. Dana Donati, General Manager and Director of 
Academic Programs, LIFT Academy


   LOOKING FORWARD: THE FUTURE OF AMERICA'S AVIATION MAINTENANCE AND 
                        MANUFACTURING WORKFORCE

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2020

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2167, Rayburn House Office Building, Hon. Rick Larsen 
(Chairman of the subcommittee) presiding.
    Mr. Larsen. Good morning, and I call this meeting of the 
Aviation Subcommittee hearing to order on ``Looking Forward: 
The Future of America's Aviation Maintenance and Manufacturing 
Workforce.''
    I just want to--let's see, I think I just said the 
subcommittee will come to order. Maybe I didn't say it that 
way, but I said it.
    I ask unanimous consent the chair be authorized to declare 
a recess during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    So I want to thank today's witnesses for joining the 
Aviation Subcommittee discussion today on the future of 
America's aviation maintenance and manufacturing workforce.
    At the beginning of the 116th Congress I set a forward-
looking agenda for the subcommittee, ``Aviation and Aerospace 
2050,'' to focus on fostering technological innovation, 
ensuring safety, and improving the Nation's competitiveness in 
the global aviation and aerospace marketplace.
    To ensure the U.S. remains at the forefront of aviation and 
aerospace, industry, Federal agencies, and Congress must 
continue to explore how to recruit and train the future 
aviation workforce. Maintenance and manufacturing are key 
reasons why the U.S. aviation and aerospace industry is such a 
powerful economic engine.
    This topic hits particularly close to home for me. The 
Pacific Northwest is the aviation capital of the world. In my 
home State of Washington State, more than 136,000 highly 
skilled aviation workers produce an estimated 1,400 aircraft 
and unmanned aircraft systems, or UAS, each year. Snohomish 
County, where I was born and raised, and I get to, in part, 
represent, is home to nearly 50 percent of the aviation and 
aerospace jobs in my State.
    In 2018, Congress passed the longest Federal Aviation 
Administration reauthorization in decades. The bipartisan, 5-
year law includes a comprehensive workforce development title 
to support important aerospace jobs across the U.S., and to 
help the aviation industry prepare and diversify its future 
workforce. Among its provisions, the law authorizes a key 
aviation maintenance workforce grant program to support the 
education and recruitment of aviation maintenance technicians; 
establishes a Women in Aviation Advisory Board to encourage 
women and girls to pursue rewarding aviation careers; and 
includes my provision to create a new Youth Access to American 
Jobs in Aviation Task Force to encourage high school students 
to enroll in aviation manufacturing, maintenance, and 
engineering apprenticeships.
    And on today's first panel of witnesses are Kate Lang, the 
FAA's Senior Advisor for Aviation Workforce Outreach, and 
Heather Krause, the Government Accountability Office's Director 
of Physical Infrastructure.
    So today, Ms. Lang, I expect your testimony will offer 
substantive updates on the Administration's efforts to swiftly 
implement the FAA reauthorization bill's workforce 
requirements, and other efforts to address aerospace workforce-
related challenges.
    And Ms. Krause, I look forward to hearing more about the 
barriers to enhancing the workforce development pipeline.
    While globalization and the emergence of new markets 
present opportunities for American aviation, there are 
challenges. For example, according to the Aviation Technician 
Education Council, 30 percent of the aviation maintenance 
technician workforce is at or near retirement age. And although 
today's hearing focuses on the U.S. aviation maintenance and 
manufacturing workforce, the issues faced by U.S. aerospace 
employers are reflective of broader issues across the industry.
    Witnesses on our second panel play an important role in the 
aviation maintenance and manufacturing pipeline, and I have 
seen firsthand how some of this Federal funding is having a 
positive impact on the recruitment of a more diverse aviation 
maintenance workforce in my State.
    Women currently make up less than 3 percent of the aviation 
maintenance workforce nationwide. But with the aid of a 
National Science Foundation grant, Everett Community College's 
Advanced Manufacturing Training and Education Center, or AMTEC, 
is partnering with local school districts and the aviation 
industry to increase recruiting of women to its aerospace 
technicians program by 30 percent over the next 3 years.
    I have also visited Edmonds Community College's Washington 
State Aerospace Training and Research, or WATR, Center, located 
at Paine Field in my district, where, with the help of GI bill 
benefits and other financial assistance programs, students 
learn the skills necessary for high-wage, high-demand aerospace 
and manufacturing jobs in just 12 weeks.
    Aviation High School and Vaughn College in New York are 
here today, and are innovative educational leaders whose 
programs produce future aviation maintenance technicians and 
engineers. So, Mr. Jackson and Ms. DeVivo, when you are on the 
panel, on the second panel, I look forward to hearing more 
about your efforts and what the FAA or Congress can do to 
improve outdated maintenance curricula, and to reduce the 
amount of debt for students.
    Key employers like Delta Air Lines and Republic Airways 
will shed light on recruiting and retaining skilled workers. 
So, Mr. McDermott and Ms. Donati, I am interested in hearing 
more about your company's work to expand the pipeline of 
qualified workers, particularly to women, people of color, and 
other historically under-represented groups.
    And lastly, manufacturers like Gulfstream depend on a 
skilled workforce to remain competitive in the U.S. and abroad. 
So, Mr. Neely, when you are on the panel today, I look forward 
to hearing your recommendations on addressing the skills gap 
and what is on the horizon for the U.S. maintenance and 
manufacturing workforce.
    The future of America's aviation maintenance and 
manufacturing workforce is bright, but it is clear Congress can 
do more to ensure the U.S. remains at the forefront of aviation 
and aerospace. Today's hearing does provide this subcommittee 
with the opportunity to reaffirm its commitment to supporting 
U.S. jobs and the aviation workforce. Improving skills training 
and diversifying the aviation workforce is an all-around win 
for employers, for job seekers, and for the aviation and 
aerospace sectors.
    So I want to thank you again, give a thank-you again to 
today's witnesses, and I look forward to our discussion.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
  from the State of Washington, and Chairman, Subcommittee on Aviation
    Good morning and thank you to today's witnesses for joining the 
Aviation Subcommittee's discussion on the ``Future of America's 
Aviation Maintenance and Manufacturing Workforce.''
    At the beginning of the 116th Congress, I set a forward-looking 
agenda for this Subcommittee, ``Aviation and Aerospace 2050,'' to focus 
on fostering technological innovation, ensuring safety and improving 
the nation's competitiveness in the global aviation and aerospace 
marketplace.
    To ensure the United States remains at the forefront of aviation 
and aerospace, industry, federal agencies and Congress must continue to 
explore how to recruit and train the future aviation workforce.
    Maintenance and manufacturing are key reasons why the U.S. aviation 
industry is such a powerful economic engine.
    This topic hits particularly close to home for me.
    The Pacific Northwest is the aviation capital of the world.
    In my home state of Washington, more than 136,000 highly skilled 
aviation workers produce an estimated 1,400 aircraft and unmanned 
aircraft systems (UAS) each year.
    Snohomish County, where I was born and raised and in part 
represent, is home to nearly 50 percent of aviation and aerospace jobs 
in Washington state.
    In 2018, Congress passed the longest Federal Aviation 
Administration (FAA) reauthorization in decades.
    The bipartisan five-year law includes a comprehensive workforce 
development title to support important aerospace jobs across the U.S., 
and to help the aviation industry prepare and diversify its future 
workforce.
    Among its provisions, the law:
    <bullet>  Authorizes a key aviation maintenance workforce grant 
program to support the education and recruitment of aviation 
maintenance technicians,
    <bullet>  Establishes a Women in Aviation Advisory Board to 
encourage women and girls to pursue rewarding aviation careers, and
    <bullet>  Includes my provision to create a new Youth Access to 
American Jobs in Aviation Task Force to encourage high school students 
to enroll in aviation manufacturing, maintenance and engineering 
apprenticeships.

    On today's first panel of witnesses are Kate Lang, the FAA's Senior 
Advisor for Aviation Workforce Outreach, and Heather Krause, the 
Government Accountability Office's Director of civil aviation issues.
    Ms. Lang, I expect your testimony will offer substantive updates on 
the administration's efforts to swiftly implement the FAA 
reauthorization bill's workforce requirements and other efforts to 
address aerospace workforce-related challenges; and Ms. Krause, I look 
forward to hearing more about barriers to enhancing the workforce 
development pipeline.
    While globalization and the emergence of new markets present 
opportunities for American aviation, there are challenges.
    For example, according to the Aviation Technician Education 
Council, 30 percent of the Aviation Maintenance Technician workforce is 
at or near retirement age.
    Although today's hearing focuses on the U.S. aviation maintenance 
and manufacturing workforce, the issues faced by U.S. aerospace 
employers are reflective of broader issues across the industry.
    Witnesses on our second panel play important roles in the aviation 
maintenance and manufacturing pipeline.
    I have also seen how federal funding is having a positive impact on 
the recruitment of a more diverse aviation maintenance workforce in 
Washington.
    Women currently make up less than 3 percent of the aviation 
maintenance workforce nationwide.
    With the aid of a National Science Foundation grant, Everett 
Community College's Advanced Manufacturing Training & Education Center 
(AMTEC) is partnering with local school districts and the aviation 
industry to increase recruiting of women into its aerospace technician 
programs by 30 percent over the next three years.
    I have also visited the Edmonds Community College's Washington 
Aerospace Training & Research (WATR) Center located at Paine Field in 
my district, where, with the help of GI Bill benefits and other 
financial assistance programs, students learn the skills necessary for 
high-wage, high-demand aerospace and manufacturing jobs in just 12 
weeks.
    Aviation High School and Vaughn College in New York are innovative 
educational leaders whose programs produce future aviation maintenance 
technicians and engineers.
    Mr. Jackson and Ms. DeVivo, I look forward to hearing more about 
your efforts, and what the FAA or Congress can do to improve outdated 
maintenance curriculums and reduce the amount of debt for students.
    Key employers like Delta Air Lines and Republic Airways will shed 
light on recruiting and retaining skilled workers.
    Mr. McDermott and Ms. Donati, I am interested in hearing more about 
your companies' work to expand the pipeline of qualified workers, 
particularly to women, people of color and other historically 
underrepresented groups.
    Lastly, manufacturers like Gulfstream depend on a skilled workforce 
to remain competitive in the U.S. and abroad.
    Mr. Neely, I look forward to hearing your recommendations on 
addressing the skills gap and what is on the horizon for the U.S. 
maintenance and manufacturing workforce.
    The future of America's aviation maintenance and manufacturing 
workforce is bright, but it is clear Congress can do more to ensure the 
U.S. remains at the forefront of the aviation and aerospace.
    Today's hearing provides this Subcommittee the opportunity to 
reaffirm its commitment to supporting U.S. jobs and the aviation 
workforce.
    Improving skills training and diversifying the aviation workforce 
is an all-around win for employers, job seekers and the aviation and 
aerospace sectors.
    Thank you again to today's witnesses, and I look forward to our 
discussion.

    Mr. Larsen. And with that I want to now turn to the ranking 
member of the subcommittee, Mr. Graves, for an opening 
statement.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I am 
always offended every time I hear you come up here and talk 
about all the high-tech things you have going on up in the 
Pacific Northwest. We have Mardi Gras, alligators, king cakes. 
You don't hold a candle to us.
    [Laughter.]
    Mr. Graves of Louisiana. That is right, we do claim 
Higgins, even, the ``Cajun John Wayne.'' You all look that up 
on YouTube at some point. It is worth it.
    As the chairman said, we had our opening hearing on 
Aviation and Aerospace 2050. It was a fascinating hearing, 
because we had the opportunity to truly look to the future of 
aviation. To sit and talk about aviation--supersonic passenger 
travel, to talk about the role of drones and other new 
technologies delivering everything from food to parcels to 
people in regard to urban aerial transportation, and, of 
course, commercial space travel, commercial passenger space 
travel, it really is extraordinary to think about the future.
    The aviation industry today is the largest sector in terms 
of our net trade benefits. We do more exports of aviation 
materials or aviation-related technologies than any other 
sector. It is a very important part of our economy. In fact, 
according to a 2016 FAA study, it constitutes $1.6 trillion in 
annual economic activity, supporting millions and millions of 
jobs in the United States, and a couple of them are up in the 
Northwest, I believe.
    Mr. Larsen. A couple.
    Mr. Graves of Louisiana. So this is really important. But 
when you start projecting forward, the aviation industry has 
found that we are looking at shortages to the tune of 754,000 
jobs over the next 20 years in terms of maintenance techs, and 
790,000 jobs in terms of pilots. This doesn't even take into 
consideration the innovation that I noted.
    So let me go back through that again. We have got this huge 
future in regard to the future of aviation, the innovation, the 
technology that is before us. We have the Nation that has led 
this, and it is a very important part of our economy, it is an 
important part of our exports in the United States. And--but we 
are looking, potentially, in some sectors of aviation, looking 
at over half of the workforce being proximate to retirement 
age.
    So we have got to make sure that we are all collectively 
working together. And I want to emphasize that: all of us. 
Because this is not, Ms. Lang, as you well know, this isn't all 
on the shoulders of the FAA, while you do play a role.
    And one thing I want to make mention of, and I know the 
chairman shares the concern and the priority, is updating the 
curriculum. The current curriculum was written before I was 
born. I don't know, maybe that is not that old, but I think it 
is.
    We need to make sure that each entity is focused on their 
respective role. I know that Republic Airlines has recently 
invested in a training academy. Again, I know, Ms. Lang, that 
you are working on updating the curriculum, which is something 
that is very important.
    We need to make sure that we are working with our aviation 
schools, including in the State that I represent--Louisiana 
Tech University has an aviation program--to ensure that we are 
attracting the appropriate students into the right curriculums. 
And the chairman noted the huge opportunities we have in terms 
of diversity with African Americans, with women, Hispanics, and 
other populations that are clearly under-represented in the 
repair fields, as well as in the mechanic fields.
    So I look forward to working with all of you, looking 
forward to the FAA and GAO testimony in terms of your 
suggestions and recommendations. And, in particular, we are 
looking forward to hearing your thoughts on how the FAA 
reauthorization bill we did in 2018, which had a workforce 
title, will help to address some of the challenges we have 
before us.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    Earlier this Congress, we held a hearing to look at the future of 
aviation and talk about issues such as the possibility of supersonic 
travel, the role of drones in delivering packages or people to their 
destinations, urban air mobility, and commercial space travel. It's an 
extraordinary future to think about.
    The aviation industry today is the largest sector in terms of our 
net trade benefits--we export more aviation related materials and 
technologies than any other sector. It's such a critical component of 
our economy. According to the FAA, aviation constitutes $1.6 trillion 
in annual economic activity and supports millions of jobs.
    However, we're facing projected needs of 754,000 aviation 
maintenance technician jobs and 790,000 pilots over the next 20 years. 
These figures don't even take into consideration the kinds of 
innovation I noted.
    On one hand, we have a promising future in the economically vital 
sector of aviation, but on the other hand, a large segment of that 
workforce is nearing retirement age. So it's imperative that we work 
collectively to ensure we're ready for our future's promise.
    This issue is not all on the shoulders of the FAA, but the FAA does 
have influence over the workforce pipelines. For example, the 
curriculum used to certify aircraft mechanics set by the FAA dates to 
the 1960s. That's absolutely a barrier to entry, and I'm glad that the 
FAA is working to bring it into the 21st century.
    But everyone in this industry needs to focus on their respective 
role in growing the workforce. For example, we'll hear today from the 
LIFT Academy--a pilot and mechanic training academy that Republic 
Airlines has invested in. We'll also hear from Gulfstream and Delta Air 
Lines about their training programs.
    In addition, we need to ensure we're working with our aviation 
schools; Louisiana Tech, in my home state, has an aviation program. And 
Vaughn College and Aviation High School are here to testify today as 
well.
    All of our efforts together must focus on attracting capable people 
into these careers, including recognizing our incredible opportunity to 
attract a much more diverse workforce. Just 2 percent of aircraft 
mechanics and 4 percent of airline transport pilots are women. Only 3 
percent of commercial pilots are African American and 7 percent are 
Hispanic or Latino.
    In 2018, the Committee passed the bipartisan FAA Reauthorization 
Act, which included the most comprehensive aerospace workforce title 
ever signed into law. I look forward to hearing from the FAA on their 
progress in implementing the title, and who those provisions can help 
us address workforce issues.

    Mr. Graves of Louisiana. With that, Mr. Chairman, I yield 
back.
    Mr. Larsen. Thank you, Representative Graves. I now turn to 
the ranking member of the full committee, Representative Graves 
of Missouri.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. I 
appreciate it. This hearing is very important, and I appreciate 
you doing this.
    The pipeline of people seeking careers in aerospace has 
been running low for years. We know that. And the projected 
growth in commercial aviation makes an already serious 
situation even more critical. Aerospace careers including 
piloting, maintenance, manufacturing, and engineering, they 
offer pathways to well-paying careers that are in demand. These 
are the kinds of jobs that you can raise a family on, while 
also having the flexibility to find work in just about any part 
of the country.
    And despite these benefits, and despite the demand, 
companies across the aerospace industry, they do face 
challenges recruiting and retaining well-qualified 
professionals. At the same time the industry is contending with 
forecasted growth, it also faces an impending baby boomer 
retirement wave, workers moving to other industries, and high 
barriers to those who might want to pursue an aviation career.
    Congress recognized the impending workforce crisis, and 
responded by including an entire aviation workforce title--as 
was pointed out by Ranking Member Graves--in the 2018 FAA 
reauthorization bill, including my bill to invest $5 million in 
aviation technician workforce training. Much of the work that 
was directed by that law is underway, and I look forward to 
hearing from the FAA and the GAO about those efforts.
    Additionally, there have been several bills introduced this 
Congress to address aerospace workforce shortages and entry 
barriers, and I wholeheartedly support the efforts to deal with 
the barriers to entry and ensure a steady, more reliable 
pipeline of well-qualified and diverse aerospace professionals. 
I look forward to working in a bipartisan way to address the 
workforce shortages.
    But I do believe that we have to be very thoughtful in 
addressing the workforce needs. The FAA should not be replacing 
the role that the industry and the other Government agencies 
must play in these efforts. And I know several on the panel and 
throughout the industry have programs in place to help attract 
new workers, and I look forward to hearing more about how the 
FAA can complement those efforts. So, as we continue the 
conversation and consider legislation to address aerospace 
workforce issues, we must be mindful not to pull the FAA in too 
many directions.
    As I said in the beginning, this hearing is very important. 
It is important, not just for the future success of the U.S. 
aerospace industry, but to the hard-working men and women who 
make up the aerospace workforce.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Today's hearing is very important. The pipeline of people seeking 
careers in aerospace has been running low for years, and predicted 
growth in commercial aviation makes an already serious situation even 
more critical.
    Aerospace careers, including piloting, maintenance, manufacturing, 
and engineering, offer pathways to stable, well-paying careers that are 
in demand. These are the kinds of jobs that you can raise a family on 
while also having the flexibility to find work in many different places 
across the country.
    Despite these benefits and despite the demand, companies across the 
aerospace industry face challenges recruiting and retaining well-
qualified professionals. At the same time the industry is contending 
with forecasted growth, it also faces an impending ``baby boomer'' 
retirement wave, workers moving to other industries, and high barriers 
to entry for those who might want to pursue an aerospace career.
    Congress recognized the impending workforce crisis and responded by 
including an entire Aviation Workforce title in the FAA Reauthorization 
Act of 2018, including my bill to invest $5 million in aviation 
technician workforce training. Much of the work directed by that law is 
underway, and I look forward to hearing from the FAA and GAO on those 
efforts.
    Additionally, there have been several bills introduced this 
Congress to address aerospace workforce shortages and entry barriers. I 
wholeheartedly support efforts to deal with barriers to entry and 
ensure a steady, more reliable pipeline of well-qualified and diverse 
aerospace professionals.
    I look forward to working in a bipartisan way to address workforce 
shortages. But I believe we must be very thoughtful in addressing 
workforce needs. The FAA should not be replacing the role that industry 
or other government agencies must play in these efforts.
    I know several on the panel and throughout the industry have 
programs in place to help attract new workers and I look forward to 
hearing more about how the FAA can complement those efforts.
    So, as we continue the conversation and consider legislation to 
address aerospace workforce issues, we must be mindful not to pull the 
FAA in too many directions.
    As I said in the beginning, this hearing is important. It is 
important not just to the future success of the U.S. aerospace 
industry, but to the hardworking men and women who make up our 
aerospace workforce.

    Mr. Graves of Missouri. And with that, I look forward to 
hearing from our witnesses, and I thank everyone for being 
here, and I would yield back the balance.
    Mr. Larsen. Thank you, Representative Graves, Ranking 
Member. I want to now welcome the witnesses on the panel.
    Ms. Kate Lang is a Senior Advisor for Aviation Workforce 
Outreach at the Federal Aviation Administration, and Ms. 
Heather Krause is the Director of Physical Infrastructure at 
the Government Accountability Office, or GAO. Thanks for being 
here today. We are looking forward to your testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    Since it has been included in the record, the subcommittee 
requests you limit your oral testimony to 5 minutes each.
    All right, with that I recognize Ms. Lang for 5 minutes.

   TESTIMONY OF CATHERINE LANG, SENIOR ADVISOR FOR AVIATION 
   WORKFORCE OUTREACH, FEDERAL AVIATION ADMINISTRATION; AND 
    HEATHER KRAUSE, DIRECTOR, PHYSICAL INFRASTRUCTURE, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Lang. Thank you. Good morning, Chairmen DeFazio and 
Larsen, and Ranking Members Graves and Graves, and members of 
the subcommittee. My name is Catherine Lang, or Kate, as 
everyone calls me, and I am pleased to be here today to provide 
you with an update on the FAA's workforce priorities.
    The FAA's primary mission, as the safety oversight 
organization, is to ensure the overall safety of the national 
aviation system. Success in completing our mission continually 
depends on our ability to recruit a new generation of dynamic 
and highly skilled workers, not just at the FAA, but throughout 
the aerospace industry. Technological advances have helped us 
to minimize risk, but ultimately people, not technology, will 
help us to the next level of safety and organizational and 
operational excellence.
    An increasing share of today's technical workforce is 
moving toward retirement, and the pipeline of aviation 
professionals that support the industry has shown signs of 
slowing. For this reason we are examining the trends, and 
working with our industry partners to identify and ensure that 
we have an adequate workforce. In collaboration with industry, 
academia, and other Government agencies, we will work to remove 
unnecessary barriers to entering the aviation workforce, to 
enhance educational pathways, and to build a pipeline of 
qualified aviation professionals.
    This is the main reason I took the role of the Senior 
Advisor to the FAA Administrator on Aviation Workforce 
Outreach, having just finished a 6-year assignment in Brussels 
as the FAA's Regional Director for Europe, Africa, and the 
Middle East. In my new role I will serve as the FAA's focal 
point for engaging with all of our stakeholders in the aviation 
community, collectively, to recruit and develop the next 
generation of aerospace professionals.
    I have also been asked to chair the Aviation Workforce 
Steering Committee that the FAA established last year. The goal 
of the committee is to assess the current aviation workforce 
challenges from the perspective of pipelines, pathways, and 
partnerships, and to identify concrete actions we can take to 
address those challenges. We will have a special focus on 
diversifying the workforce by attracting women, minorities, and 
persons with disabilities.
    Another role of the steering committee is to help provide 
leadership guidance and oversight to the FAA Science, 
Technology, Engineering, Math, Aviation and Space Education 
program, better known as AVSED. Originally established in 1961, 
the AVSED program gives young people a glimpse of the wide 
range of exciting career opportunities available in aerospace. 
We support initiatives like Aviation Career Education, or ACE 
camps, Girls in Aviation Days, and many, many other events with 
elementary, middle, high school, and colleges across the 
country.
    The success of AVSED relies heavily on FAA volunteer 
outreach representatives who engage directly with local 
communities. We more than doubled the number of our outreach 
representatives from 2018 to 2019, and this year we have 
already reached our goal of signing up more than 1,100 FAA 
volunteers.
    We also launched an Adopt a School pilot program in Texas 
and Maryland, where outreach representatives will connect with 
students to generate excitement in aviation. Youth 
participation in national, regional, and local AVSED events is 
rising rapidly. Last year we reached nearly 60,000 students, 
more than double the previous year.
    In the FAA 2018 reauthorization, Congress recognized the 
importance of these collaborative efforts to recruit, train, 
and retain aviation talent. You enacted numerous workforce-
related provisions, all of which we are working to implement. 
Your priorities are the starting point for our work within the 
FAA.
    An example is the establishment of a new Aviation Workforce 
Development Program for education and recruitment of pilots and 
aviation maintenance technicians. Industry has expressed its 
concerns about having an adequate supply of pilots and 
technicians to meet the growing global demand for pilots and 
technicians. Forecasts show that we will need about 200,000 
pilots and about 200,000 technicians over the next 20 years in 
North America alone. As directed by Congress, the FAA is 
finalizing the program, and intends to issue a call for 
proposals later this year.
    We are also taking steps to implement the unmanned aircraft 
systems workforce provisions in the 2018 bill, including a 
specific focus on community college training programs. UAS are 
a great entry point into aviation. The advancement and 
proliferation in UAS applications are creating new 
opportunities for the next generation.
    Also, as directed in reauthorization last year, we began 
the process of launching two advisory groups, one to encourage 
women and girls to join the aviation workforce, and the other 
to encourage high school students to pursue aviation careers. 
We are currently reviewing applications, and plan to announce 
membership for both of these groups later this spring.
    As I stated earlier, we recognize the importance that 
workforce development has on the overall safety of the National 
Airspace System, and we are committed to collaborating with 
industry, academia, and other Government agencies to develop 
solutions to the workforce needs of today and for those of the 
future.
    We are grateful for the support of this committee that you 
have provided in all areas related to workforce. Thank you.
    [Ms. Lang's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Catherine Lang, Senior Advisor for Aviation 
          Workforce Outreach, Federal Aviation Administration
    Chairman Larsen, Ranking Member Graves, Members of the 
Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
the Federal Aviation Administration's (FAA) ongoing work to develop the 
future aviation workforce. As this is my first time appearing before 
this Committee in quite some time, let me introduce myself.
    My name is Catherine (Kate) Lang, and I am the new Senior Advisor 
to the FAA Administrator on Aviation Workforce Outreach. As you know, 
one of the key issues the FAA is facing is ensuring that we have a 
dynamic and skilled aviation workforce that meets our needs today and 
in the future. To that end, one of Administrator Dickson's first 
personnel actions was to create this position to serve as the FAA focal 
point for engaging with industry, the academic community, and other 
government agencies to foster the workforce that both industry and the 
FAA need to meet the challenges ahead. Internally, I will focus on 
ensuring a coordinated, agency-wide approach as offices advance 
workforce development programs to address aviation workforce 
challenges.
    Previously, I served as the FAA's Regional Director for Europe, 
Africa, and the Middle East in Brussels from 2013 to 2019. I have also 
served in a number of senior roles at FAA Headquarters. Before arriving 
at the FAA in 1992, I worked as the Assistant Commissioner of the 
Chicago Department of Aviation. I look forward to working with the 
Committee to address the important issue of workforce development.
    As the Committee knows, this is a transformational time for 
aviation with emerging technologies and capabilities that are changing 
the industry at an unprecedented rate. New entrants into the National 
Airspace System (NAS), such as unmanned aircraft systems (UAS) and 
commercial space transportation, continue to amaze us with new 
innovations. Advances in aviation and aerospace are benefiting our 
economy, transforming the way we travel, helping the environment, and 
saving lives. Meanwhile, in the manned aviation space, the 
International Air Transport Association reports that the aviation 
industry is experiencing strong growth, with the number of air 
passengers expected to nearly double globally to 7.8 billion annually 
by 2036. Industry forecasts show that we will need over 212,000 new 
civilian pilots and 193,000 new maintenance technicians over the next 
20 years in North America alone.\1\ In addition, with the field 
changing so rapidly, there likely will be future aviation careers that 
we cannot even contemplate today. For example, a commercial drone 
operator was not even a job category or career path just a few short 
years ago. Since August 2016, the FAA has issued more than 150,000 
Remote Pilot Certificates to fly a drone for commercial or recreational 
use.
---------------------------------------------------------------------------
    \1\ Boeing 2019 Pilot & Technician Outlook Report, July 2019. 
Available at https://www.boeing.com/commercial/market/pilot-technician-
outlook/
---------------------------------------------------------------------------
    As the nation's aviation safety regulator, the FAA's primary focus 
is always on safety. While we have made significant strides in 
commercial aviation safety, our efforts to improve will never stop. 
Though technological advancements have helped us to minimize risks, 
ultimately, it is people who will take us to the next level of safety 
and operational excellence. An increasing share of the industry's 
technical workforce is moving toward retirement, and the pipeline of 
aviation professionals that support the industry has shown signs of 
slowing. For this reason, we are examining these trends and working 
with our industry partners to identify and take steps to avoid it.
    The FAA has prioritized efforts to ensure a skilled and robust 
aviation workforce, but this cannot be done by the FAA alone. The U.S. 
aviation system is the safest, most dynamic, and innovative in the 
world, largely due to the collaborative approach to safety championed 
by the FAA, and shared by our partners in industry, academia, and 
government. The FAA needs the knowledge and expertise of stakeholders 
from the entire aviation community to identify potential barriers to 
entry into the aviation workforce, and more importantly, to develop 
coordinated efforts to address the issue. In the FAA Reauthorization 
Act of 2018 (2018 Act), Congress recognized the importance of these 
collaborative efforts by enacting numerous workforce-related 
provisions, which we are working to implement.
    The FAA is committed to partnering with industry, the academic 
community, and government agencies to remove unnecessary barriers for 
entry to the aviation workforce, enhance education pathways, and build 
the pipeline of qualified aviation professionals. In 2019, the FAA 
established an Aviation Workforce Steering Committee within the 
agency's leadership. The goal of the steering committee is to assess 
the current aviation workforce challenges from the perspective of 
pipelines, pathways, and partnerships, and to identify concrete actions 
that can have an impact on the aviation workforce challenges. In my new 
role at the FAA, I will chair the steering committee going forward. The 
steering committee will explore options and establish FAA goals to 
address workforce issues, with a particular focus on cross-agency 
collaboration. This holistic approach will help the FAA better 
coordinate workforce efforts across the agency, and provide a more 
consistent and comprehensive workforce strategy. While the most 
immediate workforce challenge is the shortage of qualified pilots and 
industry maintenance technicians, the committee will consider all 
aviation professions, with a special focus on diversifying the 
workforce by attracting women, minorities, and persons with 
disabilities. This will help ensure the FAA and industry can recruit 
from a broader and more inclusive talent pool in the future.
                        Partnering with industry
    Last fall, the FAA issued notices to solicit nominations for two 
advisory groups--one to encourage women and girls to join the aviation 
workforce, and the other to encourage high school students to pursue 
aviation careers. Directed by the 2018 Act, these advisory groups will 
recommend strategies and plans to facilitate and encourage women and 
high school students to pursue aviation careers, including 
manufacturing, engineering, and maintenance fields, and identify and 
develop career pathways including apprenticeships and workforce 
development programs. Tasks include identifying industry trends that 
encourage or discourage women and youth to pursue participation in the 
sector, as well as identifying potential sources of government and 
private sector funding, including grants and scholarships, that support 
women and youth pursuing aviation careers. We are currently reviewing 
applications, and plan to announce membership for both groups this 
spring. These tasks are in direct alignment with the Federal Strategy 
for Science, Technology, Engineering, and Math (STEM) Education, 
released by the White House in December 2018. In order to meet STEM 
workforce needs, this plan identifies increasing diversity, equity and 
inclusion as a top priority. Additionally, strategic partnerships 
provide an opportunity to bridge gaps between the aviation industry and 
educational institutions through the fostering of STEM ecosystems and 
providing work-based learning opportunities to further share aviation 
careers with students.
    In September 2018, Secretary Chao, Air Force Secretary Wilson, and 
the FAA held an aviation workforce summit entitled, ``Aviation 
Workforce Symposium: Ensuring America's Pilot and Mechanic Supply.'' 
The event brought together nearly 300 stakeholders from government, 
industry, and academia and initiated a dialogue about the workforce 
pipelines, pathways, and partnerships that will be needed to attract 
more young people to the aviation industry, improve the quality and 
efficiency of training, and build better partnerships to support our 
next generation of pilots and aviation technicians. The summit 
underscored the complex, multi-faceted challenges that we face to 
ensure that talent is available to fill a growing need for skilled 
aviation professionals. Maintaining the highest levels of safety while 
adapting to technological advancements will be a key part of our 
success. The rapid rate of change is something that will require the 
focus and attention of the FAA, and all aviation stakeholders.
                 Partnering with the academic community
    The FAA supports multiple initiatives that help educators build 
competencies and technical knowledge to propel interest in the aviation 
workforce. Many of these efforts focus on underrepresented populations 
to encourage minorities, women, and people with disabilities to pursue 
careers in aviation and increase their representation in the industry. 
For example, the Aviation Workforce Steering Committee that I 
previously mentioned provides leadership, guidance, and oversight to 
the FAA STEM Aviation and Space Education (AVSED) Program and its 
partners. Originally established in 1961, the AVSED program provides 
sponsorship and support for programs that develop skills for a future 
workforce. These efforts include the Aviation Career Education (ACE) 
Academies, Girls in Aviation Day, and other events with elementary, 
middle, high schools, and colleges designed to expose students to a 
wide range of aviation career exploration experiences.
    AVSED also works with the FAA Centers of Excellence, which are 
established through cooperative agreements with select universities, 
and their members and affiliates, who conduct focused research and 
development and related activities. Additionally, AVSED partners with 
the National Coalition of Certification Centers, a network of education 
providers and corporations that supports and advances technology skills 
in the aviation industry, among others, and promotes aviation-
maintenance technical degrees and careers. Further, AVSED maintains 
national partnerships with various groups with shared interest in 
growing the manned and unmanned aviation workforce, including the 
Organization of Black Aerospace Professionals, Women in Aviation 
International, Youth Aviation Adventure, Association for Unmanned 
Vehicle Systems International, Aircraft Owners and Pilots Association, 
and the Experimental Aircraft Association.
    Success of the AVSED program relies heavily upon FAA Outreach 
Representatives who engage directly with local communities. These 
representatives are dedicated FAA employees who volunteer their time to 
help educate and inspire today's youth by working with communities to 
foster interest in aviation and aerospace. Expanding its efforts, the 
FAA has increased the number of its Outreach Representatives from 375 
in FY2018 to 778 in FY2019, with a goal of over 1,100 in FY2020. This 
year, under the AVSED umbrella, we launched an ``Adopt-a-School'' pilot 
program initiative in Dallas, Texas and Washington, D.C., where 
Outreach Representatives will connect with students to generate 
excitement in aviation. The FAA aims to increase the number of outreach 
events by 100 percent from FY2019. Youth participation in national, 
regional, and local STEM AVSED events reached approximately 59,000 
youth in FY2019, as compared to 24,000 youth in FY2018.
    Last September, the FAA hosted the second annual Office of Aviation 
Safety (AVS) STEM Career Symposium, where nearly 150 potential aviation 
engineers, doctors, pilots and air traffic controllers converged on FAA 
Headquarters. Students from area middle and high schools heard from FAA 
executives, aviation enthusiast groups, industry leaders, and academic 
teams, and enjoyed demonstrations, presentations, and exhibits on 
aviation careers, skills, and the FAA's oversight of the NAS.
    Specifically for new entrants, as directed by the 2018 Act, the FAA 
is taking steps to implement the UAS workforce provisions to establish 
a UAS collegiate training initiative, and to designate consortia of 2-
year colleges to train students for UAS careers in industry and 
government. Additionally, last November, the FAA launched the first-
ever National Drone Safety Awareness Week with a day devoted to STEM 
and education activities. There were 22 STEM events in 20 different 
states reported to the FAA that day alone, with a total of 594 events 
in FY2019. These targeted efforts will help ensure that we are 
addressing the workforce needs of the current system, as well as needs 
that will emerge with the advent of new technologies.
               Partnering with other government agencies
    The FAA and the U.S. Air Force announced a partnership last spring 
to explore options and establish agency goals to address aviation 
workforce issues. This effort aims to ensure the continued and long-
range health and safety of the aviation industry and to inspire a 
passion for aviation in the next generation.
    Finally, the FY2020 Further Consolidated Appropriations Act 
provided $5 million for a new Veterans' Pilot Training Grants Program 
and $10 million for the Aviation Workforce Development Program for the 
education and recruitment of pilots and aviation maintenance 
technicians. The FAA has begun taking steps to implement the Aviation 
Workforce Development Program, which was authorized by the 2018 Act. We 
recently published a Federal Register notice to initiate information 
collections under the Paperwork Reduction Act process. Once this 
process is complete, the FAA will issue a call for proposals later this 
year.
                      FAA workforce considerations
    The FAA's first and most important responsibility is to maintain 
the safety of the NAS. This means that our efforts are focused in part 
on ensuring that our own workforce is up to the challenge of setting 
and enforcing the standards for the broader aviation workforce. As 
directed by the 2018 Act, the FAA recently reviewed and revised our 
safety workforce training strategy to align with an effective risk-
based approach to safety oversight. This effort will help to foster an 
inspector and engineer FAA workforce that has the skills and training 
necessary to provide effective safety oversight.
    Additionally, the FAA is working to improve the regulatory 
framework for the aviation maintenance technical workforce. 
Specifically, the FAA is conducting a rulemaking to modernize the 
regulations governing the curriculum and operations of FAA-certificated 
Aviation Maintenance Technician Schools. The FAA objective in this 
effort is to move toward a performance-based standard that will usher 
in the next generation of aviation maintenance professionals, while 
still maintaining our high safety bar. The FAA is currently reviewing 
public comments on the pending rulemaking. Along those same lines, the 
FAA has been developing the Airman Certification Standards for 
mechanics by integrating aeronautical knowledge and risk management 
with specific skill tasks. The Airman Certification Standards provide a 
single-source set of standards for both the knowledge exam and the 
practical test. Once in effect, these standards will enable the FAA, in 
collaboration with the aviation training community, to quickly, 
efficiently, and systematically amend certification testing 
requirements to address safety concerns as they arise.
    Similarly, the FAA is in the process of modernizing and 
standardizing oversight of our pilot, mechanic, and medical examiners. 
This will help ease administrative burdens, and ultimately, minimize 
barriers for aspiring pilots and mechanics to enter the workforce.
                               Conclusion
    We recognize the importance that workforce development has for the 
overall safety of the NAS. To that end, we are committed to partnering 
with industry, the academic community, and government agencies to 
remove unnecessary barriers for entry into aviation careers, as well as 
to enhance education pathways and build the pipeline of qualified 
aviation professionals. We are grateful for the support of the 
Committee in highlighting these workforce issues and the need for 
collaborative solutions from all stakeholders.
    This concludes my statement and I will be happy to answer your 
questions.

    Mr. Larsen. Thank you.
    And I now recognize Ms. Krause for 5 minutes.
    Ms. Krause. Chairman Larsen, Ranking Members Graves and 
Graves, and members of the subcommittee, thank you for the 
opportunity to discuss our work on the aviation maintenance 
workforce.
    Each year hundreds of millions of passengers rely on 
airlines to get them safely to their destination, rendering 
public confidence and safety critical to the aviation industry. 
A sufficient supply of aviation maintenance workers is 
necessary for ensuring a safe and robust aviation system. 
Federal and aviation industry stakeholders have expressed 
concern over the capacity of this workforce to meet projected 
needs due to retirements, attrition, and the growing demand for 
air travel.
    In addition to these concerns, rapidly changing technology 
has implications for the training of this workforce.
    My statement today will focus on, one, what Federal data 
reveal about the aviation maintenance workforce; two, how 
Federal agencies and other key stakeholders provide support in 
developing this workforce; and, three, FAA's progress in 
updating the curriculum and testing standards for mechanics.
    First, Federal data reveal some information on the 
characteristics of this workforce. They show that there are 
roughly 330,000 FAA-certificated aviation maintenance 
technicians as of December 2018. Over half of them are between 
the ages of 50 and 70, and 3 percent are women. In terms of the 
pipeline, FAA certificated roughly 8,600 aviation maintenance 
technicians on average each year from 2014 through 2018. And 
the most common pathway to becoming certificated is attending 
aviation maintenance technician, or AMT, school.
    Federal data on demand project an annual average of roughly 
12,000 job openings, a growth of 3 percent annually, for both 
FAA-certificated and noncertificated workers in the U.S. from 
2018 to 2028. However, there are some limitations to what the 
Federal data can tell us about this workforce.
    For example, the number of individuals that are 
certificated likely overestimates the number of them working in 
the aviation industry, since the data do not identify how many 
are retired, deceased, or working in other industries.
    Also, there are no comprehensive data on the number of 
noncertificated aviation maintenance workers.
    Employers we interviewed expressed differing perspectives 
on the potential growth and the demand for aviation maintenance 
workers. Some, including small and medium-sized employers, said 
that they have experienced difficulty finding enough workers to 
meet their needs. However, others, including large employers 
such as major commercial carriers, said they have experienced 
less difficulty, but acknowledged the competitive market for 
aviation maintenance workers.
    To develop this workforce, various Federal agencies, 
educational institutions, and businesses have programs that 
support individuals pursuing aviation maintenance careers. For 
example, DoD has a program to help servicemembers translate 
their military experience, such as aircraft maintenance, into 
civilian occupations. The Department of Labor has a program 
that awarded almost $3.8 million in grants and contracts from 
2014 through 2018 to promote apprenticeships for aviation 
maintenance workers.
    States, employers, and schools are also partnering on 
various efforts. For example, one repair station we interviewed 
started a program to recruit students out of high school.
    FAA has also taken some steps to engage and coordinate with 
these and other groups on aviation workforce development 
initiatives. Our report that issued last week identified 
opportunities for FAA to further enhance its workforce 
development efforts. In particular, we recommended that FAA 
leverage existing data and coordinate with other Federal 
agencies to advance its goal of promoting a robust, qualified, 
and diverse aviation maintenance workforce.
    Finally, ensuring that aviation maintenance, training, and 
skill requirements are current is important because of ongoing 
and rapid changes in aviation technology. However, aviation 
stakeholders we interviewed said that the current AMT 
curriculum requirements, which are decades old and established 
in regulation, do not emphasize commonly used, modern aircraft 
technologies such as avionics and composite materials.
    FAA has also acknowledged that these requirements and 
testing standards are outdated, and are working to revise them. 
We have been reporting on some of these issues since the early 
2000s, and believe it is important for them to be addressed.
    In closing, both the Federal Government and aviation 
industry benefit from having a professional, trained, and 
qualified workforce. Addressing aviation workforce needs is a 
shared responsibility among the different aviation 
stakeholders. It is important for Federal agencies to 
coordinate efforts to effectively support this workforce and 
ensure a safe and robust aviation system.
    This concludes my statement. I look forward to answering 
your questions.
    [Ms. Krause's prepared statement follows:]

                                 <F-dash>
       Prepared Statement of Heather Krause, Director, Physical 
         Infrastructure, U.S. Government Accountability Office
    Chairman Larsen, Ranking Member Graves, and Members of the 
Subcommittee:
    Thank you for the opportunity to discuss our work on the aviation 
maintenance workforce. The FAA Reauthorization Act of 2018 included a 
provision for us to examine different aspects of this workforce, 
including how government, industry, and educational institutions 
coordinate to support workforce growth.\1\ Each year, hundreds of 
millions of passengers rely on airlines to get them safely to their 
destination, rendering public confidence in safety critical to the 
aviation industry.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 115-254,  624, 132 Stat. 3186, 3405.
---------------------------------------------------------------------------
    The Federal Aviation Administration (FAA) requires that only 
mechanics who are ``certificated'' by the FAA approve aircraft for 
return to service. A sufficient supply of qualified aviation 
maintenance workers, including FAA certificated mechanics and 
repairmen, is necessary for repairing aircraft and maintaining a safe 
and robust aviation system.\2\ Changes in aviation industry technology 
are ongoing and are expected to continue at a rapid pace, which has 
implications for the training of these workers. In addition, FAA and 
the aviation industry anticipate that the demand for air travel will 
grow in coming years. Federal and aviation industry stakeholders have 
expressed concern over the capacity of the aviation maintenance 
workforce to meet projected needs due to retirements, attrition, fleet 
growth, and the growing demand for air travel. Yet federal data 
limitations make it difficult to determine certain employment 
characteristics for this workforce and the curriculum requirements for 
the aviation maintenance technician (AMT) schools that train 
certificated mechanics are decades old.
---------------------------------------------------------------------------
    \2\ The requirements for becoming a certificated mechanic are 
prescribed in 14 C.F.R. part 65, subpart D,  65.71-65.95, and for a 
certificated repairman in 14 C.F.R. part 65, subpart E,  65.101-
65.107. We use the term ``repairmen'' to include both men and women.
---------------------------------------------------------------------------
    My testimony today is based on our report that issued last week, 
Aviation Maintenance: Additional Coordination and Data Could Advance 
FAA Efforts to Promote a Robust, Diverse Workforce.\3\ Accordingly, 
this testimony addresses (1) what federal data reveal about the 
characteristics of the aviation maintenance workforce, (2) how selected 
federal agencies and other key stakeholders provide support and 
coordinate to develop the skills of this workforce, and (3) FAA's 
progress in updating the curriculum and testing standards for 
mechanics. We also issued a report in 2014 that covered similar 
topics.\4\ In addition, we have ongoing work on the aviation and 
aerospace workforce of the future, which focuses on airline pilots, 
aerospace engineers, and aircraft mechanics and includes information on 
worker supply and demand and the potential effects of emerging 
technology on these professions.\5\
---------------------------------------------------------------------------
    \3\ GAO, Aviation Maintenance: Additional Coordination and Data 
Could Advance FAA Efforts to Promote a Robust, Diverse Workforce, GAO-
20-206 (Washington, D.C.: Feb. 6, 2020).
    \4\ GAO, Aviation Workforce: Current and Future Availability of 
Aviation Engineering and Maintenance Professionals, GAO-14-237 
(Washington, D.C.: Feb. 28, 2014).
    \5\ The FAA Reauthorization Act of 2018 included another provision 
for us that relates to this workforce that will result in a separate, 
forthcoming report. Work in this area is ongoing. Pub. L. No. 115-254, 
 622, 132 Stat. 3186, 3404.
---------------------------------------------------------------------------
    To develop the findings and recommendation for our recently issued 
report, we analyzed relevant FAA and Bureau of Labor Statistics (BLS) 
data; interviewed agency officials from FAA and the Departments of 
Labor (DOL), Education (Education), Defense (DOD), and Veterans Affairs 
(VA) as well as key stakeholders including employers, AMT schools, and 
industry associations; and reviewed relevant federal laws, regulations, 
and FAA documents, such as FAA's 2019-2022 strategic plan. Additional 
information on our scope and methodology is available in our report. 
Our work was performed in accordance with generally accepted government 
auditing standards.
                               Background
Aviation Maintenance Workforce
    Different aviation industry employers have distinct workforce needs 
and may require workers with specific skillsets depending on the type 
of work performed. The workforce includes FAA-certificated mechanics 
and repairmen, as well as non-certificated workers.
    <bullet>  FAA-certificated mechanics inspect, service, and repair 
aircraft bodies (airframe) and engines (powerplant), and only they can 
approve an aircraft for return to service. It can take between 1 and 3 
years to obtain the required education or training to become 
certificated.
    <bullet>  FAA-certificated repairmen service aircraft components 
and must be recommended for certification by their employer to perform 
specific tasks such as welding or painting. It can take more than a 
year to obtain the required experience or training to become 
certificated. A repairman certificate is only valid at the employer for 
which it was issued.\6\
---------------------------------------------------------------------------
    \6\ 14 C.F.R.  65.103(a). Certificated repairmen must meet FAA 
practical experience or formal training requirements. 14 C.F.R.  
65.101(a)(5).
---------------------------------------------------------------------------
    <bullet>  Non-certificated aviation maintenance workers include 
individuals who are supervised by certificated mechanics or repairmen 
in performing repair work.
  Federal Data Reveal Some Demographic and Employment Information on 
                  Certificated Mechanics and Repairmen
    Existing federal data shed light on key workforce characteristics 
such as the number of FAA-certificated mechanics and repairmen, their 
age, sex, and education. Specifically:
    <bullet>  As of December 2018, about 295,000 individuals held a 
mechanic certificate and about 35,000 held a repairmen certificate.\7\
---------------------------------------------------------------------------
    \7\ We limited the scope of our analysis to those individuals less 
than 90 years old who were issued a plastic certificate by FAA, which 
is required for certificated workers to exercise their privileges after 
March 31, 2013. See 14 C.F.R.  63.15(d) and 65.15(d). FAA began 
issuing plastic certificates in July 2003.
---------------------------------------------------------------------------
    <bullet>  The median age of FAA-certificated mechanics and 
repairmen was 54 years old, according to our analysis of FAA data.\8\
---------------------------------------------------------------------------
    \8\ BLS reported the median age of the overall workforce in 2018 
was 42 years old.
---------------------------------------------------------------------------
    <bullet>  Three percent of all aviation maintenance certificate 
holders were women as of December 2018.
    <bullet>  Attending AMT school was the most common pathway 
certificated individuals used to qualify for the FAA tests to become 
mechanics.\9\
---------------------------------------------------------------------------
    \9\ Of the 25,543 mechanics FAA certificated from 2015 through 
2018, 62 percent completed AMT school; 28 percent qualified based on 
civilian practical work experience; and 10 percent qualified based on 
military training and experience. FAA officials told us they began 
collecting data on the military pathway in 2015 at the request of DOD.

    Existing federal data also provide some information on employment 
characteristics such as the supply of certificated workers. 
Specifically, FAA certificated about 8,600 mechanics and repairmen on 
average each year for 2014 through 2018 (see fig. 1). BLS data project 
an annual average of 11,800 job openings in the United States from 
2018-2028 for aircraft mechanics and service technicians due to growth 
and replacement, which include job openings for certificated and non-
certificated workers.
Figure 1: Number of Mechanics and Repairmen Newly Certificated by the 
        Federal Aviation Administration (FAA) Each Year, 2014-2018
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

             Source: GAO analysis of FAA data. GAO-20-421T

    There are, however, certain limitations to existing federal data. 
For example, neither FAA nor BLS collects data on the race or ethnicity 
of certificated individuals.\10\ In addition, FAA officials said the 
number of certificated individuals likely overestimates the number of 
them working in the aviation industry. It is unknown how many of the 
approximately 330,000 certificate holders are retired, deceased, or 
working in other industries.\11\ Furthermore, BLS data indicate 136,900 
individuals were employed in the aircraft mechanics and service 
technicians occupation in 2018, but it is not clear how many of those 
jobs were filled by FAA-certificated workers.\12\
---------------------------------------------------------------------------
    \10\ BLS publishes employment data by race and ethnicity for the 
aircraft mechanics and service technicians occupation, which includes 
both certificated and non-certificated aviation maintenance workers.
    \11\ The database that stores certificate holder information 
maintains records on individuals unless FAA is informed of their death.
    \12\ See https://www.bls.gov/emp/tables/occupational-projections-
and-characteristics.htm (accessed December 13, 2019).
---------------------------------------------------------------------------
    There are also limitations to determining employment 
characteristics such as pay for certificated workers, specifically. BLS 
publishes some data on pay for aircraft mechanics and service 
technicians, such as average hourly and annual wages. However, the 
occupational classification system BLS and other federal statistical 
agencies use for aircraft mechanics and service technicians does not 
distinguish between FAA-certificated and non-certificated workers, 
making it difficult to determine employment characteristics such as pay 
for certificated workers, specifically.\13\ This is in part because 
workers are classified by the work they perform and not necessarily by 
certification or education, according to occupational classification 
system principles. BLS officials said they collected wage and 
employment data for certificated workers separate from non-certificated 
workers in employer surveys conducted between 2000 and 2012, but 
stopped collecting these data in part because employers inconsistently 
reported them.\14\
---------------------------------------------------------------------------
    \13\ Certain industry groups petitioned the Standard Occupational 
Classification Policy Committee (SOCPC) to change the SOC framework as 
part of the 2018 update to differentiate between certificated and non-
certificated workers. The SOCPC did not recommend any changes to the 
classification of aircraft mechanics and service technicians or 
avionics technicians. In its response to comments, the SOCPC stated 
that workers are classified based on work performed, and that it must 
be able to collect and report data for a detailed occupation for it to 
be included.
    \14\ See An Examination of the Employment and Wages of FAA-
certified and FAA-noncertified Aircraft Mechanics and Service 
Technicians, 2001. This study found that FAA-certified aircraft 
mechanics and service technicians earned more than noncertified 
workers, and that about 80 percent of aircraft mechanics and service 
technicians employed by private industry were FAA-certified.
---------------------------------------------------------------------------
    Employers we interviewed, including air carriers and repair 
stations, had differing perspectives on potential growth in demand for 
aviation maintenance workers; some said they were experiencing 
difficulty finding enough workers to meet their needs, while others 
said they were not experiencing difficulty. Employers we interviewed 
for our 2014 report also expressed varying levels of difficulty filling 
vacancies and recruiting individuals for certain aviation professions, 
including aviation maintenance workers. Small and medium-sized 
employers in particular cited some challenges to hiring due to the wage 
they offered.\15\ Some stakeholders we interviewed for our recent 
report voiced concerns about the potential for a labor shortage. In 
addition to these views, two of the three selected labor market 
indicators (unemployment rate and wage earnings) we reviewed from 2013 
through 2018 were consistent with difficulties in hiring aircraft 
mechanics and service technicians, while the other indicator 
(employment) was not.\16\
---------------------------------------------------------------------------
    \15\ GAO-14-237.
    \16\ For more information, see GAO-20-206.
---------------------------------------------------------------------------
 Government and Industry Programs Support the Workforce, but FAA Lacks 
    Information That Could Advance Its Workforce Development Efforts
    Several federal agencies such as DOD, DOL, VA, Education, and the 
Department of Transportation administer grants or programs that support 
individuals pursuing aviation maintenance careers or facilitate 
coordination among different stakeholders to support them. For example:
    <bullet>  DOD's Military Services' Credentialing Opportunities On-
Line (COOL) program. This program provides funding for service members 
to obtain professional credentials related to their military training 
and helps them translate their military experience into civilian 
occupations.
    <bullet>  DOL's Registered Apprenticeship Program. DOL awards 
grants to support Registered Apprenticeship Programs--employer-driven 
training opportunities that combine on-the-job learning with related 
classroom instruction. The program facilitates coordination among 
different stakeholders such as industry, states, and educational 
institutions to support apprenticeships and employment opportunities.

    In addition, FAA established an Aviation Workforce Steering 
Committee in February 2019, in part to coordinate efforts across FAA to 
address various workforce related provisions included in the FAA 
Reauthorization Act of 2018.\17\ Additional examples of federal grants 
or programs that support this workforce can be found in our report. The 
report also includes examples of states, industry employers, and AMT 
schools coordinating or partnering to support the workforce including 
developing career grants and military pathway programs.
---------------------------------------------------------------------------
    \17\ Pub. L. No. 115-254, 132 Stat. 3186.
---------------------------------------------------------------------------
    Despite some of FAA's recent efforts in support of this workforce, 
we found that FAA does not routinely analyze, collect, or coordinate 
with other stakeholders on certain data related to workforce 
development.
    FAA's strategic plan includes an objective on promoting the 
development of a robust aviation workforce, and its Aviation Workforce 
Steering Committee charter emphasizes providing diverse populations, 
including youth, women, and minorities, with clear pathways into 
aviation careers to expand the talent pool from which both government 
and industry may recruit.\18\ However, neither the strategic plan nor 
the steering committee charter provides specific information on how FAA 
plans to select and measure any efforts it undertakes related to these 
objectives. Without routinely analyzing its own data or leveraging 
others' data, FAA may not have certain information it needs to track or 
ensure progress toward its workforce development goals.
---------------------------------------------------------------------------
    \18\ FAA Strategic Plan, FY 2019-2022.
---------------------------------------------------------------------------
    We identified several areas in which improved data analysis, 
collection, or coordination could assist FAA in measuring progress and 
understanding how to target its resources in support of its workforce 
related objectives. For example, FAA could use the demographic or 
pathway data it already collects to identify patterns or relationships 
(such as the trend in female certificate holders by pathway), which 
could be useful information as FAA aims to increase opportunities for 
women to pursue aviation maintenance careers. FAA could also use 
existing AMT school data (such as enrollment or mechanic test pass-rate 
data) to analyze nationwide trends or aggregate information across AMT 
schools to better understand the AMT school pathway as a whole.
    In our 2020 report that issued last week, we recommended that the 
Aviation Workforce Steering Committee, as part of its ongoing efforts, 
take steps to use existing FAA data and coordinate with other federal 
agencies to identify and gather the information it needs to measure 
progress and target resources toward its goal of promoting a robust, 
qualified, and diverse aviation maintenance workforce. FAA agreed with 
our recommendation.
Revisions to FAA's Decades-Old Mechanic Curriculum Requirements and Its 
                 Mechanic Testing Standards Are Ongoing
    Even as FAA's strategic plan states the agency's focus on promoting 
the development of a skilled aviation maintenance workforce to 
integrate new technologies, the agency has acknowledged that the 
current curriculum requirements for AMT schools and mechanic testing 
standards are outdated.\19\ FAA officials, employers, and AMT School 
officials we interviewed said the current curriculum requirements do 
not emphasize commonly used modern aircraft technologies, such as 
avionics and composite materials. Over the years, FAA has attempted 
several times to revise curriculum requirements for AMT schools through 
the rulemaking process, and efforts to revise these requirements are 
ongoing through this process. FAA is also currently updating the 
testing standards for mechanics.
---------------------------------------------------------------------------
    \19\ While FAA officials said there is no certification renewal 
requirement for mechanics, several of the employers we interviewed said 
they provide training to their employees. In addition, certificate 
holders with inspection authority are subject to certain renewal 
requirements. 14 C.F.R.  65.91-65.95. Furthermore, FAA officials said 
AMT schools may include curriculum beyond that which is required.
---------------------------------------------------------------------------
    FAA officials have noted several challenges to updating the 
curriculum requirements including competing demands at the department 
level and the extent of comments FAA has received from stakeholders in 
response to proposed changes. In October 2015, FAA published a notice 
of proposed rulemaking (NPRM) with the stated goal of updating the 
existing AMT school curriculum.\20\ FAA issued a supplemental NPRM in 
April 2019 that expanded the scope of the NPRM it issued in October 
2015.\21\ Comments on the supplemental NPRM were due in June 2019. As 
of October 2019, FAA officials said they were in the process of 
reviewing the comments. FAA officials told us that a final rule will be 
published some time toward the end of 2020.
---------------------------------------------------------------------------
    \20\ 80 Fed. Reg. 59,674, 59,675 (Oct. 2, 2015).
    \21\ Aviation Maintenance Technician Schools, 84 Fed. Reg. 15,533 
(April 16, 2019).
---------------------------------------------------------------------------
    In a separate effort outside of the rulemaking process, FAA is 
currently updating the testing standards for mechanics.\22\ FAA has 
acknowledged that current mechanic testing standards are also 
outdated.\23\ As a result, aviation stakeholders have stated the 
mechanic tests include outdated or irrelevant questions. For example, 
the practical test may include projects on wood airframes and fabric 
coverings, which are not common to modern commercial aircraft.
---------------------------------------------------------------------------
    \22\ Testing standards are not in regulation and therefore changes 
to them do not need to go through the rulemaking process. FAA's ongoing 
effort to update the mechanic testing standards began in 2015 and is 
part of a broader effort to update the testing standards for different 
types of FAA certifications. FAA has already updated the testing 
standards for several FAA certifications.
    \23\ The Practical Test Standards (PTS) are the current testing 
standards for mechanics and include information that may help 
individuals prepare for the practical and oral tests. There are three 
tests--written, oral, and practical. Currently, there are no published 
knowledge test standards. FAA is switching from the PTS to the Airman 
Certification Standards.
---------------------------------------------------------------------------
    An FAA official noted that any delay in finalizing the rule would 
likely result in a corresponding delay to finalizing the testing 
standards. Delaying the release of the updated mechanic testing 
standards could result in the prolonged use of outdated or irrelevant 
questions on the mechanic tests. FAA officials said that once finalized 
and implemented, the updated curriculum requirements for AMT schools 
and the mechanic testing standards for individuals should be mostly 
aligned.\24\
---------------------------------------------------------------------------
    \24\ FAA officials stated the anticipated effective date of the 
updated curriculum requirements for AMT schools would be anywhere from 
1 to 3 years after the publication of the final rule.
---------------------------------------------------------------------------
    Chairman Larsen, Ranking Member Graves, and members of the 
Subcommittee, this completes my prepared remarks. I look forward to 
answering any questions you may have.

    Mr. Larsen. Thank you. Thank you both for an enlightening 
testimony and helpful testimony to get us started on questions.
    So we will move on now to Member questions. Each Member 
will be recognized for 5 minutes, and I will start by 
recognizing myself.
    First for Ms. Krause, your testimony mentions that the FAA 
does not routinely analyze, collect, or coordinate with other 
stakeholders on certain data related to workforce development. 
But it sounds like you recommended that it do that. Can you 
elaborate on the potential impacts of the gap, of this gap on 
workforce development efforts?
    Ms. Krause. Yes. I mean, I think what we found is that 
there are various data sources out there that give you insight 
into different components of the workforce. So, for example, 
with a--the sort of--the data on FAA workforce that is 
certificated, you can get a sense of sort of some demographic 
data. I mean, FAA also has data related to repair stations and 
the number of certificated and noncertificated workforce.
    But I think, as they are kind of pursuing these new efforts 
to really look at all these available sources that both they 
have and other sources have, and sort of identifying where are 
the gaps in terms of what might be able to address some of the 
issues with the workforce, whether it is bringing in more 
diverse populations or building other pathways, we think that 
there are ways that you could really leverage different data 
sources, both within and outside Government.
    Mr. Larsen. OK. Ms. Lang, presumably the workforce 
development efforts are nested in other agencies, Department of 
Labor, and then at the State level. In Washington State it 
would be the Employment Security Department and a variety of 
other agencies. So it sounds like there is a lot of--we have a 
lot of examples of a lot of people trying to do a lot of 
things.
    Can you address how you kind of--how FAA might approach 
trying to get a common effort established for workforce 
development in this particular area?
    Ms. Lang. Thank you. I mean, it is really evident. I have 
spent much of the last few weeks reading a lot of the 
literature, and I think there is a profound desire to better 
understand the nature of the problem we are wrestling with, 
because we need to know how serious of a gap we may have, or 
what are the best solutions to tailor to meeting the workforce 
requirements.
    So absolutely, I think the FAA--one of the major things the 
steering committee is going to do is to create a group that 
works intergovernmentally with other sister agencies.
    Clearly, the Departments of Labor and Education have very 
important roles, especially in the areas of data collection. 
But I really appreciate the point that you have made that we 
have also got to work with State agencies that also--closer to 
the issues--have data we have to do. So I think you are going 
to be seeing more from us. And I will take your point that we 
really need to make sure we loop in our State partners, as 
well.
    Mr. Larsen. Thanks. Just a followup on another point in the 
GAO's report--and this is for Ms. Lang. It has to do with the 
maintenance curriculum standards. I think we have established 
they are at least as old as Garret Graves, if not older.
    But as of October 2019, the agency officials said they are 
in the process of reviewing stakeholder comments. When do you 
anticipate a final rule on this issue being released, on the 
standards for maintenance curriculum?
    Ms. Lang. The FAA's stated goal is to get it done before 
the end of the year. And I am certainly--again, this is an area 
where there is unanimity of view that we have got to get this 
over the finish line. And that is the message I am definitely 
going to be chatting with Administrator Dickson about, that we 
really have to put agency priority in getting this done.
    Mr. Larsen. I think you will hear that from other Members, 
as well, how important this is.
    Ms. Lang, how, specifically, are you going to begin to 
address the barriers faced by women, people of color, and other 
historically under-represented groups in providing pathways 
into aviation and aerospace?
    Ms. Lang. You know, this is really going to have to be a 
multitiered effort. I mean, Congress has clearly given us some 
direction to work and convene an aviation task force to really 
look at this question, and we are well on our way to getting 
that started. I think there is a lot of ideas out there.
    The FAA also has great partnership with our employees' 
associations. And we are working right now--we are trying to 
catalog with my colleagues in civil rights and human resources 
all the efforts the FAA has to make sure that we are on a path 
to promote those programs, but, more importantly, that we begin 
to see some results in outcome as a result of those efforts.
    But I--you know, frankly, this is something we all own in 
the industry. And as we really expand the outreach we are doing 
with our industry partners in academia, this has got to be 
front and center. We have got areas of chronic under-
representation that simply have to be addressed.
    Mr. Larsen. Ms. Krause----
    Ms. Lang. Particularly in the maintenance area.
    Mr. Larsen. Yes.
    Ms. Krause, I have a very short time. On that last 
question, does GAO have any specific recommendations?
    Ms. Krause. I mean, I think we have just done work and 
maybe would offer that stakeholders have also emphasized the 
importance of increasing diversity, and are looking at 
different pathways. So I think folks are interested in trying 
to address these issues, as well.
    Mr. Larsen. Thanks. With that I will now turn to recognize 
Ranking Member Graves from Louisiana for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. Ms. Lang, 
as you know, the FAA recently had their statutory authority to 
actually promote the aviation industry removed in statute. With 
the huge influence that the FAA has over the pipeline of the 
workforce, how do you balance that role of safety regulator, 
yet, to some degree, advocate of industry and of those 
occupations?
    Could you talk about that a little bit? Does that question 
make sense?
    Ms. Lang. You know, it really makes a lot of sense. This is 
something I know the FAA has wrestled with since the ValuJet 
accident. And I think we really do understand that we have a 
responsibility to always preserve, without question, the 
efficacy of our oversight capabilities, and the ability for the 
public to have confidence that we are always, first and 
foremost, putting safety forward.
    But that said, there are clearly things we and only we can 
do, as a regulator, that get out of the way of things that are 
injuring the ability for the workforce or the pipeline to be 
developed. I think all of the interest in getting part 147 
finished is a great example that we need to stay current and 
modernize our regulations to keep pace with the changing 
demands and the new information and sciences that are available 
to us.
    So I think we have got to make sure we are doing everything 
to transparently balance both our role as a regulator, and our 
role to make sure that we are part of the facilitation, and not 
part of the problem in advancing workforce issues.
    Mr. Graves of Louisiana. Thank you. Ms. Krause, analysis by 
the GAO found that there were hiring difficulties, workforce 
difficulties in aviation and aerospace. Could you--and I know 
you have extensive testimony that was submitted, but could you 
talk a little bit about sort of the cause and what you found 
there, and how we may be able to help address some of those?
    And I want to reemphasize what I said in my opening 
statement. I think we need to be very careful about stepping on 
one another's turf or territory. I think there is a role for 
Government, and I think there is a role for industry. There is 
a role for our colleges and universities.
    Ms. Krause. Yes, I think you are absolutely right. There 
are a number of programs, both at industry and Government 
levels and educational institutions, that are going on.
    I think it is really trying to make sure that the efforts 
that are being carried out, including the ones in the FAA bill, 
are really effectively targeting, and not overlapping other 
programs, and sort of targeting areas that there is sort of 
real need. So I think it is really kind of focusing on making 
sure the programs are sort of all moving in the right 
direction, and sort of filling in various gaps that might 
exist.
    Mr. Graves of Louisiana. Thank you. Ms. Lang, what work is 
the FAA doing, or are you doing anything to help to identify 
and sort of inventory some of the barriers to workforce 
development, or just helping to sort of improve that pipeline 
of the aviation workforce by helping to, you know, sort of 
recalibrate the barriers to entry that are under the FAA's 
jurisdiction?
    Are you working to do that now? And what can we expect, in 
terms of a path forward?
    And then, look, we all understand that many of those are 
for safety. For example, I don't think anybody here would 
suggest that we don't need to have proper training or 
experience before we put people working on planes or, of 
course, in the cockpit.
    Ms. Lang. You know, again, I am struck by the fact that, 
over the last few weeks, as I have come into this position and 
read the literature, there is a very long list and a lot of 
opinions about where the barriers are, and the things we need 
to do to deal with pipeline and pathway opportunities and 
issues.
    I think the FAA is, right now, committed to looking at all 
of those. We will be implementing the areas where Congress has 
explicitly asked us to do some work, both with women in the 
industry, with students. There are, clearly, a very long list 
of barriers we are going to have to deal with, from education 
to the time it takes to be able to get into, in some career 
paths, frontline positions. We are going to have to look at all 
of those.
    Again, some of those we are going to be looking at 
internally at the FAA, within our own workforce. We do have to 
look at what we can do with sister Federal agencies like Labor, 
Education, Veterans Affairs to improve the availability of loan 
programs, subsidies, incentives. There are a lot of ideas out 
there that--we need to sit down and champion some of these 
within the Federal Government.
    And again, there are those things that we do that are part 
of the barriers that we have to take stock of and own.
    But again, I think you have stated it very well. This is 
something everybody in this community owns. I mean, we have got 
to get out there. The FAA will be doing outreach. We want to 
hear first person. I am really looking forward to the next 
panel. We need to hear the voices of the people on the 
frontline about the things we collectively need to do, and what 
industry is doing to help promote a strong and robust workforce 
of the future.
    Mr. Graves of Louisiana. Thank you. Mr. Chairman, you noted 
this, but I just think it is noteworthy, you have 2 percent of 
aircraft mechanics and 4 percent of pilots are women, 3 percent 
of commercial pilots are African-American, and only 7 percent 
of commercial pilots are Hispanic, or Latino. So, certainly, I 
think we have some opportunity in those communities. I yield 
back.
    Mr. Larsen. Thank you, Ranking Member Graves. I now turn to 
Representative Lipinski of Illinois for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman, for holding this 
important hearing on aviation workforce. Certainly something 
you hear about all the time is the growing need in this area.
    I am fortunate enough to have Lewis University located in 
my district in Romeoville, and their aviation and 
transportation department does tremendous work training 
students in aviation career fields, including aviation 
maintenance. Lewis University is a critical piece in training 
the next generation of aviation workers.
    In fact, I was out there a couple of weeks ago for an event 
to welcome a retired American Airlines McDonnell Douglas MD-80. 
This aircraft is going to be able to provide students at Lewis 
University with more opportunities to earn FAA certificates to 
become a mechanic. So it is great to see that opportunity. As a 
former engineer, I appreciate how important it is to have the 
opportunities for the hands-on experience. Lewis University 
graduates will now be able to enter the aviation workforce with 
the best possible training and experience.
    So I want to ask Ms. Lang, how is the FAA partnering with 
schools like Lewis to encourage students to pursue careers in 
aviation, especially aviation maintenance and manufacturing?
    Ms. Lang. Thank you. You know, I began my aviation career 
in Chicago, and I am very, very aware of the deep aviation 
roots in Illinois. I think Lewis, like any number of the 
academic institutions, first of all, ought to take advantage of 
some of the programs that are now in the reauthorization bill 
related to workforce development. But I can assure you we are 
very much interested in working with academia to also hear from 
academia what they need from us.
    One of the things we are doing at the FAA--when I joined 
the agency, we had a very robust STEM AVSED program in the 
field. And we are literally in the process of rebuilding that. 
And I think you can expect that our regional administrators and 
their outreach representatives are going to be going out to all 
of our aviation institutions and community colleges to see what 
we can do in partnership to advance them.
    So if you have particular ideas, please let us know. But 
they should absolutely be in touch with FAA as we double up our 
efforts in this area.
    Mr. Lipinski. Thank you. And I wanted to follow up on that 
with an issue that Ranking Member Sam Graves had raised in his 
opening statement, the 2018 FAA reauthorization bill. I 
partnered with Ranking Member Graves on section 625 for the 
establishment of two new programs for workforce development, 
one for pilots and the other for maintenance technicians.
    The recent appropriations bill saw $5 million for each of 
these two programs. What is the FAA doing right now to get 
these two grant programs up and running? I think it is very 
important that we move quickly on this. So Ms. Lang?
    Ms. Lang. Well, I am really happy to report that the FAA is 
moving out quickly on these. It is a brandnew program, both of 
these programs, and they come with them the requirements of a 
lot of prerequisites you have to do, like the Paperwork 
Reduction Act. Those processes were started last November, and 
are underway, and we hope to get wrapped up in the next 2 to 3 
months.
    We also received the necessary appropriations, as you 
pointed out, in the fiscal year 2020 bill in December. So those 
are underway.
    While we are finishing the processes one has to go through 
to stand up a program, though, our teams are right now working 
on the initial eligibility and application requirements. The 
program is drawing a lot of attention, we understand, from the 
legislation. There is a desire that we should consult with 
interested parties, and we will be doing that. And we hope to 
be getting that criteria and those details out later this year 
on both programs.
    Mr. Lipinski. Do you have a sense--are you going to have 
the--will the grant money be given out in this fiscal year?
    Ms. Lang. I can say categorically it will be started in 
this fiscal year. Part of it is going to be a function of how 
quickly we can get through the prerequisite programs. But we 
understand the sense of urgency that Congress has, and we are 
keeping a very close track of making sure we are hitting the 
milestones as quickly as we can. And I will be a dog with a 
bone any place where it is getting stuck.
    Mr. Lipinski. I appreciate that, and I will continue to 
follow up, and I would appreciate you keeping in touch with me 
in my office on the movement on that. So thank you. I yield 
back.
    Mr. Larsen. Thank you. I now turn to Representative 
Fitzpatrick of Pennsylvania for 5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thank you to both 
of you for being here today.
    First, Ms. Krause, regarding--well, aside from the aviation 
maintenance workforce, what does GAO know about the status of 
the pilot supply issue?
    Ms. Krause. Yes, we had looked at the pilot supply issue 
back in 2018, and did a labor market analysis where we found 
those indicators were all consistent with a shortage in--when 
it comes to pilots. We think also, as part of that work, we did 
find some positive signs, as well, in terms of enrollment being 
up at some of the--at the schools, and wages increasing, and 
sort of response.
    But nonetheless, there are still challenges in meeting the 
demand of the pilot supply. And so that we have found to be 
different factors, like the cost of education and sort of 
retaining flight instructors.
    We have some work that is ongoing that will further update 
that, and kind of be able to speak and provide more insight 
into that issue.
    Mr. Fitzpatrick. Regarding the costs of degrees, what can 
you tell us about how much of a barrier that is for entry? And 
if so, what are the policy recommendations that you expect the 
study to recommend?
    Ms. Krause. Yes, I think that what we found in that more 
recent work is that, when students are seeing a clear career 
path to a position, that that makes the cost a little more, I 
don't know, palatable, like they sort of see where their 
education is going to take them.
    So I feel like that is something that has been positive, in 
terms of getting enrollment up of, like, a senior career path, 
going forward.
    Mr. Fitzpatrick. Thank you, Ms. Krause.
    Ms. Lang, how is the FAA and DOT working together to help 
veterans with aviation experience transition into the civilian 
workforce?
    Ms. Lang. You know, we actually have a number of 
initiatives in this area. I will say that the Department 
actually set up a program called Forces to Flyers, and that 
program is being conducted by DOT at the Volpe Center. We are 
quite anxious to see how that program--it is a research 
program. We are anxious to see the report that comes out of 
that this summer.
    The appropriations bill likewise had a provision for the 
FAA to implement with respect to veterans and facilitating 
veterans, being able to get into flight instructions and 
schools. We will be working that, as well.
    But I would also note, when we had a symposium a year ago--
or I guess it was in the fall of 2018--we partnered with the 
Air Force in that program, and we have subsequently now done a 
memorandum of understanding with the Air Force to see what we 
can do, working with them, to both learn from their experiences 
of streamlining, getting pilots trained, and into the 
workforce, but also what we need to do, working jointly, to 
make the transition from military service to civilian service 
faster and more readily available.
    We are also working with the Department of Defense and 
Teamsters on a new program to improve or streamline, where we 
can, the certification mechanics coming out of the military 
into the civilian workforce.
    So that is just the initial set of initiatives. I think you 
are probably going to see more. If you have any ideas, we 
certainly would welcome those.
    Mr. Fitzpatrick. And as far--Ms. Lang, as far as new 
entrants, unmanned aircraft, commercial space transportation, 
do you see that as attracting new people, young people, into 
the industry?
    Ms. Lang. Well, the numbers don't lie. I mean, the number 
of registrations we have related to drones and pilot licensing 
and training and all of that, there is definitely--it is one of 
the areas of the buzz in the industry.
    And again, this is where we agree with Congress in setting 
up a program in the reauthorization to work with community 
colleges to see what we can do to develop curriculums and 
application processes for CTIs, or Collegiate Training 
Initiative programs related to drone activities.
    So, again, it is a burgeoning area, and we are quite 
anxious to get--there is a lot of things that are making people 
very excited about it. We are trying to piggyback on that 
excitement to get people interested in aviation. Drones are a 
great way in.
    Mr. Fitzpatrick. Great. Thank you, Ms. Lang.
    I yield back, Mr. Chairman.
    Mr. Larsen. Thank you. I now recognize Representative 
Stanton of Arizona for 5 minutes.
    Mr. Stanton. Thank you very much, Mr. Chairman. Thank you 
for organizing this very important hearing.
    Section 625 of the 2018 FAA reauthorization directed the 
FAA to establish new grant programs to support maintenance 
technician recruitment and training and pilot education. Those 
programs were authorized at $5 million annually, and they do 
have broad bipartisan and industry support, and they were fully 
funded as part of the fiscal 2020 appropriations process.
    Congressman Lipinski asked a question about that, so I 
won't reiterate the question, but only make the point that time 
is of the essence. We have already lost 1 year on the 5-year 
authorization time period, and the agency should stand up a 
program as quickly as possible to ensure that the money gets 
out of the door in time for the 2021 academic year, so that the 
money we have appropriated can be put to work as quickly as 
possible.
    I know you are working on that, but I want to make sure you 
hear from myself and, I am sure, other Members of this body. It 
is really important.
    A question for Ms. Lang, although, Ms. Krause, you could 
answer it if you would like it, as well. The FAA predicts more 
than 50 percent of the current science and engineering 
workforce in the industry is expected to hit retirement age 
with half of the 330,000 FAA-certificated mechanics and 
repairmen, as of December 2018, between 50 and 70 years old.
    The GAO also reported that nearly 70 percent of employers 
in the aviation industry expressed hiring difficulties, 
specifically with respect to workers with craft skills such as 
upholstery and cabinetry, which are typically gained through 
either technical training or community college programs.
    And just more of a general question, in your mind, what 
created this situation? It is a very difficult situation. We 
want to do as much as we can to solve it. So what created the 
situation, and, of all the factors, which do you feel was the 
largest contributor?
    Ms. Lang first, please.
    Ms. Lang. You know, I have to tell you, I think the data 
and the discussion on that is pretty mixed. And I think what is 
clear, though, and where there is unanimity of view, is that we 
have got to deal with what the demand is on that in the future, 
and look for new pathways and strategies to change those 
numbers and make sure we are on course for doing it.
    I don't think it is a single set of solutions on that. I 
had the opportunity to look at the testimony of the next panel. 
I think they have a lot of great insight, being on the 
frontline, to both what has caused some of the problems. And 
frankly, I am very impressed by some of their ideas on the 
solutions, which we will take very seriously.
    Mr. Stanton. All right, I will look forward to the second 
panel.
    Ms. Krause, have you any thoughts on that issue?
    Ms. Krause. No, I just think, when we have looked at sort 
of the challenges to the supply, there has been a variety of 
factors that have been raised, things like EMT grads having 
some highly sought-after skills, so they sometimes end up in 
different industries.
    Also, we have heard about preference for getting a 
bachelor's degree over a technical degree. So the--and also 
regional sort of issues in terms of some of the hiring that--
challenges that they might face at rural versus urban areas, 
and things like that.
    So--but that said, I think as Kate mentioned, there are a 
number of efforts underway by industry and others to kind of 
target and address some of those issues.
    Mr. Stanton. OK. I think you are going to see a lot of 
support from this committee and this body to be supportive of 
those efforts.
    Ms. Krause, in your written testimony you referenced a need 
for more complete data regarding the supply of and demand for 
aerospace workers. What do think the FAA and this subcommittee 
should do to improve the availability of the data?
    Ms. Krause. I think the Aviation Workforce Steering 
Committee that is being stood up provides a real opportunity to 
kind of look at what data already exists out there, and how it 
might be leveraged, and how we might make connections between 
some of that data to better understand where some of the 
opportunities are to better support this workforce, as well as 
identify gaps. So I think I would start by kind of assessing 
what exists.
    Mr. Stanton. OK, thank you very much. Those are my 
questions for today. I yield back.
    Mr. Larsen. Thank you, Mr. Stanton. I now turn to 
Representative Gallagher of Wisconsin for 5 minutes.
    Mr. Gallagher. It feels good to be up here, I don't mind 
saying, as opposed to down there.
    Thank you for being here today. We really appreciate it.
    This may be also a question for the second panel, and so I 
hope I get a chance to talk about it, as well. But I have heard 
from my local airports--I am from northeast Wisconsin--that pay 
for aircraft mechanics or repair persons can be quite high, but 
that is not necessarily reflected in job postings, especially 
in Wisconsin. You know, if the pay potential is indeed 
considerable, we would expect that demand would be higher.
    Maybe to GAO, in your research can you explain the pay 
potential for mechanics and repair personnel, and how that 
factors into this discussion?
    Ms. Krause. I think, when you look at the aviation 
maintenance workforce, it is a wide range of skill sets that 
support that workforce. You have everyone from FAA-certificated 
mechanics, certificated repairmen, as well as noncertificated 
workers who are overseen by those certificated workers.
    When we have looked at the BLS data, the wages are wide-
ranging. They range from about $37,000 to $98,000. So it is a 
wide range, which would be expected, given the sort of wide 
variety of skills and experience that that workforce has.
    Mr. Gallagher. I mean, is the primary variable that 
explains the range geographic, or----
    Ms. Krause. I am not sure that we have looked specifically 
at that, but I--we could follow up.
    Mr. Gallagher. That would be great. And what--I mean, how 
long does it take to get to higher pay grades? I mean, have you 
done an analysis of just sort of the evolution of careers, 
whether you are an aircraft mechanic or repair person, and what 
are the advancement opportunities?
    Ms. Krause. Yes. I think, in terms of maybe from the 
education to the certification aspect, it is usually around 1 
to 3 years that it takes to become a certificated mechanic, and 
then experience after that. I think you have the 
noncertificated workers that can develop work experience.
    And I think on-the-job training is a big aspect of a lot of 
the maintenance workforce. So I think that there are varying 
channels that you can take to develop skills.
    Mr. Gallagher. Great, thank you. And we would love to 
follow up with GAO on this.
    And then, Ms. Lang, I just want to ask--and I apologize if 
I missed this, I am shuffling between two different hearings, 
but have you seen any success in terms of programs to 
transition veterans with aviation experience into the civilian 
aerospace industry?
    What programs are out there that you think are worth 
doubling down on that have proven success?
    Ms. Lang. Well, clearly, there are programs that are 
getting veterans from the military into the aviation community. 
And I think a lot of those are pretty well documented in some 
of the--especially the GI bill, and some of the work right now 
with industry to recruit pilots.
    Pilots from the military are a major source of the pilot 
community in the industry right now on the commercial side. But 
as I mentioned, there are a number of things we are doing. The 
DOT has a program right now called Forces to Flyers that is 
working with different flight schools to get veterans that are 
not pilots into the aviation community as pilots.
    We have got the provision in the appropriations bill. Plus, 
we have got a number of initiatives underway with DoD and the 
Air Force to remove some of the barriers, streamline 
certification requirements for DoD mechanics to civilian 
mechanics. So I--there is actually quite a bit going on.
    Mr. Gallagher. And then a final question for either or both 
of you, I mean--and again, apologies if I missed this.
    What apprenticeship programs that get into the classroom--
you know, K through 12 classroom--have shown success, get kids 
interested, not only being pilots, but potentially being 
repairmen, and mechanics, and earning a good living that may 
not require them to go to a traditional, 4-year college?
    Ms. Krause. I just have a couple of anecdotes, and I think 
they are kind of--the programs are early on, but there are, for 
example, repair stations that have started partnering with high 
schools to develop programs. I think you are seeing a lot of 
different ways that industry is trying to make connections with 
the educational institutions to sort of build that pipeline.
    Ms. Lang. I would only add, because I think we are seeing a 
real renaissance, certainly at the FAA, and the things we need 
to do with AVSED and STEM programs. And I think it is a truism 
to say that the closer we are in the education system to 
entering the workforce, the more robust the data.
    But I think the truism is you got to catch kids early. And 
if you really think about it, almost anybody in the business 
will tell you at what age they were inspired and got the bug 
for aviation. And it is really on all of us to get out there, 
and making sure we are catching children as young as we can to 
get inspired and interested, and with tools to enter the 
workforce.
    Mr. Gallagher. Well, thank you. My time has expired, but I 
may never give up my seat on the top row.
    [Laughter.]
    Mr. Larsen. Well, our side only controls this side, so you 
have picked a fight with Garret Graves.
    With that I recognize Representative Allred of Texas for 5 
minutes.
    Mr. Allred. Thank you, Mr. Chairman. And thank you to our 
witnesses for being here.
    Ms. Lang, I want to follow up on the question that was just 
being asked, because I read in your written testimony, and was 
pleased to learn about the FAA's Adopt a School initiative, 
which was launched in DC, as well as Dallas, which I represent, 
at the Solar Prep School for Girls at James B. Bonham. So I 
wanted to drill down a little bit on that.
    Can you elaborate on some of the activities the students 
will be participating in that program?
    And what are your desired outcomes for the Adopt a School 
initiative?
    Ms. Lang. Well, the FAA, like I said, is really convinced 
that we have got to catch kids early. And this was, actually, 
an idea that came out of our senior leadership development 
program, that we actually foster a pilot program to see what we 
can do purposely to get out there and reach out to schools. We 
ended up in Dallas because one of the people in the development 
program was from Dallas, and was very energetic to get involved 
in it.
    But I think the basic idea--and we have already started 
that, we are working with four schools in Dallas, and with the 
teachers to grade an aviation curriculum. And the idea is to 
use aviation concepts to amplify and apply science and math 
learning. And so we have started on that. In some cases we will 
be doing direct in-classroom work. But especially after talking 
to our colleagues on the next panel, they have really got me 
thinking about the things we need to do to get hands-on 
experience, and get that muscle memory built in, and those 
skills started at a younger age.
    And we have got to get people out because, you know, 
aviation is actually really cool. And getting people out of the 
classroom and into the hangars, or into the maintenance 
facilities, or looking at what goes on in the belly of an 
airport is really going to give people the buzz. And that is 
where I think we are going to go with these programs.
    It is an important pilot. We are already pleased with the 
initial results. We will be measuring how those kids in 
Dallas--what they learned before they came in, at midpoint, and 
afterwards. We are going to take a good look at that. I think 
we have to figure out some better metrics of whether and what 
works. And that is what this program is going to do.
    But I think we are already excited to see what we might be 
able to do in the coming year to take it from a pilot to more 
mainstream within our regional offices.
    Mr. Allred. Well, thank you. I think that, obviously, 
aviation is extremely important for the Dallas economy. And I 
think that it is a great place to have these programs.
    I am, of course, interested in increasing the 
representation of women and minorities in aviation. I know we 
have had some discussion about that already today, but I wanted 
to ask specifically about the Adopt a School initiative, and 
whether or not this would also be part of an effort to increase 
that representation.
    Ms. Lang. You know, absolutely. I think it is a great 
point. I can't tell you specifically how the selection of these 
schools was done in this case, but I can assure you a major 
focus of the steering committee is going to be working on what 
we are doing nationwide to go into those school districts, 
where we have had areas where it has been tough to recruit into 
the community. And that is women, it is minorities, it is 
people with disabilities.
    I hope we will have much more to report to the committee on 
what we have already been doing, but also some of the things we 
in industry and academia need to do together. And more 
importantly, we really need to start showing the dial move on 
how those numbers are changing.
    Mr. Allred. Yes. Well, I would encourage you to implement 
measures to study how that is impacting, and whether or not 
there is some success there, and to report that back to us, as 
well. I am very interested in that program, and I think it has 
great potential, and I want to thank you for doing it in 
Dallas.
    I want to go quickly to the GAO study, though, and the 
recommendations that were issued there, and just ask you 
whether or not you plan to implement those recommendations, or 
what your plan is, in terms of collecting data and improving 
diversity in the workforce.
    [No response.]
    Mr. Allred. That is to you, Ms. Lang.
    Ms. Lang. Well, I--you know, again, I mean, in--I have to 
say I read both the 2014 GAO report and then the one that was 
just issued last week, and it was really discouraging to see 
that the numbers hadn't changed.
    And I think someone earlier asked how is that possible. And 
I think we really have to get in there and really do a forensic 
on why that is happening, and what we have to do, and come up 
with better strategies. Because, obviously, what we have done 
isn't enough.
    Mr. Allred. There are some recommendations in the study, 
and have you--do you have any plans on implementing any of 
those, or are you in the process?
    Ms. Lang. Yes, yes, absolutely. I mean, I think we are--the 
report just came out, and I think the FAA is examining all of 
those. But I think we are trying everything on at this stage of 
the game. I haven't ruled any of those out.
    Mr. Allred. All right. Thank you so much. I yield back.
    Mr. Larsen. Thank you, and I will turn to Representative 
Balderson of Ohio for 5 minutes.
    Mr. Balderson. Thank you, Mr. Chairman, and thank you, both 
of you, for being here today.
    And it is encouraging that this committee and the chairman 
have advocated for workforce provisions. I am excited to learn 
about Administrator Dickson's actions to foster aviation. A lot 
of the questions have been asked that I think a lot of us are 
asking, so I am trying not to duplicate some of the things that 
you have been asked.
    But in written testimony coming from our second panel today 
that I have gone over, only students 18 years or older can gain 
access to work-based opportunities in our Nation's airports. 
Have you looked at expanding this apprenticeship or internship 
type for high schoolers?
    Ms. Lang. I have to tell you, last night when I was reading 
the testimony and I actually had a chance to talk to the 
principal a little bit, I was surprised by that. I worked in 
airport operations a good part of my early career, and I really 
want to get behind that and see what the issue is there. I 
don't know what it is, but I have every intention of looking at 
it.
    Mr. Balderson. It is good to hear that. And it is not only 
in aviation, there is some other--for other workforce, also. Do 
you think this would help?
    I mean, I think you answered the question already, but do 
you think this would help with recruitment to get younger kids 
engaged in this for firsthand experience?
    Ms. Lang. You know, throughout my career, getting kids on 
the frontline and first person, not just the textbook, really 
does light up the eyes of kids, and inspires them. And so I 
think whatever we can do to get kids out into the aviation 
community, and really having those opportunities--and there are 
so many great programs out there that do just that, and have a 
lot of success stories for them.
    So, yes, I think, if there are good ideas out there that we 
think can help, we should try them on.
    Mr. Balderson. OK. Thank you, Ms. Lang. Mr. Chairman, I 
yield back my remaining time.
    Mr. Larsen. Thank you very much. I recognize Representative 
Lynch of Massachusetts for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman and Ranking Member, for 
holding this hearing.
    Ms. Lang, I couldn't agree more with your insight in terms 
of getting young people involved early in the process. I know 
from my own experience, I took some welding classes in high 
school, ended up going to the iron workers apprenticeship 
school for 3 years. Then I went to work at a shipyard. They had 
a welding school, as well. I became president of the Iron 
Workers Union. Of course, then I got my law degree and I became 
a politician. My wife says it has been one disappointment after 
another.
    [Laughter.]
    Mr. Lynch. But I would say that it has a tremendous 
influence, getting young people involved early. Part of it is 
just letting kids know what is out there. And they have an 
opportunity to become skilled workers. It gives them some 
direction and some options.
    One of the successful programs that they have used in the 
building trades is the Helmets to Hardhats program. So the 
building trades unions all across the country, AFL-CIO, worked 
with the Building Trades Employers Association. And as men and 
women are transitioning out of the active military duty, they 
are pulled right into the building trades. So--and we do an 
assessment. If they are already highly skilled enough, they 
will just take them in as full journeyman and journeywomen 
members. And if they are in need of additional training, they 
will plug them into their apprenticeship programs, sometimes as 
second-year or third-year apprentices, because they don't need 
that much training.
    But it has been a great program for our diversity goals 
because, you know, a lot of women and people of color are 
coming out of the military. We plug them right into our unions, 
so that has been helpful there.
    And there is also the fact that many of our sons and 
daughters in uniform have deployed multiple times, and there is 
a stress level there, and a difficulty and awkwardness 
transitioning back to civilian life. So we find that it has 
been very helpful that, when they come into our organizations, 
they are accepted, they are supported, and it is a good--there 
is a good vibe there. And everybody is so proud of their 
service, I think they feel very much accepted.
    So is there anything like that that the FAA and aviation 
employees are doing to--and maybe the machinists union? I know 
they are very active, they have a great program. Are they doing 
something similar to sort of reach out to our sons and 
daughters in uniform?
    I know there is an effort ongoing when people are reaching 
that point of transitioning out of the military. You know, they 
have it on Armed Forces Television when you are over in 
Afghanistan or Iraq, you see it all the time. You know, it is 
constant. But is there any active program going on with the FAA 
to try to facilitate that?
    Ms. Lang. Well, first of all, thanks for the tip on the 
Helmets to Hardhats. And I think that is definitely something I 
would like to reach out to our union partners to learn a little 
bit more about.
    I think there are a number of internship programs. I think 
there is work we are doing with DoD. We have talked about some 
of that already. I am impressed by--in this industry--I don't 
want to say it is waking up, but you see a lot of innovation 
occurring now, because there is an awareness that we actually 
have to do things that are creating pathways much earlier in 
people's careers and getting them hooked in.
    So I think we are--I am sorry, go ahead.
    Mr. Lynch. No--so, Ms. Krause, how much of this mismatch, 
or the gap that we are seeing on the aviation mechanics side 
and technician side, is a result of competition with some of 
the other disciplines?
    Because we have got, you know, kids that have any type of 
acumen in engineering have so many choices now, right? Computer 
science, bioscience, chemical engineering, all of that. How 
much is that--you know, some of these--maybe they are higher 
paying or more promising disciplines that are pulling people 
away from the aviation industry.
    Ms. Krause. I think it is an issue that is difficult to 
quantify, but definitely something we have heard from 
stakeholders as we spoke with them. They have talked about AMT 
schools, students in those schools having a highly sought-after 
skill set, and other occupations that do have--you know, can 
have better wages or better working conditions. So things like 
amusement parks, NASCAR, industrial heating. So those are other 
areas that they, you know, might pursue, so that----
    Mr. Lynch. Well, thank you very much.
    Mr. Chairman, my time has expired. I yield back.
    Mr. Larsen. Thank you very much. I want to turn now to the 
gentleman from Minnesota, Representative Stauber, for 5 
minutes.
    Mr. Stauber. Thank you, Mr. Chair. I appreciate it, and I 
appreciate both your testimonies here today.
    Ms. Lang, in 2016 a report done by Boeing showed more than 
40 percent of the current pilots flying for major airlines will 
meet retirement age by 2026. Can you please discuss what the 
FAA is doing to address this projected pilot shortage?
    Ms. Lang. Well, first of all, we are very aware that 
industry has a great deal of concerns about the pilot pipeline. 
And clearly, on the one hand, it is good news, because we have 
robust forecasts for growth in aviation, both in terms of 
traffic levels and in the fleet. But we are also aware that we 
have got to get our arms around what are potential impediments. 
We have got to get people attracted to aviation.
    But I think my colleague from GAO put it well. In light of 
the costs associated with entry, especially on the pilot side, 
the more we have programs that give them confidence that they 
are going to get a rate of return on that investment, probably 
the better we are going to do.
    And a good portion of the work that our steering committee 
is going to do is, first of all, look at what we can do with 
other sister Government agencies to create better access and 
affordability on education, making this career path more 
affordable, and the access to loans and so forth is something 
very important we have to do. We have to look at what we can do 
on the regulatory end.
    But most importantly, I think we have got to collectively 
come together as an industry to look at what we all have to do 
in our respective roles to really feed that pipeline and get 
people interested in it, and take the long view. I mean, I 
think we have to start not just at the workforce we need today, 
but also the workforce we need 10 years from now and 20 years 
from now. What is our level of investment in making sure we are 
priming that pump?
    Mr. Stauber. A couple of followups. The current age for 
commercial pilots for retirement is 65. And that was changed in 
2009 from 60 years old. Is raising the mandatory retirement 
age, which hasn't been raised in 11 years, part of the 
discussion at the FAA?
    Ms. Lang. Well, I will tell you truthfully that is a bit 
out of my swim lane, but that is--because I have never minded 
my swim lanes too well.
    I would offer this. You know, on the one hand, there are an 
awful lot of ideas about the things we can do as a regulator 
that could do things to get up to date on the capabilities of 
modern science, medical information, technology, all of which 
will safely allow us to think in different ways than we have in 
the past.
    I have not had a conversation at FAA with anybody on it. I 
am aware that different parts of the world have raised the age 
limit to 67. I think those are worth looking at and examining, 
both the safety case, the medical case they made in doing that. 
I am old enough to have been around when the debate began on 
moving from age 60. It took a lot of rigor and it took a lot to 
build public confidence that we can do that safely. And I think 
that is one of the things that will at least be on the list of 
things to examine and explore: What are some of the practices 
in other parts of the world?
    Mr. Stauber. Thank you. Just a comment. You had talked a 
couple of minutes ago about the importance of ensuring that the 
aviation is front and center. What are you doing for the high 
schools and even in the colleges to promote--and working with 
other governmental agencies to promote aviation, and to promote 
the industry in general?
    We see the high schools bring the building and construction 
trades in, for example. What is aviation doing, and what do you 
see--the push for the industry to move forward?
    Ms. Lang. You know, again, I think there is an awful lot we 
need to do.
    On the one hand, I will be perfectly honest, as I mentioned 
before, much earlier in my career, FAA had a very robust 
program in the field on STEM and AVSED, where we were working 
with all ages, and I mean from kindergarten all the way to 
postgraduate work. We have some activities we are doing, we 
have kept doing, but we really are in the process of rebuilding 
that program up. I don't know how it began to atrophy in 
certain parts of the agency, but, frankly, we do have to build 
it up again.
    I also think that we really need to listen with, you know, 
the long ear to our aviation academic counterparts on what it 
is they need us to be doing to improve their ability to get 
more people into the pipeline.
    Mr. Stauber. I thank you very much, and my time has 
expired.
    Back to you, Mr. Chair.
    Mr. Larsen. Yes, thank you very much. I now recognize 
Representative Garcia of Illinois for 5 minutes.
    Mr. Garcia. Thank you, Mr. Chairman. Thank you both for 
being here this morning, our two panelists. I would like to 
begin with Ms. Lang.
    Last year Congressman Hank Johnson and I made an effort to 
increase funding in the FAA's Minority Serving Institutions 
intern program. And although minorities make up 40 percent of 
the U.S. population, 75 percent of aerospace engineers are 
white. I, of course, hail from a predominantly Latino district. 
According to the Equal Employment Opportunity Commission, only 
7.8 percent of the FAA's workforce is Latino, though we make up 
about 16.8 percent of the total workforce. These disparities 
are exactly the issues programs like the Minority Serving 
Institutions intern program at the FAA seek to resolve, as you 
know.
    Can you share with me what strategies the FAA currently 
employs to diversify its workforce?
    And do you think that these initiatives are adequate?
    And finally, should the FAA do further to ensure its 
workforce is reflective of the broader U.S. population?
    Ms. Lang. You know, clearly we need to do more, because the 
numbers don't lie. And so I do think we are going to have to 
work on whether examining the programs we do have--and we do 
have some, we do have programs with our employee associations, 
we have programs with minority-serving institutions, where we 
have internships. I think last year we did about 150, and we 
worked in close partnership with Hispanic and Black 
universities on those programs. But the numbers aren't changing 
as rapidly as they ought to.
    Yesterday I had the opportunity to chair my first steering 
committee meeting, and I think we collectively agreed we are 
going to have to do a more focused effort, both within the FAA 
and with industry, in improving these numbers. And outreach----
    Mr. Garcia. Any sense what that could be? Any sense what 
that could be, measures to improve outcomes?
    Ms. Lang. Well, I think, fundamentally, the measure is 
increasing the employment numbers. And I think we have to 
absolutely understand where are the barriers in recruiting and 
getting people interested in going into the aviation careers. I 
am very interested in hearing the next panel. We have got 
institutions that are based and working very closely in 
minority neighborhoods and recruiting. I think we have to learn 
from these programs and adopt the best practices that are out 
there. But we definitely can do more.
    I think our own outreach efforts have to do more in these 
communities.
    Mr. Garcia. OK, thank you.
    Ms. Krause, in 2015 the FAA issued a proposed rule to 
modernize the aviation maintenance technician educational 
curriculum. I understand that there have been growing concerns 
about the aging curriculum, which is exacerbating a skills gap 
in the workforce, coupled with a retiring workforce. This is 
cause for concern.
    Would you agree that a modernization of AMT curricula is 
overdue?
    Ms. Krause. Yes, we would absolutely agree that this is an 
issue that needs to be addressed. When we have talked to 
stakeholders about sort of the implications of the outdated 
curriculum, some of the factors they cite are really kind of 
having to focus on both new and old technologies. Companies 
talk about having to provide gap training in terms of filling 
in some of those skill sets. So we do think this is an 
important area to address.
    Mr. Garcia. And would you also agree that, while--
modernization of the AMT curriculum and maintaining minimum 
safety standards must remain a top priority?
    Ms. Krause. Given the mission of FAA, yes, safety is very 
important.
    Mr. Garcia. So what steps is the industry or the FAA taking 
to advance its 2015 rulemaking or other initiatives to address 
the aging curriculum for AMT certification? For either one of 
you.
    Ms. Lang. Well, I can say that we definitely have got to 
get this thing done, and there is unanimity of view that it is 
late and overdue.
    The FAA did a rulemaking that we began, I believe, in 2015. 
The ideas came in, there were new ideas we had, and 
complicated, that put us back into doing a supplemental 
rulemaking last year. Our goal is to get that out. And we 
understand the interest of this community and this committee 
that that get done quickly.
    Mr. Garcia. Thank you.
    Thank you, Mr. Chair. I yield back.
    Mr. Larsen. Thank you, and I recognize Representative 
Woodall from Georgia for 5 minutes.
    Mr. Woodall. Thank you, Mr. Chairman. Thank you all both 
for being here.
    I was interested in the GAO report--not the one that you 
wrote, Ms. Krause, but the one that was written in 2003 that 
said the very same thing that the one you wrote said.
    And so my question is for you, Ms. Lang. A lot of 
excitement about your arrival in this spot at this time. I look 
forward to having the conversation with the next panel, but I 
am wondering if FAA does have a continuing and growing role in 
aviation maintenance certification, or if that role needs to 
turn and begin to decline.
    We have got Delta folks coming up next. They have been 
innovating a lot over the last 60 years. Gulfstream folks 
coming up next, they have been innovating a lot over the last 
60 years. We can't get new regs out for our maintenance 
technicians in the last 60 years. That doesn't tell me that you 
need to hurry up and get these things out so we can have them 
in place for the next 60 years. It tells me maybe that 
Gulfstream has a better shot at identifying the right skill 
sets for its mechanics than you do, as talented as you are.
    As you look forward--since you don't mind getting out of 
your swim lane--do you see a continuing and growing role of FAA 
certification, or do you see a possibility that maybe you are 
working more on hooking up with high schools, and developing 
minority interest, and working on STEM programs in colleges, 
but that Gulfstream can determine for Gulfstream what it needs, 
and Delta can make sure it is partnering with good partners to 
get Delta what it needs?
    Ms. Lang. Well, I think the first answer is we have got to 
do our job.
    I mean, look, the FAA puts high priority in the rulemaking 
process on safety-critical rulemakings and procedures. And----
    Mr. Woodall. If I could just interrupt you for a second, 
that just can't possibly be true, right? Sixty years of delay 
can't be high priority. GAO recommending the changes happen in 
2003 can't be high priority. It is not your fault, right? It is 
different administrations, it is different parties, but it is 
not high priority. It may well be the lowest priority.
    The minority retention programs, we have set those up. The 
STEM development programs, we have set those up. The changing 
safety training, maintenance requirements, we are not doing 
anything at all.
    Ms. Lang. What can I say, but point taken? I think the FAA 
needs to get the lead out and get this rule done. I mean, it is 
a rule everyone agrees is out of date. So first and foremost, 
we have got to do our part in getting that rule out. And we are 
committed to getting that done.
    I think you raise an interesting question--again, on this 
swim lane issue--as to, ultimately, what is the regulatory role 
for the FAA going forward in curriculum development, if we 
can't find a way to do it with agility and real-time 
adaptability, and that is what I am hearing.
    You know, it raises a lot of questions I think we need to 
have followup conversations with this committee on, because 
these are really important safety questions. There are a lot of 
industries that not only do the certification--by that I mean 
the testing and practical exams--but they also establish the 
curriculum as a precondition to doing that. Now, you see that 
on the finance sector, and I think we all would have to answer 
the mail on why we would have a lesser standard and get out of 
the curriculum business on the safety side. But that said, we 
have to do it in a way that remains current, or it is not 
useful.
    So first order of business is getting out the rulemaking we 
have in hand, and we are committed to doing that. But I think 
there is a longer conversation to have about what we need in 
order to stay agile and adaptable to a very fast-changing pace 
in technology.
    Mr. Woodall. Ms. Krause, as I mentioned, folks are excited 
about Ms. Lang being in this job. And if anybody can get it 
done, she can. I will ask the other stakeholders when they come 
in panel 2. But the stakeholders you talk to, is it obvious to 
everyone that the FAA has a continued role in curriculum 
training standards? And I don't mean a role in guidance and 
making recommendations. I mean a role that says do it this way, 
or your folks can't graduate, so keep building those paper 
airplanes so that your kids can be trained for the 21st 
century?
    Ms. Krause. I think there are different approaches to take 
to addressing curriculum. I think the thing we would emphasize 
is the need to involve FAA to partner with industry and the 
Congress on how best to proceed.
    I mean, we didn't talk with stakeholders on getting 
perspectives on that specific issue, but that should certainly 
be part of these conversations on how best to move forward.
    Mr. Woodall. The FAA has got a lot on its plate, and a lot 
of constructive criticism comes from every direction. I just--
as much as you care, you can't possibly care more about 
Gulfstream safety than Gulfstream does. And so I am just 
looking for those ways that we can alleviate some of your 
burden, while continuing to maintain that safety for the flying 
public.
    Thank you for your indulgence, Mr. Chairman. I yield back.
    Mr. Larsen. Absolutely. I recognize Representative Perry of 
Pennsylvania for 5 minutes.
    Mr. Perry. I thank the witnesses. I thank the chairman for 
the time. I am late to the conversation, I do apologize--
multiple hearings at the same time. And if the question has 
already been asked, I apologize for that, as well.
    What is the projected release date, if you have one, of the 
final rule?
    And again, I apologize. I suspect--I hope it has been 
asked, but if you can characterize that at all. And I probably 
don't have to go into different machinations about how we got 
to where we are, and being late, and so on and so forth. But 
what do you see?
    Ms. Lang. Well, I know, by the FAA's internal standards we 
hold ourselves to, we try to get--if we have done a 
supplemental--and we did that in June of last year--the goal is 
to get the final rule out within 16 months, which would be this 
fall.
    Mr. Perry. This fall?
    Ms. Lang. Yes.
    Mr. Perry. And just--I hate to do this, but can you 
characterize--there are a lot of folks that are waiting, right? 
There are a lot of folks that are waiting, and they are trying 
to plan. So what--does fall start on August 30th or September 
1st, or--when does fall start for the FAA?
    Ms. Lang. I think 16 months from June is October, if my 
math serves me right.
    Mr. Perry. OK, so we are looking for that in October.
    Ms. Lang. But listen, we understand there is a lot of 
interest. And if we can, you know--knock on wood, we will make 
it. But hopefully we will beat it. And I will take that message 
home clearly.
    Mr. Perry. So, just out of curiosity, I have been honored 
to work around a lot of mechanics, AMT folks, in my career. But 
I have never been one. So you just assume they know what they 
need to do, and all the ones that I have been around did know 
what they needed to know, and kept the aircraft safe, and kept 
us safe.
    That having been said, what is the collaboration between 
the FAA and industry regarding the needs that are commensurate 
with the industry today? But it also includes the industry of 
the past, I am sure. I am sure--I am hoping we are not spending 
a lot of time teaching people how to dope a wing. But at the 
same time, those things are still out there, and you have to 
have some perspective on it.
    On the other hand, we are getting into hypersonic flight, 
unmanned use, and all that kind of thing. So what kind of 
collaboration does the FAA do with industry and curriculum 
development?
    Ms. Lang. Well, some of it is done formally. I mean, 
obviously, the part 147 process on the curriculum is a formal 
process. But it is clear we need to get current in making sure 
that--because we have got all kinds of new avionics that are 
out there, new composites--that we have got to get people the 
curriculum, training people to the things that are out there 
toward more of a performance base, as opposed to a prescriptive 
way of doing business, which is what the industry is doing.
    I think, first and foremost, we have to look internally at 
what our role is as a regulator, and the things we are doing 
that we have to correct. So part 147 is a good example of that. 
But I suspect there are other things. And we have to look at 
our regulatory responsibilities on that.
    I think a big part of my job in the next few months is 
really, though, beginning a robust conversation with industry 
and academia on what it is we collectively need to do to 
improve that pipeline. And that--I will tell you truthfully I 
just started this job in January. I have read an awful lot of 
materials in the last 4 or 5 weeks. But I am really looking 
forward to beginning the conversation. Today's hearing is a 
great opportunity on that.
    I am very much looking forward to the next panel, but it is 
one of those things where, the sooner I can get out of 
Washington and get on the front line, probably the better. 
Nothing personal on that.
    Mr. Perry. Well, we sure appreciate your involvement and 
your short tenure so far. We don't mean to be critical to be 
critical, we hope it is constructive. But there are concerns 
that are legitimate. And not only the flying public, but the 
industry demands timeliness and our focus and attention on this 
issue, as I know you will bring it.
    And so please don't take the criticism as solely criticism, 
but you can see--and you probably already know--that some of 
these things are warranted because they are concerning--the 
continual delays vex us and the people that we answer to, our 
bosses. So we sure appreciate you. Thank you.
    Mr. Larsen. Thank you, Representative Perry. I think that 
is all the questions that we have for the panel. I want to 
thank the panel, the first panel, for coming this morning and 
answering questions. I imagine we will have followup questions 
on individual issues.
    And with that we will let staff reset the table and get the 
second panel ready to go.
    [Pause.]
    Mr. Larsen. Great, well, let's get started with panel 2. I 
want to welcome our next panel of witnesses.
    In order is Mr. Steve Jackson, who would be the principal 
of Aviation High School, and he is accompanied by Mr. Mario 
Cotumaccio, assistant principal at Aviation High School. 
Apparently no one is there providing discipline today.
    [Laughter.]
    Mr. Larsen. Ms. Sharon DeVivo, president of Vaughn College.
    Mr. Joseph McDermott, managing director of technical 
operations of Delta Air Lines.
    Mr. Jay Neely, vice president of law and public affairs, 
Gulfstream Aerospace.
    And Ms. Dana Donati, the general manager and director of 
economic programs at LIFT Academy.
    Thank you all for being here today. We look forward to your 
testimony.
    And, without objection, our witnesses' full statements will 
be included in the record.
    As with the previous panel, since your witness testimony 
has been made part of the record, the subcommittee requests you 
limit oral testimony to 5 minutes.
    We will now proceed with witness testimonies. I first 
recognize Mr. Jackson for 5 minutes.
    You are recognized.

   TESTIMONY OF STEVEN R. JACKSON, PRINCIPAL, AVIATION HIGH 
 SCHOOL, ACCOMPANIED BY MARIO COTUMACCIO, ASSISTANT PRINCIPAL, 
   AVIATION HIGH SCHOOL; SHARON B. DeVIVO, PRESIDENT, VAUGHN 
   COLLEGE OF AERONAUTICS AND TECHNOLOGY; JOSEPH McDERMOTT, 
MANAGING DIRECTOR, TECHNICAL OPERATIONS, DELTA AIR LINES; JOHN 
     J. NEELY III, VICE PRESIDENT, LAW AND PUBLIC AFFAIRS, 
  GULFSTREAM AEROSPACE, A GENERAL DYNAMICS COMPANY; AND DANA 
DONATI, GENERAL MANAGER AND DIRECTOR OF ACADEMIC PROGRAMS, LIFT 
                            ACADEMY

    Mr. Jackson. Chairman Larsen, Ranking Member Graves and 
Graves, and distinguished members of the subcommittee, thank 
you for calling this important hearing on the future of our 
Nation's aviation maintenance and manufacturing workforce. On 
behalf of the students, staff, and graduates of Aviation High 
School, I am very honored to testify before this subcommittee.
    I am the principal of Aviation High School, a public high 
school that has been training aviation maintenance technicians 
since 1936. It is located in Queens, New York, the most diverse 
county in the Nation. And our school mirrors that diversity. 
And we have a 21-percent female student body.
    We are within reach of JFK International, LaGuardia, and 
Newark Liberty International Airports, the Northeast aviation 
sector. The overwhelming majority of technicians at these 
airports were trained by Aviation High School and our fellow 
panelist, Vaughn College.
    There are approximately 20,000 students currently enrolled 
in part 147 aviation maintenance technical schools in the 
United States, and Aviation High School educates 1 out of every 
10 of those students. We enroll more students than any other 
single aviation program. We are part of a larger community, of 
course, 176 certified schools by the FAA across the United 
States, and nearly all the other aviation maintenance schools 
are colleges and technical school, while our graduates are 
eligible to earn their airframe and powerplant technician 
licenses at a much younger age.
    Our students pull double duty, therefore, to obtain both 
their high school credentials with academic arts, language, and 
physical education courses, like any other school. And they 
also, of course, have the rigorous aviation maintenance 
training of a part 147 school that is typically, again, taught 
at the college or post-high school level.
    But, as this subcommittee has identified, and we heard from 
the first panel, we have a problem. As a community, aviation 
maintenance technical schools have the capacity to enroll 
35,000 students, and part 147 schools currently fill just over 
half of those seats. Our growing industry will need 193,000 new 
technicians over the next 10 years in North America, alone.
    As a high school that receives over 4,000 applications for 
an incoming class of 500 students, we have a few thoughts on 
how to address this shortage.
    At Aviation High School we see that exposure to the world 
of aviation at a younger age is key, much younger than where 
our high school program actually begins. Fewer and fewer 
students are exposed to mechanical work. They do not work on 
their bikes or tinker with their cars with their families. Our 
goods are becoming more digital, and when they break they are 
more easily replaced than repaired.
    The current STEM models in education provide the math and 
science coursework for elementary and middle school students, 
but these courses also need to provide students with more 
hands-on practical jobs so that they can figure out at a 
younger age whether they would like to learn how systems work 
together, or how they can be fixed and improved by using their 
hands.
    As a school community we also debate the idea that 
technicians, who were once known as mechanics, would be better 
represented and marketed as a career if they were to be known 
as aircraft engineers. By rebranding aircraft maintenance and 
repairs an official engineering career path, we believe that 
many more young people would set their sights on entering the 
aviation maintenance field as aircraft engineers.
    For us, one of the most important aspects--in addition to 
what I am stating--of our program is the close relationship 
that we have with commercial airlines that operate in the New 
York City area. Aviation High School has official partnerships 
with fellow panelist Delta Air Lines, as well as JetBlue 
Airways, British Airways, and Panasonic Avionics, which provide 
many of our students with internship, work-based learning 
opportunities at their hangars and maintenance facilities.
    The Port Authority of New York and New Jersey has provided 
us with classroom and ramp space at JFK International Airport, 
where students work in their classroom, participate in 
internships after class, and that also complete their 
coursework on a Boeing 727 that FedEx donated to us. Adding 
more opportunities for our students to participate in such 
real-world, on-airport experiences at a young age would help to 
improve their training and entice more young students to enter 
the career path.
    We would also benefit from the introduction of more 
flexibility and modernization of curriculum, as we heard this 
morning, for schools to address the FAA part 147 regulations 
that would help them align their coursework to the needs of the 
industry and the geographic location of each school. To that 
point, we support the Promoting Aviation Regulations for 
Technical Training (PARTT) 147, the H.R. 5427 bill, the 
mechanic aircraft certification standards, and the removal of 
seat time requirements that ATEC has submitted for review to 
this subcommittee.
    Timelines suggest we will not see a modernized rule until 
at least 2022. Therefore, we ask Congress to support H.R. 5427, 
which would give schools like ours the flexibility to educate 
our students and prepare them for today's high-tech jobs in 
aviation.
    As one can imagine, maintaining and operating a part 147 
school that works to create a real-world experience for our 
students as high school students also creates a heavy price tag 
for our local and educational system to fund. We are very 
appreciative that Congress has allocated Federal funds to 
support aviation maintenance schools. It would be extremely 
helpful if part 147 schools received the additional allocations 
as soon as possible, so we can continue to improve our 
students' technical training for the 21st-century workforce.
    We appreciate this subcommittee's interest in the future of 
aviation, and a desire to address the technician shortage. Our 
belief is that the future is built on programs like Aviation 
High School and Vaughn College, on quality, well-rounded 
education that exposes young students to STEM and mechanical 
training at earlier ages, and practical hands-on partnerships 
and connections with the FAA and the aviation industry.
    Thank you very much for this opportunity to testify today 
on behalf of Aviation High School, and we look forward to your 
followup questions to address specific ways that Congress can 
respond to the aviation maintenance technician shortage.
    And we also brought a wing section with flight controls for 
our question and answers, so you can see some examples of what 
we are talking about.
    [Mr. Jackson's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Steven R. Jackson, Principal, Aviation High 
                                 School
    Chairman Larsen, Ranking Member Graves, and distinguished members 
of the Subcommittee, thank you for calling this important hearing and 
thank you for the invitation to testify on behalf of Aviation High 
School. We are very honored to be included with Vaughn College, Delta 
Air Lines, Gulfstream, and Republic Airways to provide our insights on 
the future of America's aviation maintenance and manufacturing 
workforce.
    Futures are built and Aviation High School in Queens, New York, is 
a very special place where this happens. Officially, known as Aviation 
Career and Technical Education High School, it is a New York City 
public high school that was founded in 1936 with the mission of 
training aviation maintenance technicians at the high school level. The 
school is in close proximity to JFK International, LaGuardia, and 
Newark Liberty International Airports, the Northeast aviation sector, 
and the overwhelming majority of the technicians at these airports were 
trained by Aviation High School or Vaughn College. We are one of the 
largest Federal Aviation Administration (FAA) certified Part 147 
Aviation Maintenance Technician Schools in the nation and one of only a 
handful of high schools in the nation that provide students with the 
ability to earn their airframe and powerplant technician licenses--
licenses that allow our students to get jobs building and maintaining 
aircraft for the civil and military aviation industry. Our students can 
earn one license in four years and their second license in our 
competitive fifth year program. As a Part 147 school the certification 
process is extensive; the FAA must approve our curriculum and they 
conduct regular oversight of our facilities, processes and procedures 
to ensure we continue to comply with FAA regulations. Our school is one 
of 176 FAA-certificated maintenance schools across the United States. 
While we are part of this larger community, our school is unique in 
several ways. Nearly all the other maintenance schools are colleges and 
technical schools, meaning our graduates are eligible to take the FAA 
mechanic test at a much younger age. And because we are a public high 
school, the education is free to our students.
    Our students learn and work in multi-period aviation maintenance 
courses from their freshmen year through senior year. Our students also 
take the traditional academic, arts, language and physical education 
courses that New York State requires of all students in order to earn a 
high school diploma. Simply put, Aviation High School students are 
pulling double duty--they are simultaneously working on their high 
school graduation credentials while also working on obtaining their 
airframe and/or powerplant licenses with the hopes of entering the 
aviation field, attending a variety of college programs or enrolling in 
the military. Over the course of our 84 years in existence we have 
trained a great many of the technicians in the industry, with 
approximately 11 percent of the nation's technicians currently enrolled 
in our program. Moreover, there are approximately 20,000 students 
currently enrolled in certificated aviation maintenance programs in the 
United States. Aviation High School educates one out of every 10 of 
those students. We enroll more students than any other single aviation 
program and our alumni span the globe. Last year, 263 students earned 
their airframe and/or powerplant licenses through our program.
    While Aviation High School has a very high rate of success 
recruiting students into our program, across the nation schools are 
struggling. As a community, aviation maintenance technician schools 
have the capacity to enroll 35,000 students, yet Part 147 schools fill 
just over half of those seats. At the same time, a Boeing forecast 
projects that our growing industry will need 193,000 new technicians 
over the next ten years in North America alone. As a high school that 
receives over 4,000 applications for an incoming class of 500 students 
one would guess that a large percentage of our recent graduates go into 
the workforce directly upon graduation, but this is not the case. In 
this area we find that our experience as a Part 147 aviation 
maintenance high school provides us with important insight into the 
various reasons why teenage students and their parents may choose to 
attend a school such as ours, but possibly not enter the workforce 
immediately upon graduation. It has been our experience that middle 
school students and their parents choose our school for a great variety 
of reasons such as the quality of our aviation maintenance and academic 
coursework, school safety and environment, potential for learning a 
highly-skilled trade and the overall high regard that residents of the 
City of New York have for our school. As a high school we face the 
challenge of not only providing students with a well-rounded academic 
and technical program, but we must also teach our students about the 
aviation industry and the many jobs that are available to aviation 
maintenance technicians today. Conversely, the challenge is that from 
the moment of their child's birth parents envision a college and 
university path for their sons and daughters that will typically 
prepare them to become a well-paid, highly regarded doctor or lawyer, 
not necessarily an aircraft technician. It is our belief that this 
mindset creates barriers for many younger people and their parents to 
envision their children working in the field of aircraft maintenance.
    Though this may be the case we find that we are typically 
successful in educating our students on the realities of work in the 
aviation industry through the real-world experiences that our teachers 
provide to our students. This sharing of real-life experiences provides 
our students with more opportunities upon graduation than your typical 
high school. It must be noted that our aviation maintenance staff are 
largely made up of graduates of our school and use their time with the 
students to share their industry work experiences and motivate them to 
enter the aviation industry.
    Aviation High School is located in the most diverse county in the 
nation: Queens, New York. Our student body is made up of high school 
students ranging from ages 14 to 19 from all five boroughs of New York 
City. It is a highly sought-after program for students and parents 
looking for a high school that provides the training and preparation 
for students to start a lucrative career after high school or to go 
onto a college or university program. The student body is comprised of 
46% Hispanic/Latinx, 37% Asian, 9% White and 4% Black students, 21% of 
our student body are women, 14% are students with disabilities and 67% 
of the student body is facing economic hardships in their home life. 
Additionally, a majority of our students are first generation Americans 
whose parents have brought them to the United States to gain better 
educational opportunities and a better quality of life. The diversity, 
focus and motivation that our students bring to school each day, as 
well as the dedication and hard work of their teachers, helps create a 
welcoming and supportive environment for all students as they work 
through the rigors of a Part 147 program that is traditionally taught 
at the college or post-high school level. As a result of the efforts of 
our students and staff, 96% of our students graduate on time within 
their cohort and approximately 40% of each graduating class earns their 
airframe and/or powerplant licenses, and each year we estimate that 
approximately 10% of our students go into the aviation maintenance 
workforce not long after graduation, with many also attending college 
at the same time.
    We know this Subcommittee wants to understand how to help our 
nation fill the many aviation maintenance technician positions that are 
now available in order to maintain a vibrant aviation industry. At 
Aviation High School, we see that exposure to the world of aviation at 
a younger age is key--much younger than even where our high school 
program begins. Fewer and fewer students are exposed to mechanical 
work--they do not work on their bikes, or tinker with their cars with 
their families. Our goods are becoming more digital and when they 
break, they are more easily replaced than repaired. We believe very 
strongly that the current STEM models in education overwhelmingly 
provide the rigorous math and science coursework for our elementary and 
middle school students, but that these courses also need to provide 
students with more hands-on practical projects so that they figure out 
at a younger age that they would like to learn how systems work 
together or troubleshoot the solutions for fixing and improving the 
system they are working on. Incorporating more hands-on projects at the 
middle school level along with the very important marketing and 
messaging that the industry should incorporate into their 
advertisements and promotions will help younger generations of students 
choose the path of working on the various aircraft that are flown 
throughout the world. As a school community we also debate the idea 
that technicians, who were once known as mechanics, would be better 
represented and marketed as a career if they were to be known as 
aircraft engineers. By rebranding aircraft maintenance and repair as an 
official engineering career path we believe that many more young people 
would set their sights on entering the aviation maintenance field, 
whether they are teenagers or young adults.
    Another important aspect of our program that provides many of our 
students with the exposure to the inner workings of the industry and 
helps to enhance our students' skillset is the close relationship and 
partnerships that we have with the commercial airlines that operate in 
the New York City area. Aviation High School has official partnerships 
with Delta Air Lines, JetBlue Airways, British Airways, and others, as 
well as numerous maintenance, repair and overhaul (MRO) companies, such 
as Panasonic Avionics, which provide many of our students who are 
working on their second FAA license with internship work-based learning 
opportunities at their hangars and maintenance facilities. To help with 
this school-industry partnership we are fortunate enough to have a 
partnership with the Port Authority of New York and New Jersey who has 
provided us with classroom and ramp space at JFK International Airport 
where our students work in their classroom, participate in their 
internships after class, as well as complete their aviation coursework 
on a Boeing 727 that FedEx donated to our school. This airport 
classroom is in addition to the main campus that includes 34 aviation 
maintenance labs and on-sight hangar that houses our 11-small aircraft.
    We are very fortunate that we are here today with two of our 
partners, Delta Air Lines and Vaughn College. It is important for 
programs like ours to have clear pathways for our students to learn 
from technicians in the field on real aircraft, as well as college 
programs that allow them to use their aviation maintenance training and 
apply it to the many related career fields that are available to them 
throughout the industry, such as air traffic control and flight 
training. These additional pathways help to motivate our students and 
provide them with that additional inspiration to work towards their 
various aviation interests. We are very fortunate to work so closely 
with Delta Air Lines as we gain their feedback on how to improve our 
students' technical aptitude and with Vaughn College to learn from 
their experiences at the collegiate level.
    These opportunities add to the knowledge base and skills 
acquisition that our students receive beginning in the ninth grade, and 
the internships are an important way for our partners to engage with 
and help train the next aviation maintenance technicians graduating 
from our school. As one can imagine, maintaining and operating a Part 
147 school that works to create real-world experiences for our students 
also creates a heavy price tag for our local educational system to 
fund, and we are very appreciative that Congress has allocated federal 
funds to support aviation maintenance schools and it would be extremely 
helpful if Part 147 schools received the additional allocations as soon 
as possible so that we can continue to improve our students' technical 
training for the 21st century workforce.
    We believe that such partnerships and accompanying internships help 
increase the number and improve the quality of aviation maintenance 
technicians trained in the nation. We believe that these experiences 
need to be expanded and incorporated into schools at an earlier point 
in our students' educational experience. Currently only students 18 
years or older can gain access to work-based opportunities on our 
nation's airports. To improve such access for high school students, 
this would require the FAA, industry partners and aviation maintenance 
technician schools to work more closely together to not only provide 
more flexibility to allow schools to adapt to the changing aviation 
technology, but to also create a pathway where more students can earn 
student apprenticeship type clearance to learn and work alongside 
certified, experienced aviation maintenance technicians at an earlier 
age. Ideally it would be wonderful if high school students, such as 
ours, were provided with on airport, on-the-job experiences with the 
guidance of the partnering company to help train students for the 
specific type of job openings available in a school's surrounding area. 
These earlier connections between school and industry would also create 
those marketing opportunities for younger students to see the exciting 
work they could do in a high school that trains aircraft engineers.
    This infusion of industry training into aviation maintenance 
schools at an early point in a child's educational experience, both at 
the elementary and middle school level, would also benefit from the 
introduction of more flexibility and modernization of curriculum for 
schools to address the FAA Part 147 regulations that would help them 
align their coursework to the needs of the industry in the geographic 
location of each school, whether that means alignment with general 
aviation, commercial and cargo, manufacturing or MRO jobs that are 
available in that area of the country. To that point we support the 
Promoting Aviation Regulations for Technical Training (PARTT) 147 Act 
(H.R.5427), the Mechanic Aircraft Certification Standards, and removal 
of seat time requirements that ATEC has submitted for review to this 
subcommittee. The Promoting Aviation Regulations for Technical Training 
(PARTT) 147 Act is a bipartisan and bicameral bill that is awaiting 
action by this committee. The bill calls for the FAA to revise the 
current training mandates, something industry has long called for. 
While the regulation is currently in rulemaking agency, timelines 
suggest we will not see a modernized rule until at least 2022. 
Therefore, we ask Congress to support HR 5427, which would give schools 
like ours the flexibility to better educate our students and prepare 
them for today's high-tech jobs in aviation.
    We appreciate this Subcommittee's interest in the future of 
aviation and a desire to address the technician shortage. Furthermore, 
the community deeply appreciates this body's efforts to support 
aviation technical education by making workforce a central theme in the 
2018 FAA reauthorization, providing updated maintenance workforce data, 
urging Congress to use its oversight authority to ensure FAA initiates 
funded grant programs, and urging action on proposals like the PARTT 
147 Act and the Promoting Service in Transportation Act (H.R. 5118), 
which would help raise aviation career awareness. Our belief is that 
the future is built upon programs like Aviation High School, on 
quality, well-rounded education that exposes young students to STEM and 
mechanical training at early ages, and the practical, hands-on 
partnerships and connections with the FAA and the aviation industry.
    At Aviation High School we have a great wealth of experience and 
expertise in navigating the challenges of training young students to 
become aircraft engineers. Our aviation maintenance staff is made up of 
two assistant principals, Mr. Mario Cotumaccio and Mr. Giovannie Sosa, 
and 48 FAA airframe and powerplant certified high school teachers. 
Members of our aviation maintenance staff helped to develop the ideas 
and suggestions that are presented in this testimony and Mr. 
Cotumaccio, an Aviation High School graduate and aviation maintenance 
technician with over 35 years of experience as a technician, 
supervisor, teacher, FAA liaison, Designated Mechanic Examiner and 
administrator, summarized our core suggestions into six main points 
based on his years of expertise in the field of aviation education for 
your consideration as described below.
    The best solutions to the problems plaguing the airline industry, 
specifically the shortage of aircraft technicians, involve a 
multifaceted approach. Our proposed strategy relies heavily on the 
ability to join all the parties involved in the aviation industry: the 
party that governs the industry, the FAA, the party that is responsible 
for educating the industry, training institutions like Aviation High 
School, and the party that hires them, our beloved partners in the sky. 
Hopefully as our committee grows, we will be able to include the labor 
unions in the abovementioned approach, as the labor unions work hand-in 
glove with industry.
    We at Aviation High School, have created a comprehensive strategy 
to address the shortage of aircraft technicians and have outlined each 
step into six key parts:
 1.) Increase Outreach to Focus on Early Education: Elementary School, 
                   Middle School & High School Level
    Children today do not grow up hearing their parents' desire for 
them to become an aircraft technician; they are often encouraged to 
enter the medical, law or engineering professions. The best opportunity 
for a child (and their parents) to discover a different career path is 
through early exposure. The current period of exposure to the aviation 
industry for future aviators is high school; high school is much too 
late. It is crucial we develop programs and opportunities that 
introduce the amazing world of aviation to elementary, middle and high 
school children.
Elementary
    We believe in the STEM model, and we are eager to see elementary 
schools infuse an aviation-based STEM model that provide students with 
an opportunity to learn about the aviation industry, hands-on. Engaging 
elementary students, early on, with Aviation Work-Based Learning 
Projects, will encourage students to participate in trouble-shooting, 
problem solving, and improving, actual job issues that arise on 
aircraft or within the aviation industry. In addition, the introduction 
of Aviation Work-Based Learning Projects, nourishes the students' fine 
motor skills; industry educators and leaders are seeing a decline in 
the ability of our high school students to operate basic tools 
(screwdrivers, wrenches, etc.), when needed to complete tasks, which is 
quite often. At a time where our youth are being over-stimulated and 
distracted by all things ``smart'', there must be a focus on the 
importance of utilizing their hands. Furthermore, the introduction of 
Aviation Work-Based Learning Projects initiatives at the elementary 
school level, will raise awareness to new opportunities that will 
supplement their curriculum.
Middle School
    Industry partners are asked to invest time and resources to build 
programs that will sustain schools by creating outreach programs; these 
outreach programs will enable students to interact with real industry 
professionals. By exposing our students to a network of industry 
professionals, these mentors can provide opportunities for on-site job 
visitations, typically only made available when a student acquires an 
internship at the high school level. Together with implementing 
advanced Aviation Work-Based Learning Projects, outreach programs must 
also start earlier on than high school. There is also a tremendous 
emphasis on targeting these outreach programs to the communities that 
are underrepresented in the industry, encouraging diversity within our 
student population. Lastly, these programs will support and raise 
awareness of the plentiful and lucrative career opportunities available 
within the aviation maintenance industry.
High School
    As stated above, Aviation High School, has official partnerships 
with such airlines as: Delta Air Lines, JetBlue Airways, British 
Airways, and Panasonic Avionics. Our internship programs have earned 
Aviation High School national recognition and serve as a model to 
demonstrate how important collaboration is. When school, community, and 
industry work together, a stronger America is built! We believe that at 
an earlier point during a students' educational experience, our 
partnerships and internships need to be expanded and incorporated into 
schools nationwide. Industry experts have focused on the need to bridge 
the gap between the present-day CFR Part 147 curriculum and the 
technologies associated with today's modern-day aircraft. Internship 
programs help overcome this problem by placing future aviators in 
advanced modern-day learning environments, along with professional 
mentors. As a result, interns will become more knowledgeable on the 
functions of an organization, and they will also gain a more thorough 
understanding of the skillset needed for this type of career. 
Furthermore, most airline partners today, will require a minimum of 12 
to 24 months of experience before even considering an applicant. 
Through an internship, a student not only increases their knowledge and 
experience on modern-day aircraft, but they also increase their 
communication, organizational and teamwork-building skills that are so 
critical in today's job market.
                 2.) Improve the Perception & Marketing
    An aviation maintenance mechanic has evolved beyond being branded/
categorized as unskilled labor as per the US Department of Labor. 
Troubleshooting a Boeing 787 requires an individual with advance 
training, whom has the ability to: analyze symptoms, read and interpret 
sophisticated wiring diagrams, use complex tooling, and test equipment 
in order to determine the root of the problem. In addition, the 
individual must document the maintenance performed, which requires 
utilizing FAA approved language. Also, it is important to note, the 
individual paperwork associated with each repair is scrutinized and 
regulated by strict FAA protocols, where monetary fines or suspension 
of certification may be imposed to the individual if not properly 
performed. Drug testing is also mandatory and felony convictions are 
disqualifying factors when applying for employment. Lastly, the 
responsibility of each passenger's life at 35,000 feet above sea level, 
places an enormous stress on the individual.
    In addition to being classified/branded as an unskilled labor, the 
perception of the aviation mechanic is a hotly discussed item. Within 
the industry, we often debate the titles of said positions: mechanic vs 
technician. However, we strongly feel that the mechanic would be better 
represented and marketed, as a career, if they were to be branded as 
aircraft engineers. The European equivalent to the FAA is known as EASA 
and their mechanics are known as engineers. We strongly believe that 
rebranding aircraft mechanic as an aircraft engineer would attract a 
younger demographic and garner support of their parents upon entering 
the aviation maintenance field.
 3.) Streamline and Assist with the Certification Process and Testing 
                Challenges for Adult Education Programs
    This speaks directly to apprentice students/workers to entice them 
into the industry. Allow MROs and airlines to take them on as an 
unlicensed apprentice technicians and conduct their own curriculum/
training in-house.
 4.) Streamline Entry for those with Prior, Directly-Relatable Skills--
           i.e., the Surplus of Military Aircraft Technicians
    Strip away the extraneous tasks of having a military aircraft 
technician demonstrate the proper method for preforming a scarf splice 
repair on an aircraft WOOD structure and permit experienced military 
technicians to cross directly into the workplace which they have a 
proven track record and verifiable training to back up their 
credentials.
     5.) Streamline FAA Regulations as it Pertains to CFR Part 147 
                               Curriculum
    Recently, our industry partners (Delta Air Lines, JetBlue Airways 
and American Airlines) have expressed their concerns towards the rapid 
changes in technology with respects to students' preparedness. We must 
remind everyone here today that the airframe and powerplant certificate 
was designed solely as a ``license to learn'', and not a license to 
troubleshoot modern-day aircraft, we, the staff at Aviation High 
School, wish to alleviate such concerns.
    Much emphasis is being placed on the modernization of curriculum. 
We are in unison that change is necessary and we feel that the major 
overhaul required to modernize and revamp the curriculum will translate 
to a higher learning standard; however, the financial resources needed 
to make these changes would prove to be too costly to each school. Our 
proposal involves minimizing the financial strain by implementing 
changes to the curriculum based on geographical needs. For example, the 
current curriculum proves to be beneficial for students in rural 
America who need to perform maintenance on crop-duster type aircraft; 
however, the same curriculum proves to be obsolete for students in 
metropolitan areas that need to maintain more modern and advanced 
aircraft. Furthermore, it will assist schools to better align their 
coursework with the needs of the industry as it pertains to their 
geographical location, i.e., general aviation, commercial, cargo, 
manufacturing or MRO jobs, etc.
    As the nation's largest CFR Part 147, we are committed to finding a 
solution. We believe that we can successfully modify the current 
curriculum, in collaboration with: the local FSDO, industry partners, 
and aviation maintenance technician schools. This collaboration will 
provide students with a structured system of work-based learning 
projects that are designed to address current industry needs.
    Lastly, as an example of the type industry-relatable projects 
students can work on, we have brought an actual student project that 
speaks directly to the ``aviation work-based learning projects'' 
previously mentioned. This project was designed and created in 
collaboration with our local FSDO, Delta Air Lines and JetBlue Airways. 
We can make this project available for subcommittee members to review 
if time permits today.
    Thank you very much for this opportunity to testify today on behalf 
of Aviation High School and we look forward to your questions.

    Mr. Larsen. All right, thank you very much. And I will turn 
to Dr. Sharon DeVivo, president of Vaughn College.
    Ms. DeVivo. Good morning.
    Mr. Larsen. Five minutes. Good morning.
    Ms. DeVivo. Chairman Larsen, Ranking Member Graves, ladies 
and gentlemen of the Subcommittee on Aviation, thank you so 
much for allowing me to speak to this esteemed group, and I am 
honored to be part of this panel of engaged leaders who are 
working to provide incredible opportunities to tomorrow's 
aviation leaders.
    Vaughn College is also located in New York City, directly 
across the street from LaGuardia Airport. Founded in 1932, we 
offer master's, bachelor's, associate's, and certificate 
programs in all aspects of aviation, including flight, aviation 
maintenance, air traffic control, flight dispatch, as well as 
engineering, airport-airline management, and other 
technologies. We serve a population of about 1,650 students: 
650 of those are in aviation maintenance, 300 in flight and 
airport-airline management, and about 300 in engineering.
    Eighty percent of our students are from a minority 
background. We really reflect the diversity that is Queens. And 
most are first-generation Americans and first-generation 
college students. We are also designated as a Hispanic-serving 
institution. Twelve percent are women, and we are working to 
raise our female representation. We also have more than 150 
veterans.
    As has already been discussed, we face an unprecedented 
need for pilots and maintenance technicians for the next 20 
years, according to the Boeing and Airbus forecasts. Right now 
the United States will not produce enough qualified talent to 
meet the demand, which is why we must expand the existing 
pipeline to include opportunities for underserved populations, 
especially minorities and women who have not been exposed to 
these fields.
    Prospective students want to know that aviation is a high-
tech, in-demand field with well-paying jobs and a solid career 
outlook. The average family income for a Vaughn student is 
about $39,000. And within 1 year of graduation, 99 percent of 
those are employed or continuing their education, 83 percent in 
their fields. For those graduates who pursue an aviation 
maintenance degree or certification, those skills are also 
transferable to a variety of fields, including transportation, 
public utilities, and manufacturing.
    In 2017, a study done by the Equality of Opportunity 
Project, published in the New York Times, looked at more than 
2,100 institutions in the Nation that were the best at moving 
students from the bottom percentage in income to the top, and 
Vaughn was number one in the country. That is the evidence of 
the transformation possible with a Vaughn education. And we 
don't just change that student's life. We change that whole 
family's trajectory.
    As a result of this overwhelming evidence, we made a 
strategic decision to offer our full-time bachelor of science 
and associate in aviation maintenance students the Vaughn 
guarantee: If they remain enrolled full-time during their 
studies, meet regularly with our career services office, and 
are not employed within 1 year, we will pay their Federal loans 
for 1 year. Our students and families are primarily concerned 
with affordability and the assurance of a career path. And this 
guarantee is a declaration that Vaughan considers this a true 
partnership for student success.
    Queens is incredibly fortunate to have an aviation 
ecosystem that could act as a model for other major 
metropolitan areas. That ecosystem includes education partners 
like Aviation High School, who we support with Bridge to 
College programs, partnering on Women in Aviation events, 
scholarships, and more. Between these two institutions, we are 
one of the largest producers of technicians to the industry.
    Our other outstanding partners include the FAA, who we work 
closely with to produce high-quality professional maintenance 
technicians. We also work with the Port Authority of New York 
and New Jersey, Delta, Endeavor, Republic, JetBlue, United, and 
the Cradle of Aviation Museum, among others, to provide a clear 
career pathway.
    In order to expand the pipeline, we must create greater 
awareness at the middle and elementary school levels. Waiting 
until high school is simply too late. And we need to emphasize 
math and science confidence and sticking with these subjects, 
especially for girls who, after eighth grade, are less likely 
to take technical courses.
    At Vaughn we regularly host the scouting community with 
interactive workshops, are developing a program with a local 
middle school that will also include a partnership with a high 
school. Our students do demonstrations--just last week, the 
Tiny Whoop Fest, using UAVs at the Cradle of Aviation--and we 
host awareness events in cooperation with JetBlue in the New 
York Hall of Science, as well as send Vaughn students to 
participate in a variety of secondary school events.
    These programs help to create the early awareness that is 
needed to draw individuals who are traditionally not well 
represented in the industry. More could be done with support 
for programs, such as grants for simulation equipment, 
curriculum development, and funding for the education and 
coordination at the FAA's regional offices, which Ms. Lang 
discussed as--they are in the rebuilding process.
    Once we create awareness and students decide that aviation 
is a field they want to pursue, we have to find a way to make 
it affordable. The average debt load for a student pursuing 
aviation maintenance is about $17,500, and for a pilot student 
they are adding $60,000 to $70,000 on top of the cost of 
tuition. Many of our families do not qualify for a PLUS loan 
because of their credit scores or lack of credit, and they have 
to turn to the alternative loan market, where the interest 
rates are much higher.
    Congress could consider increasing the maximum Pell award 
from $6,195 annually, and modify the standard academic progress 
rules, which do not allow students to take more than four 
consecutive semesters.
    By lowering the overall debt load for the neediest 
students, you provide a lifetime career path with incredible 
opportunities.
    I will stop there.
    [Ms. DeVivo's prepared statement follows:]
                                 <F-dash>
 Prepared Statement of Sharon B. DeVivo, President, Vaughn College of 
                       Aeronautics and Technology
    Ladies and Gentlemen of the Subcommittee on Aviation, thank you so 
much for allowing me to speak to this esteemed group. I am honored to 
be part of this panel of engaged leaders who are working to provide 
incredible opportunities to tomorrow's aviation leaders.
    Vaughn College is in New York City directly across the street from 
LaGuardia Airport. Founded in 1932, we offer master's, bachelor, 
associate's and certificate programs in all aspects of aviation 
including flight, aviation maintenance, air traffic control (FAA 
approved AT-CTI), flight dispatch, as well as engineering, airport/
airline management and other technologies. We serve a population of 
about 1,650 students (650 students in aviation maintenance, 300 
students in flight and airport/airline management and about 300 in 
engineering and engineering technology); 80 percent are from a minority 
background and most are first-generation Americans and first-generation 
college students. Twelve percent are women (nationwide seven percent of 
pilots are women and less than four percent are maintenance 
technicians) and we are working to raise our female representation. We 
also have more than 150 Veterans.
    As I'm sure you know, we face an unprecedented need for pilots and 
maintenance technicians for the next 20 years, according to Boeing and 
Airbus forecasts. Right now, the United States will not produce enough 
qualified talent to meet the demand, which is why we must expand the 
existing pipeline to include opportunities for underserved populations 
especially minorities and women who have not been exposed to these 
fields. Prospective students want to know that aviation is a high-tech, 
in-demand field with well-paying jobs and a solid career outlook.
    The average family income for a Vaughn student is about $39,000 and 
within one year of graduation 99 percent of those students are employed 
or continuing their education; 83 percent in their field. For those 
graduates who pursue an aviation maintenance degree or certification 
those skills are also transferable to a variety of fields including 
transportation, public utilities and manufacturing.
    In 2017, a study done by the Equality of Opportunity Project 
published in the New York Times looked at more than 2,100 institutions 
that were the best at moving students from the bottom 40 percent in 
income to the top, and Vaughn was number one in the country. That is 
the evidence of the transformation possible with a Vaughn education, 
and we don't just change that student's life we change the whole 
family's trajectory. As a result of this overwhelming evidence, we made 
a strategic decision to offer our full-time bachelor of science and 
associate in aviation maintenance students the Vaughn Guarantee--if 
they remain enrolled full-time during their studies and meet regularly 
with our career services office and are not employed within one year we 
will pay their federal loans for one year. Our students and families 
are primarily concerned with affordability and the assurance of a 
career path, and this Guarantee is a declaration that Vaughn considers 
this a true partnership for student success.
    Queens is incredibly fortunate to have an aviation ecosystem that 
could act as a model for other major metropolitan areas. That ecosystem 
includes education partners like Aviation High School who we support 
with ``Bridge to College'' programs, partnering on Women in Aviation 
Events, scholarships and more. Between these two institutions, we are 
one of the largest producers of technicians to the industry. Our other 
outstanding partners include the Federal Aviation Administration who we 
work closely with to produce high quality, professional maintenance 
technicians. In addition, we work with The Port Authority of New York 
and New Jersey, Delta, Endeavor, Republic, JetBlue, United and the 
Cradle of Aviation Museum, among others, to provide a clear career 
pathway.
    In order to expand the pipeline, we must create greater awareness 
at the middle and elementary school levels--waiting until high school 
is too late--with an emphasis on math and science confidence and 
sticking with these subjects, especially for girls who after eighth 
grade are less likely to take technical courses. At Vaughn, we 
regularly host the Scouting community with interactive workshops, are 
developing a program with a local middle school that will also include 
a partnership with a high school, our students offer demonstrations at 
museums like the Cradle of Aviation, and we host awareness events in 
cooperation with JetBlue and the New York Hall of Science, as well as 
send Vaughn students to participate in a variety of secondary school 
events. These programs help to create the early awareness that is 
needed to draw individuals who are traditionally not well represented 
in the industry. More could be done with support for programs such as 
grant for simulation equipment, curriculum development and funding for 
the education coordination at the Federal Aviation Administration's 
regional offices.
    Once we create awareness and students decide that aviation is a 
field that they want to pursue, we must find a way to make it this 
pathway more affordable. The average debt load for a student pursuing 
aviation maintenance is about $17,500 (tuition is about $9,000 per 
semester and can be completed as quickly as four semesters but most 
students take five or six semesters) while the cost of flight training 
is an additional $60,000 to $70,000 on top of tuition. Many of our 
families do not qualify for a PLUS loan (the traditional loan offered 
to parents of students) because of their credit scores or lack of 
credit and must turn to the alternative loan market where the interest 
rates are much higher. Congress could consider increasing the maximum 
Pell award from $6,195 annually and modify the rules which do not allow 
students to take more than four consecutive semesters of aid in a row 
before needing to take a one semester break. By lowering the overall 
debt load for the neediest students, you provide a lifetime career path 
with incredible opportunities.
    Vaughn's more then 85 years of expertise in aviation provides us 
with a unique vantage point and a legacy of students who fuel one of 
this nation's leading economic drivers. To meet the need for a 
qualified and well-trained workforce we must create awareness in 
communities that can be the greatest contributors to the aviation 
industry.

    Mr. Larsen. Thank you very much, and I will turn to--sorry, 
I need my glasses, which I lost--Mr. McDermott, from Delta, for 
5 minutes.
    You are recognized.
    Mr. McDermott. Thank you, Chairman Larsen and Ranking 
Member Graves, for the opportunity to testify before you today.
    I am Joe McDermott, the managing director in the technical 
operations division of Delta Air Lines, or TechOps. I am 
responsible primarily for the strategy surrounding recruitment, 
training, and cabin maintenance. I have spent my entire 
civilian career at Delta TechOps, having joined the company in 
1991 after leaving the Air Force.
    As the largest aviation maintenance, repair, and overhaul 
group in North America, we employ more than 10,000 highly 
skilled technicians, engineers, and other support employees. 
Together we provide maintenance to more than 875 Delta 
aircraft, and more than 150 other airline, military, and 
Government customers. The dedication, skill, and hard work of 
our employees drive Delta's industry-leading operational 
reliability. Delta TechOps employees truly are the best in the 
business.
    My nearly 30-year tenure at Delta is not unique to me. Our 
people are proud and passionate about what they do and the 
company they work for. This is the result of a strong Delta 
culture grounded in the belief that our employees are at the 
core of our success. Delta's maintenance workforce receives 
industry-leading total compensation and benefits.
    Within 7\1/2\ years at Delta, a mechanic can make an 
average base salary of more than $100,000 a year. And this 
compensation does not include Delta's robust profit-sharing 
program. This Friday our profit-sharing program will pay out 
$1.6 billion to our employees, about 2 months of an additional 
salary per employee. And for each of the past 6 years we have 
returned more than $1 billion in profit-sharing to our 
deserving workforce.
    Our culture, commitment to employees, and, of course, 
compensation all contribute to a workforce with long, tenured 
careers. And while that loyalty results in a highly skilled and 
experienced team, it also deepens the workforce challenge faced 
by the entire industry. More than 50 percent of our skilled 
workforce will be eligible to retire this year.
    To address this challenge, Delta TechOps launched a 
comprehensive pipeline strategy, a multipronged recruitment and 
professional development effort. The strategy is an end-to-end 
approach focused on leveraging our key partnerships for 
recruiting, building technical proficiency, and creating 
internal advancement opportunities. Perhaps the most robust 
element of the strategy is our AMT school partnership program.
    Delta partners with 50 schools across the country, 
including schools represented by other witnesses here today. 
Through these partnerships, Delta provides support for the 
school's curriculum, including training opportunities for 
instructors, and gives students access to internal Delta 
training and job-shadowing opportunity.
    Delta also donates serviceable parts, engines, and 
airframes to schools for real-world maintenance experience.
    Delta TechOps also works closely with our regional airline 
partners, a natural connection, given our interlocking 
workforce needs. Rather than competing for talent, we 
collaborate to improve AMT schools, enhance recruiting 
opportunities, and establish progressive employment flow 
between the organizations.
    We are extremely proud of our veteran workforce at Delta. 
Veterans comprise 20 percent of the TechOps population, and the 
military is a key part of our recruitment strategy. The 
Military Potential Employee program provides job training and 
hands-on experience, as well as mentorships for servicemembers 
within the final 180 days of their enlistment.
    And we are pleased to share, after months of hard work and 
rigorous application process, Delta has been accepted as the 
only commercial carrier in the Department of Defense 
SkillBridge program. As part of this unique effort, 
servicemembers continue to be paid by the military, while Delta 
provides housing and on-the-job training. Both the MPE and the 
SkillBridge are a win-win. Servicemembers have an easier 
transition to the civilian sector with rewarding, high-paying 
careers, while Delta recruits hard-to-find skill sets directly 
from the military.
    To meet our future workforce needs, however, we need a 
steady supply of newly certified mechanics. Unfortunately, the 
perceived stigma associated with technical education deters 
young people from pursuing skill-based training. Building 
interests and careers in aviation maintenance at an earlier age 
is key to developing a large pool of skilled applicants in the 
future. The TechOps Outreach program seeks to address this by 
offering high school students the ability to interact with AMT 
role models, as well as an opportunity for hands-on practice 
with tools and aircraft parts.
    The workforce challenges ahead, however, can't be solved by 
the airlines alone. We are proud to advocate for changes at the 
Federal and State level to expand access to skills and training 
needed to meet tomorrow's demand. The FAA must implement 
provisions from the 2018 reauthorization bill to modernize AMT 
training regulations. The current regulations were put into 
place decades ago, and are woefully out of date. Thank you 
again for holding this important hearing, and I look forward to 
your questions.
    [Mr. McDermott's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Joseph McDermott, Managing Director, Technical 
                      Operations, Delta Air Lines
    Thank you, Chairman Larsen and Ranking Member Graves, for the 
opportunity to testify before you today. I am Joe McDermott, a Managing 
Director in the Technical Operations division of Delta Air Lines, or 
TechOps. I am responsible primarily for the strategy surrounding 
recruitment, training and cabin maintenance.
    I've spent my entire civilian career at Delta, having joined the 
company in 1991 after leaving the Air Force. All that time has been 
spent in TechOps: from a licensed aviation maintenance technician (AMT) 
working directly on flight controls and landing gear to overseeing 
Atlanta's line maintenance with responsibility for 1,000 personnel. 
Throughout my career I've had the opportunity to learn and grow at a 
company that truly invests in its employees.
    As the largest aviation maintenance repair and overhaul (MRO) group 
in North America, Delta TechOps employs more than 10,000 highly skilled 
technicians, engineers, and other support employees. Together, we 
provide full-service maintenance to more than 875 Delta aircraft, and 
more than 150 other airline, military and government customers.
    Though Delta has a more complex fleet than other commercial 
carriers, our maintenance teams do an incredible job getting our 
customers safely to their destination, on-time and with a great onboard 
experience. The dedication, skill and hard work of our employees drive 
Delta's industry-leading operational reliability. Delta TechOps 
employees truly are the best in the business.
    My nearly 30-year tenure at Delta is not unique to me--our people 
are proud and passionate about what they do and the company they work 
for. This loyalty is the result of a strong Delta culture grounded in 
the belief that our employees are at the core of our success. Delta 
invests billions annually in our people and the technology they need to 
achieve the highest levels of safety and operational excellence.
    Delta's maintenance workforce receives industry-leading total 
compensation and benefits. Top-of-scale mechanics make an average base 
salary of more than $100,000. And they can achieve this pay after 7.5 
years of service--approximately 75% of mechanics currently earn top-of-
scale pay, a reflection of the seniority of our workforce.
    This compensation does not include Delta's robust profit-sharing 
program. In fact, this Friday, our profit-sharing program will pay out 
$1.6 billion to our employees, which equates to 2 months additional 
salary per employee. For each of the past six years, we have returned 
more than $1 billion in profit sharing to our deserving workforce.
    Our culture, commitment to employees, and of course, our 
compensation are all factors in the loyalty that our workforce 
demonstrates through long-tenured careers. Once we start at Delta, we 
stay at Delta. And while that loyalty results in a highly skilled and 
experienced team, it also deepens the broader workforce challenge faced 
by the entire industry--a large portion of our TechOps workforce is 
nearing retirement. More than 50% of our skilled and trade TechOps 
workforce will be eligible to retire this year. This challenge is 
reflected in similar statistics across the industry; the 2019 Boeing 
Pilot and Technician Outlook projects demand for 632,000 commercial 
aviation maintenance technicians worldwide over the next 20 years \1\.
---------------------------------------------------------------------------
    \1\ https://www.boeing.com/resources/boeingdotcom/commercial/
market/pilot-technician-services/assets/downloads/
2019_pto_infographic.pdf
---------------------------------------------------------------------------
    To address this challenge, Delta has developed and deployed a 
multi-pronged recruitment and professional development effort. From 
middle-schoolers to seasoned professionals, Delta is working to build 
interest in aviation and train the best and brightest for these highly-
skilled careers. For TechOps, Delta launched our comprehensive Pipeline 
Strategy. The strategy is an end-to-end approach focused on leveraging 
key partnerships for recruiting, building technical proficiency inside 
and outside the organization, and creating internal development and 
advancement opportunities.
    I'd like to briefly touch on a few of the programs that comprise 
our Pipeline Strategy, beginning with how we leverage key partnerships. 
By working across the academic community, regional partners and the 
military, Delta can recruit and train individuals for highly-skilled 
positions that do not require a 4-year college degree.
          AMT School Partnerships/Potential Full Time Employee
    Perhaps the most robust element of the Strategy is Delta's AMT 
School Partnership program. Delta partners with 50 schools across the 
U.S., including Everett Community College in Washington State, Aviation 
High School on Long Island, and Minneapolis College in Minnesota, among 
others. Delta partners with these schools and technical training 
programs to identify and mentor the next generation of AMTs. Delta 
provides support for the school's curriculum, including participating 
on advisory boards and offering training opportunities for instructors, 
access for students to internal Delta training, and visits by Delta 
representatives for job shadowing and career guidance.
    Delta also donates serviceable parts, engines, and airframes to 
schools for real-world, hands-on maintenance experience.
    Our school partnership program ensures the student curriculum is 
aligned with the on-the-job skills mechanics use most, while Delta 
branding provides a recruitment tool for the school. Providing a clear 
career path, however, is critical for recruiting well-trained AMTs. 
Through Delta's Potential Full Time Employee program (PFE), the best 
students from these partner schools receive additional vocational 
training and contingent employment at Delta. The PFE program offers a 
chance for the new graduate to refine their skills and determine 
whether Delta is a good employment fit. At the same time, it provides 
us the opportunity to observe a potential candidate's performance, 
qualifications, and work habits before offering them a permanent 
position.
    To supplement these efforts, in 2018, Delta Air Lines Foundation 
disbursed grants totaling $350,000 to nine aviation maintenance 
training programs across the U.S. The grants allow the programs to 
enhance their curriculum development, projects and material support, 
increasing students' awareness, knowledge, and skills in the areas of 
Avionics/Electrical and Composite/Structures.
                     Regional Airline Partnerships
    Delta TechOps also works closely with our regional airline partners 
on workforce issues, a natural connection given our interlocking 
workforce needs. Delta's regional partners are critical to our broader 
network structure, so any issues they have will ultimately affect our 
mainline operations. Rather than competing for talent, we collaborate 
to improve AMT schools, enhance recruiting opportunities, provide 
mentoring opportunities, and establish a progressive employment flow 
between the organizations. Partnering in this manner exponentially 
increases the efficiency and effectiveness of hiring strategies for 
Delta and our regional partners, bolstering the broader pipeline of 
experienced skilled employees to meet our combined workforce demands.
                   Military Potential Employee (MPE)
    The military is a key part of our recruitment strategy, and we are 
extremely proud of our veteran workforce at Delta. Across the company, 
we employ approximately 12,000 veterans; veterans comprise 20% of the 
TechOps population. Our Military Potential Employee (MPE) program 
provides structured vocational training--job training and hands-on 
experience--and mentorships for Service Members within the final 180 
days of their enlistment.
    We are pleased to share with you today that after months of hard 
work and a rigorous application process, Delta has been accepted into 
the Department of Defense (DoD) SkillBridge program. This unique 
effort, along with the Army's Career Skills Program, builds on our MPE 
program. Service members continue to be paid by the military while 
Delta provides housing and on-the-job training. Both the MPE and 
Skillbridge are a ``win-win'': facilitating the transition to the 
civilian sector with rewarding, well-paid jobs, while helping Delta to 
recruit hard-to-find skillsets directly from the military. Delta is 
proud to be the only commercial air carrier in the program and to be 
listed on the Skillbridge website, an important tool for service 
members to learn about job training opportunities.
                Other Elements of the Pipeline Strategy
    All three of these programs focus on expanding the recruitment 
pipeline. However, to ensure we truly can meet future workforce needs, 
we must also provide advancement and development tools to our current 
employees.
    The Externship Experience is an entry-level mentorship program for 
active employees who have an airframe and powerplant (A&P) license or 
are enrolled in an approved Delta Partner school. This program gives 
participants hands-on practice and aircraft touch-time in the 
operation, providing experience that connects to their curriculum and 
prepares them for the tasks of the Aircraft Support Mechanic (ASM) 
role. Similarly, the Apprentice Program provides a year-long mentorship 
opportunity, including quarterly coaching and skills training, for 
current ASM employees with an A&P license.
    Delta's progressive leadership development programs offer 
structured development opportunities and coaching for high potential 
employees to develop leadership skills and business acumen. These 
include on-the-job training, self-paced learning, job shadowing, and 
leadership mentoring to prepare for future leadership roles. For 
example, Delta TechOps College Achieve Pathway (CAP) Program seeks to 
enhance lifelong learning among Delta TechOps employees worldwide 
through alliances with universities. The program identifies affordable 
online degree programs that are relevant to career enhancement at 
Delta.
                      Engaging the Next Generation
    As the current workforce ages and retirements increase, the ability 
to meet future workforce needs requires a steady supply of newly 
certified mechanics. Unfortunately, estimates show that technical 
schools are operating at only half of their capacity. Approximately 
17,000 more students could be accommodated without any school expansion 
\2\. Often, stigma associated with technical colleges deters young 
people from pursuing skills-based training. Building interest in 
careers in aviation maintenance at an earlier age now is pivotal to 
developing a large pool of skilled applicants in the future.
---------------------------------------------------------------------------
    \2\ https://www.atec-amt.org/pipeline-report.html
---------------------------------------------------------------------------
    The TechOps Outreach program seeks to educate our potential 
workforce on the benefits of a career in TechOps while they are making 
critical life choices as high school students. It offers these students 
the ability to interact with and be encouraged by AMT role models, who 
can give them a realistic day-in-the life overview as well as hands-on 
practice with tools, aircraft parts and some of the problem solving 
that is part of the job. The Outreach program also provides a venue to 
reach the influencers of the next generation, such as parents, 
teachers, and school counselors to help shape their perception of 
aviation maintenance as a rewarding, stable career.
    This effort promotes aviation maintenance as a quality career 
choice--and highlights Delta as a desirable employer. More importantly, 
however, it changes the narrative of a technical career from an 
alternative to college to that of a pathway into occupations supported 
by postsecondary degrees, certifications and credentials. A recent 
internal survey shows that over 50% of TechOps employees have earned an 
Associate'sdegree or above, and an additional 20% hold a certificate of 
some kind.
                      What Can Congress Do to Help
    Delta is proud of our efforts to recruit, train, and retain 
employees. And this extends beyond TechOps: Delta has implemented 
similar programs in other workgroups, such as the Propel Program for 
pilots. In 2018, Delta launched this effort to meet our needs for 
trained pilots; we expect to hire 8,000 pilots over the next decade as 
our current pilot workforce reaches the mandatory retirement age. 
Through partnerships with schools and the military, Propel helps 
aspiring pilots overcome barriers such as career path uncertainty, a 
shortage of flight instructors and the cost of quality flight training.
    The workforce challenges ahead, however, can't be solved by the 
airlines alone. We are proud to advocate for changes at the federal and 
state level that will expand access to skills and training needed to 
meet tomorrow's demand. In Georgia, Delta successfully advocated to 
place Aviation Technology on the list of programs deemed as a High 
Career Demand Initiative. This allows those pursuing a career as an 
aviation mechanic to receive free tuition through the Technical College 
System of Georgia (TCSG). Additionally, Delta is collaborating with 
TCSG to modernize the Aviation Technology curriculum to ensure 
graduates are job ready upon graduation.
    And there are measures Congress should take to support the 
industry. We appreciate the establishment of a grant program for AMT 
schools in the last FAA bill (Sec. 625), along with the subsequent 
funding provided through the appropriations process.
    From Delta's perspective, however, the more critical measure in the 
FAA bill is the provision to modernize AMT training regulations (Sec. 
624)--FAA's Part 147 requirements. The current regulations were put in 
place decades ago and everyone agrees they are woefully out of date. 
They have not kept up with the changes in the industry and retain 
requirements that serve no purpose (e.g. wood and cloth aircraft 
materials). Without reform, Part 147 regulations will continue to be a 
drag on training.
    The FAA bill required a final rule modernizing AMT training 
requirement by March 2019. While FAA issued a Supplemental Notice of 
Proposed Rulemaking (SNPRM) in April 2019, it is still not clear when a 
final rule will be issued. Ensuring FAA issues this rule quickly is the 
best and most immediate measure Congress could take to address AMT 
workforce issues.
    Thank you again for holding this important hearing, and I look 
forward to your questions.

    Mr. Larsen. Thank you very much.
    I will turn to Mr. Neely, Gulfstream, to be recognized for 
5 minutes.
    Mr. Neely. Chairman Larsen, Ranking Member Graves, on 
behalf of the 17,000 women and men of Gulfstream, thank you for 
having me here.
    The issues that we are dealing with here today are 
critically important and timely. Earlier testimony has made 
that abundantly clear. It is important to aviation companies 
like Gulfstream, like Delta, and others. But, quite frankly, it 
is most important to the young people in this country whose 
skill sets are not being fully realized, who don't understand 
the opportunities that they have in front of them.
    As context for my remarks, I would like to quickly outline 
Gulfstream's two different, but very interrelated businesses. 
First, quite obviously, we build business jets. Secondly, in 
what we call our customer support business, we provide 
maintenance, repair, and overhaul services for our customers' 
aircraft, nearly 3,000 in service.
    Of Gulfstream's 17,000 employees, it is important to note 
that roughly 4,000 of those employees are in our customer 
support, or MRO, business, a key part of our business. We have 
10 facilities across the country in 9 different States.
    Finally, from a balance of trade standpoint, I would like 
to very much emphasize that roughly 50 percent of Gulfstream 
sales are international. The way I like to think about that is 
50 percent of the salaries of everybody working on airplanes at 
Gulfstream is paid by somebody outside the United States. We 
are very proud of that.
    A central theme to Gulfstream's workforce development 
strategy is proactive engagement from K through 12, and 
forward, but particularly from the middle school and onwards.
    It is absolutely important to understand that the point 
underpinning our strategy is that our younger generations need 
help understanding what great opportunities are available in 
the aviation industry. We have not done our kids a good service 
in the way we have, quite frankly, deemphasized the role and 
importance and career opportunities in the technical skills, 
and particularly in aviation. So our strategy, as you will 
hear, focuses very much on engaging students early on, 
educating them into the opportunities, helping them build the 
skill sets that enable them to enter these career paths, and, 
quite frankly, making sure that it is not just the students, 
but it is the teachers and the parents, as well. Because if we 
don't reach the teachers and parents, they will not encourage 
the kids to head in the right direction.
    Our strategy is best illustrated by running through a few 
examples, examples that I think you will find instructive, and 
that have been successful. We have a lot of work to do, don't 
get me wrong, but they have been successful.
    First to the middle school. I mentioned that although we 
engage with students earlier, we really do a full-court press, 
so to speak, starting with middle school students. That 
includes multiple STEM programs, aviation-specific awareness 
programs, and, among other things, annually we tour over 1,000 
middle school students through Gulfstream facilities to let 
them see, up close and personal, exactly what our facilities 
look like.
    We have youth apprenticeship programs that are high school 
apprenticeship programs in California, Georgia, Texas, 
Wisconsin; working in over 40 different job functions, from 
aircraft assembly, cabinet shop, quality control, aircraft 
maintenance operations, and the like. They are paid between $10 
and $13 an hour, depending on location. They work 15 to 25 
hours per week.
    Another example that highlights the point made earlier of 
the importance of industry working with school systems and 
others, and it is an aviation pathway program that Gulfstream 
has sponsored in Savannah. It is a program sponsored at a 
primarily predominantly minority school. We have done it in 
partnership with the local school system and Savannah Technical 
College--obviously, the local technical college. This 4-year 
program, again, is an aviation pathway.
    So students, they will enter this as--you know, it is 
somewhat analogous to a major, if you were in a college. You 
enter this program, and here is how it works. The first 2 
years, eighth and ninth grade, you are doing your work in the 
classroom, in the labs as a high school student in your own 
high school, taking high school classes. In 11th and 12th 
grades, you remain on campus. You are still working in the same 
labs. But your teachers, your professors, are from the 
technical college. So during those years you are getting both 
high school credits and technical college credits.
    Students come out of this program with, obviously, a high 
school diploma, but also one or more technical certificates, 
depending on which sub-pathway they chose that gave them the 
skill sets they need to walk right out of the high school into 
my friend, Mr. McDermott's shop, or Gulfstream's shop, or any 
others in the industry.
    On the technical college front, we have partnerships, 
relationships with 21 different technical colleges across the 
U.S. Those partnerships include, quite obviously, AMT, 
structural mechanic, upholstery, aviation cabinetmaking, 
nondestructive testing, so on and so forth. How do we support 
those technical schools? On a number of fronts.
    Like our friends at Delta, we are on advisory boards. We 
support with funding, cash money funding. We support with 
equipment, including giving a Gulfstream airplane to one of the 
technical schools for them to work. Granted, it was one that 
was at the end of its useful life. But we partner with those 
schools to ensure that their curricula are aligned with what 
our modern needs are, and--back to that modern needs.
    Two last points. One, what we call a consortium event that 
we held last year. That consortium event, we brought 20 
representatives from technical schools across the country to 
Gulfstream to spend 2 days in a workshop, working with us, 
seeing what--boots on the ground, seeing what our experience is 
really like for their students, and getting feedback.
    Last, but not least, on the military front, we also hire 
pretty heavily out of the military--very, very strong skill 
sets coming out of the military--25 percent of Gulfstream's 
employees are veterans. In our flight operations group, 90 
percent of our test pilots are veterans, and 75 percent of our 
other pilots in our flight operations are veterans.
    I look forward to your questions.
    [Mr. Neely's prepared statement follows:]

                                 <F-dash>
Prepared Statement of John J. Neely III, Vice President, Law and Public 
       Affairs, Gulfstream Aerospace, a General Dynamics Company
    Chairman Larsen, Ranking Member Graves and distinguished members of 
the Aviation Subcommittee, thank you for the opportunity to appear 
before you today.
    I am honored to be here representing the 17,000 women and men of 
Gulfstream Aerospace. The issues being addressed here are critically 
important, and timely. They are important to aviation companies like 
Gulfstream, and even more important to the individuals in this country 
who are missing great opportunities because their talent is left 
untapped.
    The most valuable asset of any company is its employees, and that 
is particularly true at Gulfstream. With that in mind, we have evolved 
a workforce development strategy for the maintenance, manufacturing and 
other technical skills required in our business. Although this effort 
is very much a work in progress, Gulfstream is honored to share our 
experience with this Subcommittee.
                   1. Gulfstream Operations Overview.
    As context for my remarks, it is important to understand 
Gulfstream's operations. We have two distinct but very interrelated 
lines of business. First, we design, manufacture and sell business 
aircraft. The second distinct area is our Gulfstream aircraft 
maintenance, repair and overhaul (``MRO'') business, which we refer to 
as Customer Support.
    Our current production models include the G280, G500, G550, G600, 
G650 and G650ER, all of which are in service with customers, plus the 
recently announced G700 that is moving toward Federal Aviation 
Administration (``FAA'') Certification.
    Our business is very international from both competition and sales 
standpoints. All of our key competitors are located outside of the 
United States: Bombardier in Canada, Dassault in France and Embraer in 
Brazil. Approximately fifty percent (50%) of our new aircraft sales are 
in the United States and approximately fifty percent (50%) are 
international. From a balance of trade perspective, it is instructive 
to note that the percentage of our international sales has grown over 
the last twenty (20) years from roughly twenty percent (20%) to 
approximately fifty percent (50%).
    Gulfstream's corporate headquarters, largest manufacturing site and 
largest maintenance facilities are in Savannah, Georgia, where 
approximately eleven thousand (11,000) of our seventeen thousand 
(17,000) person workforce is based. Our operations also include the 
following facilities:
    <bullet>  Locations with both Manufacturing and Maintenance 
Operations
     <bullet>  Long Beach, California
     <bullet>  Dallas, Texas
     <bullet>  Appleton, Wisconsin
    <bullet>  Locations with Maintenance Operations
     <bullet>  Van Nuys, California
     <bullet>  Cahokia, Illinois
     <bullet>  Palm Beach, Florida
     <bullet>  Brunswick, Georgia
     <bullet>  Westfield, Massachusetts
     <bullet>  Las Vegas, Nevada
            2. Gulfstream's Workforce Development Strategy.
    Over the past several years, Gulfstream has become increasingly 
proactive in nurturing and recruiting new talent for our technical 
jobs. We have done so by focusing on four areas:
    <bullet>  Elementary, Middle and High School Student Engagement
    <bullet>  Technical School Engagement and Recruiting
    <bullet>  Military Engagement and Recruiting
    <bullet>  University Engagement and Recruiting

    This work also is supplemented by our post-hire internal training 
programs, which include initial and advanced training using our own 
employees and FlightSafety International.
    A foundational point underpinning this strategy is that our younger 
generations need help understanding what great opportunities are 
available in technical fields and how to take advantage of those 
opportunities. This awareness work must include students and, likely 
more importantly, their parents and teachers. So, our approach is to 
start with young students to build awareness, build desire and, through 
mentoring and other resources, guide them down the path toward those 
goals.
    We continue this same basic approach for Technical Colleges, 
Military and Universities, but with a more direct connection between 
the individual and a specific job at Gulfstream for which that person 
is suited.
              3. External Workforce Development Resources.
    Although we indeed do have a technical skills gap in this country, 
there is a good news side to this story. As evidenced by this hearing 
itself, there is a growing understanding of the problem and a 
corresponding application of resources to address it. Gulfstream's 
experience, in every state in which we do business, is that local, 
state and federal organizations are investing in new ideas and 
approaches for changing the paradigm.
    Gulfstream's workforce development strategy relies very heavily on 
these external resources. Indeed, you will hear several examples as I 
review Gulfstream's specific activities.
                4. Elementary, Middle and High Schools.
    Gulfstream engages younger students because, in our view, building 
awareness and excitement early on helps guide students in their 
academic decisions and other life choices during those formative years. 
For example, a ninth grader who is excited about a career as an 
aviation mechanic will have a very different perspective on his or her 
math and science courses than a classmate with no particular career in 
mind.
    Our younger student engagement falls into two categories: targeted 
individual student engagement and awareness activities. These two sets 
of activities work well together by raising awareness across a large 
population while, through the targeted engagements, providing in-depth 
substance that validates the message with real-world successes.
a. Targeted Student Engagement.
            Youth Apprentice Program (``YAP'').
    Gulfstream's YAP, which we operate in partnership with local High 
Schools, allows students to receive High School credits while earning 
money working part time at Gulfstream. This provides real world 
experience to students and hands-on mentoring by their direct 
supervisors and co-workers, which they use to identify and further 
their personal career paths.
    Our 2019-20 YAP has approximately seventy-five (75) High School 
Juniors and Seniors in Georgia, California, Wisconsin, and Texas. They 
are working in approximately forty (40) different job functions, 
including aircraft assembly, cabinet shop, quality control, accounting, 
aircraft maintenance operations, engineering and our integrated test 
facility. Just like a potential full-time employee, students fill out 
applications, apply for specific jobs, and are interviewed in person by 
their hiring manager. Once hired as apprentices, they work fifteen (15) 
to twenty-five (25) hours per week, are paid ten dollars ($10) per hour 
($13 in CA) and earn High School Credits for their work.
    An important aspect of this program is its ability to correlate 
students' academic study with future job prospects. An apprentice can 
see first-hand that math and writing skills, for example, are necessary 
for their future success and not simply abstract concepts.
            Technical/Vocational High Schools.
    The increase in High Schools with specific technical and aviation 
curricula is an effective tool in this area as well. By incorporating 
courses directed at aviation and technical careers, these schools bring 
technical career opportunities quite literally directly into the 
classroom.
    Gulfstream supports a number of these schools with funding, 
equipment and mentors, and we encourage others to do so, too. Technical 
High schools with which we are involved include Woodville-Tompkins 
Technical and Career High School (Pilot and Aviation Manufacturing--
Georgia), Groves High School (Aviation Manufacturing and Maintenance--
Georgia), Westfield Vocational School (Aviation--Massachusetts), West 
Michigan Aviation Academy (Aviation--Michigan) and Effingham County 
College and Career Academy (Engineering--Georgia).
            Example: Westfield, Massachusetts.
    Westfield Technical Academy recently opened a new state-of-the-art 
training hangar across the airport from the Gulfstream's facility at 
the Westfield-Barnes Airport. The school began an airframe and 
powerplant (A&P) program five (5) years ago, and it now graduates 
approximately 15 students annually who are ready to sit for the FAA A&P 
Exam. Gulfstream has been a major contributor to the school, which 
paves the way for the state to provide matching funds. Additionally, 
Gulfstream employees volunteer at the school speaking to students in 
the program.
            Dual High School and Technical College Enrollment.
    An example of another program with similar impact is Georgia's Dual 
Enrollment Program. This allows High School students with an interest 
in technical jobs to take courses at one of the State's Technical 
Colleges and simultaneously earn credits toward both High School 
graduation and a Technical College Degree.
    Programs like this get High School students actively engaged in 
making career choices while also expediting their entry into the 
workforce and financial independence. We encourage support for programs 
such as this and are interested in exploring a combination of this type 
of program with apprenticeships.
            Example: Savannah, Georgia
    Gulfstream is sponsoring a dual enrollment Aviation Pathway program 
through the Groves High School in Savannah, Georgia. This program, 
which begins in ninth (9th) grade and runs through twelfth (12th) 
grade, is specifically tailored to build math, science and aviation-
specific skills necessary for careers in aviation manufacturing and 
maintenance. Students must apply for and be admitted into this program, 
and within the program can select from several pathway options 
depending on their preferences.
    During the first two years of this program, the students' classes 
are within the High School's system. For the last two years, the 
students remain on the High School campus but are taught by faculty 
from the Savannah Technical College and, through dual enrollment, 
receive both High School and College credits. Students graduate with 
one or more Technical Certificates issued by Savannah Technical College 
and are well positioned to move directly to jobs with Gulfstream or 
another aviation company.
            Student Leadership Program (``SLP'').
    Gulfstream also sponsors a Student Leadership Program (``SLP''), 
which operates in coordination with High Schools in Georgia, Texas and 
Wisconsin. SLP's curriculum includes building life skills (aka soft 
skills), guiding students through an exploration of career 
opportunities in their local area, including aviation, and helping them 
build and implement plans to achieve their desired career path.
            Example: Appleton, Wisconsin.
    SLP in Appleton partners with the Appleton Area School District to 
support the Fox Valley's workforce needs in showcasing high demand 
manufacturing careers, including aviation manufacturing and 
maintenance, to High School students. The program is in all three High 
Schools in the Appleton Area School District and impacts 150 sophomore 
and junior students annually. Gulfstream lead formation of a six (6) 
company partnerships that provide career exploratory tours to students 
in the program. In addition to learning about career opportunities, 
students learn important work-ready skills including resume building, 
financial literacy and interview skills.
b. Awareness Activities.
    Gulfstream, like many companies, engages in a wide range of 
activities to raise awareness among students, parents and teachers. 
Here are a few examples of our activities in this area.
            Job Shadow Programs
    Our Westfield, Massachusetts, and Dallas, Texas, facilities both 
have successful job shadow programs. In Westfield, we partner with the 
Westfield Vocational Technical High School, which has a robust aviation 
program, to bring students into our maintenance facility and shadow our 
aircraft maintenance technicians during their workday. This effort is 
part of the FAA's ``Walk In My Boots'' initiative aimed at exposing 
students to the benefit of an aviation maintenance career.
    Similarly, in Dallas, we partner with local High Schools and host 
students for two days of aviation job experiences. Activities include 
wiring the avionics for an aircraft, working with sheet metal, making a 
sales pitch and visiting Dallas Love Field's control tower.
            GAMA/Build A Plane Aviation Design Challenge
    Gulfstream also supports the General Aviation Manufacturer's 
Association (``GAMA'') Build A Plane Design Challenge, which started in 
2013 as a way to introduce High School students to aviation careers. 
For this competition, schools receive student and teacher copies of the 
Fly to Learn curriculum and software powered by X-Plane. Over the 
course of six weeks, they learn about topics such as the four forces of 
flight, aspect ratio, and even advanced subjects such as supersonic 
flight. They then compete in a fly-off that requires them to modify a 
virtual airplane to fly a specific tasked mission in a simulator. GAMA 
takes into account the score from this flyoff, as well as a checklist 
of the steps they took to complete the flight, a summary of the design 
changes they made to the airplane, and three videos submitted 
throughout the competition on what they learned.
    Hayesville High School in North Carolina is the winner of the 2019 
GAMA Build A Plane Aviation Design Challenge. As the prize, four 
students, one teacher, and one chaperone traveled to Glasair Aviation 
in Arlington, Washington, to build a Glasair Sportsman aircraft. For 
the winning team, the hands-on experience working side-by-side with 
experts as they build a real airplane is phenomenal.
            STARBASE
    Gulfstream partners with the U.S. Department of Defense to sponsor 
week-long camps for fifth-grade students at Hunter Army Airfield in 
Savannah, Georgia. The program offers ``hands-on, mind-on'' activities 
meant to spark student interest in STEM programs. Students interact 
with military personnel by working on computers, flying aircraft 
simulators and participating in other hands-on activities.
                         5. Technical Colleges.
    In Gulfstream's business, Technical Colleges are a critical 
pipeline for developing trades and craftspeople for work in our 
manufacturing and maintenance operations. Although these schools' 
existing, standard programs provide a solid skills development base, 
our most valuable work with them has been in situations where we have 
helped develop the curricula.
    This joint development includes Gulfstream co-developing and even 
co-teaching Technical School courses. Several examples from 
Gulfstream's experience, we believe, provide insight.
            Example: A&P School.
    FAA regulations require that aircraft maintenance technicians have 
an FAA-issued Airframe and Powerplant license (an ``A&P License''). 
Given our need for qualified A&P technicians, we partnered with the A&P 
School of the Savannah Technical College to ensure that its courses 
aligned with our needs.
    The school appointed our experts to the Advisory Board. Gulfstream 
has donated funds (e.g., to purchase avionics training equipment) and 
items to the school to provide the students with real-world equipment, 
including a complete Gulfstream aircraft--a model G100 that had reached 
the end of its useful life. By being an active participant in the A&P 
School's curriculum development, and ongoing class work, we are able to 
help the faculty stay aligned with the latest industry techniques and 
get to know the students.
            Example: Advanced Cabinet Maker Course.
    As an excellent example of the in-depth approach, a number of years 
ago Gulfstream was having difficulty finding skilled cabinet makers to 
build furniture for our aircraft interiors. To address this issue, 
Gulfstream partnered with Savannah Technical College. In doing so, we 
learned that other area businesses in the boat and home construction 
industries were having similar issues.
    Gulfstream paired our cabinet shop master craftspeople with the 
school to develop a course. We also provided a master craftsperson to 
co-teach the course with the school's faculty. This provided the 
double-benefit of ensuring that instruction matched our requirements 
and it allowed our instructor to identify the top students for 
recruitment to Gulfstream.
            Example: Manufacturing Technology Transition Training.
    Gulfstream's G650, which first entered customer service in 2012, is 
built using significantly different manufacturing techniques than 
aircraft produced previously. Consequently, ramp up of that production 
line necessitated transition training for our existing employees moving 
from other aircraft to the G650.
    To assist, we enlisted the help of Georgia's Quick Start Program. 
Quick Start, which is part of the Technical College System of Georgia, 
offers tailored employee training services to qualified companies. 
Quick Start instructors paired with our team to develop transition 
training programs for specific, proprietary manufacturing techniques 
used for the G650. Because the program's mandate allows it to enter 
into Proprietary Information Agreements with its customers, Gulfstream 
was able to use this resource without jeopardizing our valuable trade 
secrets.
                              6. Military.
    Recruiting U.S. Military Veterans is a vital part of Gulfstream's 
strategy for finding employees with the necessary technical skills. As 
direct evidence of that fact, approximately twenty-five percent (25%) 
of Gulfstream's domestic employees are U.S. Military Veterans. In our 
Flight Operations group, approximately ninety percent (90%) of our test 
pilots are Veterans and approximately seventy five percent (75%) of our 
other pilots are Veterans. These high percentages are a testament to 
the quality of training within our Armed Services, and to the cultural 
fit between them and Gulfstream.
    Gulfstream recruits veterans heavily because of the combination of 
technical skills, disciplined work ethic and leadership skills that 
they so consistently demonstrate. Aircraft maintenance and avionics 
technicians, for example, come to Gulfstream with skills and experience 
that enable them to quickly integrate into our operations.
    To recruit Veterans, we use a proactive, comprehensive approach 
that includes extensive in-person outreach to military bases--including 
participation in Transition Assistance Program Classes at those bases--
customized Veteran recruitment advertising, and active participation in 
a number of Veterans organizations.
                      7. Engineering Universities.
    Our engagement with Universities relies heavily on our intern and 
co-op programs with those schools. Also, in keeping with the High 
Demand Career Initiative concepts discussed above, we are becoming 
increasingly active in providing input on specific skills-needs and 
engaging students in for-credit research projects that complement their 
skills development and our research needs.
    Like many companies, we have intern and full co-op programs in our 
engineering department. Interns and co-ops are hired through a 
competitive selection process. While working, they are paid a 
competitive hourly wage and receive 401k and life insurance benefits. 
Gulfstream also provides housing for students who do not live in the 
local area. In 2019, we had one hundred fifty-eight (158) interns and 
one hundred fifty-nine (159) co-ops.
    Interns typically work during their summer breaks. Co-ops alternate 
between a semester of school and a semester at Gulfstream and must 
complete three (3) semesters at Gulfstream.
    These programs provide an excellent resource for hiring students 
with the right skills, and as importantly the right cultural fit, for 
Gulfstream. Students work alongside our full-time engineers in our 
various programs. They also rotate between departments within 
engineering, so that they and we can find the best fit.
    The success of these programs is demonstrated by the hiring. Over 
ninety percent (90%) of Gulfstream's entry-level engineering positions 
are filled through our intern and co-op programs.
    In conjunction with these programs, we have developed and continue 
to mature our partnership agreements with Universities. These 
agreements include both formal and informal arrangements for research 
projects, mini-sabbatical opportunities for faculty to work at 
Gulfstream and Gulfstream employee memberships on Advisory Boards.
    Mr. Chairman, Members of the Subcommittee, I thank you for the 
opportunity to share Gulfstream's experience in this critically 
important issue of ensuring a highly skilled aviation workforce well 
into the future.

    Mr. Larsen. Thank you.
    And finally, I want to call upon Dana Donati, general 
manager and director of academic programs at LIFT Academy.
    You are recognized for 5 minutes.
    Ms. Donati. Good afternoon, Chairman Larsen, Ranking Member 
Graves, and distinguished members of the subcommittee. My name 
is Dana Donati, general manager and director of academic 
programs at LIFT Academy, a Republic Airways company. In 
addition to leading LIFT Academy, I have spent 11 years as a 
Republic Airways pilot, type rated on both the De Havilland 
Dash 8-Q400, and the Embraer 175. In addition, I have held 
positions as an assistant chief pilot and dean of aviation at a 
community college. Thank you for the opportunity to share my 
perspective today.
    LIFT is a flight school and technician apprenticeship 
program focused on addressing the pilot and technician 
shortage, while ensuring technicians and pilots who enter the 
aviation workforce at Republic have the appropriate skills and 
training needed for success.
    Republic launched LIFT in September 2018. Since then we 
have received over 4,000 applications, and secured over 500 
student enrollment dates, with 281 flight students enrolled 
today. In 2019, the Department of Labor approved two LIFT 
Academy apprenticeship programs, the Aviation Maintenance 
Technician Apprenticeship program and the Airline Transport 
Pilot Apprenticeship program. Each provides apprentices with a 
high-quality career pathway, using the ``earn and learn'' 
model.
    Republic Airways is a large, regional airline that partners 
with United, American, and Delta. Like other airlines, Republic 
has had to overcome pilot and technician workforce challenges 
that threaten our ability to continue to serve these 
communities. While Republic is fully staffed today, upcoming 
retirements are expected to strain supply. About half of 
today's qualified pilots will reach mandatory retirement age 
within 15 years. In addition, ATEC projects 30 percent of 
today's technician workforce is approaching retirement.
    Republic Airways invested in pilot and technician training 
through LIFT Academy, supporting pilots from first flight to 
attaining 1,500 hours. Our mission at LIFT is to attract a new 
generation of aviators to flight by providing superior flight 
training, while addressing the economic and structural barriers 
to entry. The barriers I will highlight are outreach and 
awareness, cost of training, technology, and training 
behaviors.
    We know that outreach is crucial for strengthening and 
diversifying the aviation workforce. At LIFT we have built 
outreach programs through partnerships and actions designed to 
attract and support pilots and technicians. LIFT is also 
targeting under-represented demographics through outreach. We 
want to improve enrollment from a diverse base of candidates, 
and have taken steps to do so, which I have discussed in my 
written testimony.
    To help attract candidates to LIFT's maintenance 
apprenticeship program, we partner with Indiana high schools 
and career technology centers, introducing them to industry-
recognized certification.
    Pilot career path inaccessibility has undercut the 
effectiveness of these outreach programs. Pilot education and 
training costs associated with flight education degrees at 
institutions of higher ed exceed Federal student loan caps. To 
bridge the gap, students or parents must apply for personal 
loans. LIFT has been working to address this, providing tuition 
subsidy, loan assistance, and a guaranteed job, making LIFT 
Academy one of the most affordable and accessible pilot 
training programs in the Nation.
    Technology advancements in today's commercial aircraft 
require both pilots and technicians to learn additional 
technical skills to manage automation. Technician apprentices 
begin their 30-month apprenticeship, working on the most 
advanced equipment that general aviation has to offer. With 
hands-on and classroom training, LIFT's technician apprentices 
are surrounded in a high-tech training environment.
    Classroom training for both pilots and technician 
apprentices incorporate the best practices of the airline by 
using documentation that replicates the airline's materials. 
Simulator training allows for actual systems failure and 
weather-induced scenario flying, promoting excellent safety 
practices and industry competencies.
    By removing barriers to flight training through industry-
recognized apprenticeship programs, LIFT is helping Republic 
develop their future workforce.
    We also have recommendations for policymakers to empower 
programs like LIFT to do more to strengthen tomorrow's 
workforce. Expanding the title IV Federal financial aid program 
will ensure students can finance flight training costs 
associated with flight education degrees.
    Next, Congress can encourage the FAA to update part 147 
curriculum, so that mechanics are prepared to work on 
technologically advanced commercial aircraft.
    And lastly, there are too few structured training pathways 
to meet the demand for training airline pilots, which may force 
pilots to accumulate flight time on their own, or deter them 
from the career path, altogether.
    Chairman Larsen, Ranking Member Graves, and members of the 
subcommittee, thank you for making workforce development a 
priority. It is our privilege to testify today, and I welcome 
your questions.
    [Ms. Donati's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Dana Donati, General Manager and Director of 
                    Academic Programs, LIFT Academy
    Good morning Chairman Larsen, Ranking Member Graves and 
distinguished members of the Subcommittee. I am Dana Donati, General 
Manager and Director of Academic Programs at the Leadership in Flight 
Training (LIFT) Academy, a Republic Airways Company. LIFT Academy is a 
flight school and technician apprenticeship program focused on 
addressing our nation's looming pilot and technician shortage, while 
ensuring technicians and pilots who enter the aviation workforce at 
Republic Airways have the appropriate skills and training needed for 
success in the commercial airline environment.
    The Aviation Workforce title in the FAA reauthorization Act of 2018 
has helped to further critical discussion and action within our 
industry on the steps we must take to attract the next generation of 
highly skilled associates and we greatly appreciate this Subcommittee's 
leadership in advancing those provisions. LIFT Academy and Republic 
Airways looks forward to partnering with you to ensure our aviation 
workforce continues to support safe, reliable air service to every 
corner of the country. Thank you for holding this important hearing and 
for the opportunity to share my perspective.
    In addition to leading the LIFT Academy and supporting workforce 
development, I am a professional airline pilot with over 8,000 flight 
hours. I received my initial professional pilot training from the 
Community College of Beaver County (CCBC), a Part 141 aviation school. 
I gained my BS in Aviation Management from Robert Morris University and 
my MBAA from Embry Riddle and went on to fly as First Officer at 
another regional airline before moving to Republic, where I spent 11 
years and eventually became Assistant Chief Pilot. I have held 
positions as First Officer on the Embraer 175 and Captain on both the 
De Havilland Dash8 Q400 and the Embraer 175. Throughout my career at 
Republic and in higher education, I have had an intimate view of 
workforce development and training. After spending a few years away 
from Republic as Dean of CCBC's School of Aviation, I returned in 2017 
to focus on workforce development initiatives such as the LIFT Academy, 
which I lead today.
    After nearly a year of detailed advanced planning and design, 
Republic opened LIFT Academy on September 4, 2018, with a pilot 
training program and an initial class of 13. Since then, we have 
received over 4,000 applications and have secured 500 students' 
enrollment dates, with a current enrollment of 281 flight students and 
19 registered apprentices. In 2019, LIFT added a technician program, 
enrolling five students initially and quickly growing from there. This 
program will broaden the pool of qualified, licensed aviation 
maintenance technicians to support the growth of LIFT and Republic 
Airways.
    Today we have training programs for both pilots and mechanics and 
upon maturity, will graduate 330 pilots and 20 maintenance technicians 
to the aviation workforce each year. As a point of reference, Republic 
has averaged approximately 600 new hire pilots and 122 new hire 
maintenance technicians annually for the last two years; these numbers 
are expected to grow by approximately 50 percent over the next decade. 
With expansion plans on the horizon, and with Republic Airways poised 
to hire 200 new technicians in 2020, LIFT Academy expects to increase 
its yearly graduates even further.
                            Republic Airways
    Republic Airways is a large regional airline with over 6,000 
employees that operates over 1000 scheduled flights each day in 
partnership with our major airline partners American, Delta and United. 
Republic completed more than 337,000 flights in 2019 and served roughly 
100 cities in North America, including Canada, Mexico and the 
Caribbean. According to the Regional Airline Association, regional 
airlines operated 41 percent of the nation's departures and safely 
carried more than 159 million passengers on nearly four million 
departures in 2018, with over 10,500 departures a day. Regional 
airlines play a critical role in connecting communities large and small 
to the global air transportation network; in fact, at two-thirds of our 
nation's airports, regional airlines provide the only source of 
scheduled passenger air service. While airlines like Republic 
contribute to aviation's overall $1.6 trillion economic footprint, 
those communities served exclusively or predominantly by regional 
airlines generated more than $134 billion in economic activity on their 
own and supported more than one million jobs in 2018.
    Like other airlines, Republic has had to overcome pilot and 
technician workforce challenges that threaten our ability to continue 
to serve these passengers and communities. Republic was not alone in 
facing these challenges; in fact, pilot and technician shortages 
continue to make headlines with Boeing's 20-year forecast reporting a 
shortage of 212,000 pilots and 193,000 aviation maintenance technicians 
in North America alone. While Republic is able to fully staff our 
flight decks today, FAA airmen data shows the demand for airmen is 
unrelenting and we anticipate that coming retirements and normal 
domestic growth demands will continue to strain today's pilot 
workforce. In fact, nearly half (47.6 percent) of today's qualified 
pilots who hold ATP AMEL certificates and valid 1st class medicals will 
reach mandatory retirement age within 15 years (51,762 airmen). 
Additionally, 13.4 percent of all ATP AMEL airmen with valid 1st class 
medicals will reach mandatory retirement age within five years (14,616 
airmen). For context, the size of today's actively flying regional 
airline pilot workforce is about 17,000 pilots. Importantly, this 
retirement data simply looks at known, age-65-related attrition to our 
domestic airmen workforce. Were we to factor in a continuation of 
recent four percent to five percent domestic growth departure demands, 
we could easily see the need for another 15,000 pilots over the next 
five years.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While FAA data shows an uptick in new pilots entering the system, 
we are seeing an even larger uptick in pilots approaching mandatory 
retirement, showing that new pilots entering the system are still not 
keeping pace with retirements.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Even more critically, regional airline training departments were 
beginning to report that pilots entering initial training were not 
performing as well as they did in years past. From 2013-2018, these 
findings were confirmed by a series of academic studies detailing new 
hire training performance correlating with various pilot backgrounds. 
While these studies \1\ merit review in full, each showed flight hours 
alone to be a poor predictor of pilot performance. In fact, data has 
shown that pilots with lower total flight time have a higher training 
completion rate and need less remedial training. We believe this is 
because pilots with lower flight time replaced unsupervised flight time 
with structured flight time and specific, structured training, 
incorporating academics, relevant practical experience, experience in a 
crew environment, flight instruction and other components of training 
and experience that are stronger predictors of pilot performance than 
hours alone.
---------------------------------------------------------------------------
    \1\ https://www.pilotsourcestudy.org/new-pss-2018
---------------------------------------------------------------------------
    With these factors in mind, Republic Airways made a substantial 
investment in pilot and technician training by creating our LIFT 
Academy. As LIFT Academy supports pilots from first flight to attaining 
1,500 hours, we incorporate structure throughout and scaffold required 
flight time with important academic training. Our mission at LIFT 
Academy is to attract a new generation of aviators to flight by 
providing superior flight training, while addressing the economic and 
structural barriers to entry. Three barriers I will discuss today are 
the cost of training, training behaviors and technology.
                          LIFT Academy Mission
    At Republic and at LIFT, a relentless focus on safety drives 
everything we do. Our flight crews and maintenance technicians are some 
of the most experienced and thoroughly trained in the entire airline 
industry and when we launched LIFT in the face of a growing pilot 
shortage, Republic Airways was meeting two related, but distinct, 
challenges. One objective was to expand the pool of qualified pilots. 
In recent years, fewer pilots have entered the workforce than needed to 
keep pace with those leaving the workforce due to mandatory age 65 
retirements, let alone to accommodate growth in passenger demand. More 
importantly, while our recruiting departments were still attracting 
plenty of qualified candidates, Republic's training officials were 
finding that many of those candidates were qualified on paper but in 
fact were unable to meet Republic's rigorous training requirements, as 
detailed above. Considering this, Republic was not satisfied to simply 
expand the qualified pilot population but aimed instead to ensure an 
adequate supply of qualified pilots with the core competencies and 
skills relevant to the commercial flight deck.
    Today, Part 121 professional pilots qualify through two types of 
pathways. In the first instance, a pilot trains to Commercial Pilot 
Certificate standards and then becomes eligible for Part 121 airline 
hire by assimilating additional hours in flight until the pilot has 
attained a total of 1,500 hours. These pilots enter airline initial 
training programs with an unrestricted Air Transport Pilot (ATP) 
certificate. The second is where a pilot receives rigorous, highly 
structured, aviation-related academic training alongside their flight 
training. This training is focused on the scenarios and tasks the pilot 
will be presented with in the commercial flight deck. When students in 
these programs graduate from training, they meet the eligibility 
criteria for a Restricted Air Transport Pilot (R-ATP) certificate. 
Republic found that newly hired pilots from these structured training 
programs were consistently outperforming their counterparts who 
followed a predominantly hours-based background, where the latter need 
more remedial training and fail to complete training more often. While 
candidates coming from hours-based qualification pathways can certainly 
succeed in initial training and many go on to become competent and 
valued pilots, this qualification pathway does not provide the hiring 
carrier with a real sense of where and how the aviator has spent that 
time. Unfortunately, structured training pathways, traditionally 
offered by institutions of higher education and the military, are 
limited in number and other ways that constrain aspiring pilots' access 
to them.
    Considering this, and to meet the anticipated shortfall of suitable 
pilots, Republic Airways clearly identified the need to ensure a supply 
of highly trained pilots with a solid background of academics and 
flight training that would reflect the airline's requirements for a 
pilot flying under Part 121 regulations. By creating the LIFT Academy, 
Republic took a unique, proactive approach to addressing the growing 
shortage of suitably trained pilots, by becoming the only regional 
airline to operate its own training academy specifically designed to 
create a direct-to-hire path for its graduates. Students train on 
state-of-the-art, eco-friendly single and multi-engine training 
aircraft. This training is supplemented with high-fidelity flight 
simulators, which are built to achieve the most realistic flight deck 
environment. Our training aircraft are equipped with state-of-the-art 
technologies, such as glass cockpits and Full Authority Digital Engine 
Control (FADEC), that seamlessly transfer learning to the regional jet 
aircraft flight deck. Our program provides LIFT students with the 
skills and the commercial airline professionalism required of Republic 
Airways pilots.
                               Technology
    Technology advancements in today's commercial aircraft require 
pilots to learn additional technical skills and behave differently. 
Stick and rudder or pure hand-flying skills remain critical, but flight 
deck management skills and pilot decision making skills are also 
required to complete the framework of a well-educated pilot. 
Recognizing this, we determined that state-of-the-art training 
facilities and equipment would be required to take the aspiring pilot 
to the educational and skill level required to enter regional airline 
initial first officer training. Consequently, a LIFT Academy student 
trains in Diamond single and multi-engine aircraft, which are state-of-
the-art training aircraft designed to give the student exposure to 
modern technology in the flight deck. For example, the Diamond aircraft 
are equipped with Garmin G1000NXI avionics. This next-generation flight 
deck technology provides multi-function information, navigational and 
instrumentation displays that are increasingly being incorporated into 
regional and major operators' airliners. The displays can show aircraft 
position on taxiways and runways and other aircraft converging on one's 
present position in the air. The synthetic vision technology capability 
creates a ``virtual reality'' database landscape with similar terrain, 
obstacle, flight plan routes, weather, airports and other important 
details displayed on the Primary Flight Displays. With color coded 
terrain and WAAS-GPS based precision landing approach guidance, LIFT 
Academy students train using the highest level of technology in general 
aviation preparing them for the technology required in passenger 
aircraft.
                           Training Behaviors
    In the classroom environment, LIFT Academy is developing training 
material using virtual reality simulation to enhance procedural 
learning for both flight students and aviation maintenance technician 
apprentices. In addition to the equipment, the training program 
incorporates the best practices of the airlines in using documentation 
that replicates airline checklist and briefing materials and 
incorporates Threat and Error Management and Crew Resource Management 
principles in a crew concept program.
    Once students complete their training as a Commercial pilot, LIFT 
trains them to become Certificated Flight Instructors. From that time 
until they achieve their required 1,500 hours and may enter the 
Republic New Hire First Officer training program, LIFT students are 
flying and training other students in an academic, structured training 
environment. Every lesson taught by an instructor incorporates LIFT 
Academy syllabus requirements. As instructors teach and critique 
lessons, they continue to perfect their flying ability and knowledge. 
Additionally, LIFT Academy students perform training in Class Charlie 
(controlled) airspace in and around airline traffic and we have 
specifically created procedures for our students to fly arrivals 
imitating the FAA arrivals surrounding the Indianapolis International 
Airport. In this way, students are gaining real world experience in a 
Part 141 environment under both visual flight rules and instrument 
flight rules while they instruct at LIFT Academy.
    Additionally, flight training in the aircraft allows for controlled 
simulated system failures and simulated abnormal weather conditions. 
Examples include partial panel flying, flight instrument failures, 
aircraft systems failure, unusual attitude recoveries, stall 
recoveries, emergency assistance, missed approach procedures, wind 
shear, complicated or sidestep approach maneuvers, approach guidance 
failures, emergency approach procedures, and more. Flight training in 
the flight simulation training device (simulator) allows for actual 
system failures and weather-induced scenario flying. Aircraft, 
electrical and engine malfunctions, as well as smoke and fire emergency 
procedures are also incorporated throughout the training syllabus. 
Simulation training of abnormal and emergency malfunctions promote 
excellent safety practices, building competence and confidence. Where a 
pilot accumulating flight time on his or her own will rarely if ever 
encounter or gain skills on emergency procedures or relevant commercial 
airline behaviors, at LIFT these are core curriculum components, 
leaving nothing to chance.
                   Barrier to Entry: Career Awareness
    As this Subcommittee knows, one of the most important aspects of 
strengthening and diversifying the aviation workforce takes place 
through outreach. At LIFT, we have built outreach into our program 
through partnerships and direct actions to appeal to and support a 
broad complement of potential pilots and technicians. One element 
showing strong success is the LIFT Lab, which travels to K-12 schools, 
recruiting events, air shows, STEM fairs, Girl Scouts and Boy Scouts 
events and provides everyone the ability to `experience flight' using 
virtual reality. The LIFT Lab also provides the ability for offsite 
applicant testing; traveling to cities outside of Indianapolis to 
interview and test applicants increases outreach.
    LIFT Academy is also specifically targeting underrepresented 
demographics through our outreach activities and have taken the 
following steps to encourage and support such applicants. Today, about 
20 percent of the applications LIFT Academy attracts come from women 
and about 8 percent of our total enrollees are women. LIFT competes for 
enrollees with other academies, including those offered by mainline air 
carriers, as well as other STEM professions and some women enroll 
elsewhere. However, we are constantly scrutinizing our data to identify 
bias, or unique circumstances that might be preventing women from 
enrolling in the numbers we want to see. For example, studies \2\ have 
found small, if any, differences in academic and cognitive abilities 
between genders. Yet high school course selections vary between boys 
and girls, measuring different academic performances. We believe these 
facts may influence scoring on our screening tests and are consistently 
evaluating more appropriate ways to weigh varying criteria in our 
selection process.
---------------------------------------------------------------------------
    \2\ https://courses.lumenlearning.com/suny-educationalpsychology/
chapter/gender-differences-in-the-classroom/
---------------------------------------------------------------------------
    Drawing on my experience in pilot training and education, I know 
how important it is to get in front of girls at a young age, to 
successfully encourage them toward a career in aviation. In order to 
close the gender gap in aviation, we instituted programs such as career 
days, STEM events, and aviation camps for K-12 girls to help them 
prepare for training at LIFT Academy. Presently, LIFT partners with 
dozens of organizations to expand our reach. The Girl Scouts and Boy 
Scouts of Indiana, Project Lead the Way, Junior Achievement, the 
Indiana Black Expo, Diversity in Aviation, the Organization of Black 
Aerospace Professionals, and the Latino Education Summit are just a few 
examples of how we are reaching new candidates, including those who may 
not have had many prior aviation experiences.
                   Barrier to Entry: Cost of Training
    Pilot career path inaccessibility is a policy problem undermining 
the effectiveness of workforce outreach programs. Pilot education and 
training costs associated with flight education degrees at institutions 
of higher education dramatically exceed Federal student loan caps. 
Subsidized and Unsubsidized Aggregate Loan Limits for Independent 
Students is $57,500 for a four-year degree program and $20,000 for a 
two-year degree program but the total degree costs for a bachelor's 
degree, alongside the added expense of flight training, can often 
exceed $200,000. To bridge this substantial funding shortfall, students 
or their parents must apply for personal loans to make up the funding 
shortfall, yet not every family has the financial background or credit 
scores needed to access these loans. This is even more true among the 
underrepresented minority population in aviation. Today, students do 
not have equal access to pilot training; those without wealth or access 
to capital are often barred from the career path because they cannot 
raise or borrow the funds needed for training. According to a 2018 
Government Accountability Office report surveying collegiate aviation 
schools, the high cost of flight education degrees presented one of the 
primary challenges to recruiting and retaining students. In my 
experience, this remains a significant barrier of entry today.
    LIFT has been working to address this. As a vocational program, the 
cost of qualifying for an Air Transport Pilot Certificate through LIFT 
Academy is substantially lower than the cost of a two- or four-year 
aviation flight education degree program. The cost to a student 
training at LIFT Academy is $65,000, after a $20,000 per student 
tuition subsidy from Republic Airways. This subsidy is the only one of 
its kind offered by a US airline to flight-training candidates. 
Republic additionally offers graduates who work for Republic for five 
years another $15,000 in loan forgiveness. With a guaranteed job at 
Republic for all graduates, and competitive pay for Flight Instruction 
during the course of the program, these combined supports make the LIFT 
Academy one of the most affordable and accessible pilot training 
programs in the nation.
    Unfortunately, most pilots who train outside of two- and four-year 
degree programs--even at highly-structured programs such as LIFT--have 
no access to Title IV Federal student financial aid at all. While such 
funding is available for other vocational training, the process for 
accreditation of highly structured programs like LIFT can be difficult, 
and accreditation is a required component of Title IV funding. LIFT 
plans to commence the accreditation process that will allow our 
students to qualify for Title IV in September 2020. In the interim, we 
help students address this challenge by working with private lenders to 
help students fund flight training and establish payback options that 
align with their career progression. Students who successfully complete 
our training program are guaranteed a job that will allow them to 
comfortably repay their loan obligations. Moreover, a Brown Aviation 
Lease review of career earnings data from the Bureau of Labor 
Statistics, Embry-Riddle Aeronautical University, Association of 
American Medical Colleges and the American Bar Association found that 
the Return on a pilot's training investment exceeds those of doctors 
and lawyers.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Through subsidized training, reduced-cost training, loan 
forgiveness and tuition assistance, LIFT Academy is making a true 
investment in a young person's future. Doing so has opened new 
opportunities for students from diverse backgrounds who could not 
otherwise have attained training and will have a guaranteed Republic 
pilot job waiting for them when they graduate from the program. At LIFT 
we understand, despite our best screening and up-front testing, some 
students will simply not make it. Unlike some ``for profit'' flight 
training institutions who will continue to provide training as long as 
the student continues to pay, LIFT seeks to quickly identify 
individuals who do not show long term potential and remove them from 
the training programs quickly so that they do not needlessly waste 
their resources. Considering this, loans obtained by LIFT students 
today are ``money good;'' yet, about 25 percent of LIFT Academy 
candidates who pass initial screening cannot obtain these private 
loans, even with support from LIFT. This is not surprising, because 
LIFT outreach programs reach talented candidates with high aptitude, 
but who may have been exposed to life circumstances that have impacted 
their ability to maintain the necessary credit scores.
    One of the first applicants who was accepted to LIFT Academy has 
been unable to secure the loan needed to cover funding. This applicant 
had been living with limited means for some time and could not get his 
credit score up despite taking advantage of credit counseling from our 
lender. This talented student, from an underrepresented demographic, 
wants to become a pilot and has the drive to do so. He passed our 
initial screenings comfortably. The only thing standing between him and 
a life-changing career in aviation is a credit score that has blocked 
his education financing. If LIFT Academy students like this had access 
to Title IV Funding, otherwise known as guaranteed student loans, we 
could help these candidates overcome the financial barricades that 
block this career.
                     Maintenance Technician Program
    In addition to reducing barriers of entry for aspiring pilots, LIFT 
Academy has expanded its focus on aviation maintenance technicians, 
another profession in short supply. In fact, the Aviation Technician 
Education Council (ATEC) projects that the mechanic population will 
decrease by 5 percent in the next 15 years and indicates 30 percent of 
the workforce is at or near retirement age. Forecasts by the U.S. 
government and Boeing project a need for thousands of additional 
mechanics in the next 10-20 years. ATEC tells us that some of the 
toughest challenges to growing the maintenance technician pipeline 
include maintaining qualified instructors, testing costs, lack of 
mechanic examiners, and a lack of awareness of the career path or its 
advantages.
    To help attract candidates, LIFT Academy works closely with Indiana 
high schools and career technology centers by presenting students with 
alternative training pathways, such as LIFT Academy's Aviation 
Maintenance Technician Apprenticeship program. The ``earn and learn'' 
model helps students with various financial backgrounds, because they 
are paid for their training and receive an industry recognized 
certification upon successful completion of the program.
    Moreover, the Department of Labor has approved two LIFT Academy 
apprenticeship programs, the Aviation Maintenance Technician 
Apprenticeship Program and the Airline Transport Pilot Apprenticeship 
Program. Each provides apprentices with a high-quality career pathway 
using the earn and learn model. Technician apprentices gain paid work 
experience alongside licensed Airframe & Powerplant (A&P) professionals 
while they receive classroom instruction preparing them to obtain 
industry-recognized credentials. During the program, apprentices gain 
experience working on LIFT's fleet of Diamond single- and multi-engine 
DA40 and DA42 aircraft and Republic's Embraer 170/175 jets. Upon 
completion of the 30-month program, graduates will benefit from job 
offers at Republic Airways as an aviation maintenance technician.
                       Recommended Policy Actions
    By removing the barriers to flight training and offering industry 
recognized apprenticeship programs, LIFT Academy is helping Republic 
Airways develop their future workforce. We additionally have 
recommendations for policymakers that would empower programs like LIFT 
to do even more to strengthen tomorrow's pilot and technician 
workforce.
    Expanding the Title IV Federal financial aid program will ensure 
students can cover additional flight training costs associated with 
flight education degrees. While the LIFT program represents an 
excellent alternative for students, as an industry, we are committed to 
dramatically increasing the supply of pilots from all sources, 
including degree programs at institutions of higher learning. Next, 
Congress can encourage the Federal Aviation Administration to update 
the Part 147 curriculum so that mechanics are prepared to work on 
technologically advanced commercial aircraft. We applaud Rep. Young (R-
AK) for introducing legislation directing FAA to issue a performance-
based regulation and ensure that FAA incorporates Department of 
Education expertise. Next, we need to make it easier for America's 
veterans to use their GI Bill benefits to pay for flight training, 
including their private pilot's license. These are high demand jobs and 
America's veterans are among the most deserving and should be able to 
fully benefit from their promised benefits on educational financial 
assistance. Lastly, I have personally seen the difference that a 
structured pilot training pathway makes for pilot performance when 
compared with pilots who have simply accumulated unstructured, fair-
weather flying hours on their own. While structured training pathways 
offered by traditional providers such as military and institutions of 
higher education produce strong candidates, many aspiring pilots cannot 
access these pathways and will instead qualify through unstructured 
flying time. Others will be deterred from the career path altogether. 
Institutions like the LIFT Academy have stepped up by creating 
additional, highly structured pilot training pathways and would be able 
to further improve access to workforce training if our potential 
students could realize Federal funding support. This is especially true 
if we want to expand the underrepresented demographics in the flight 
deck of tomorrow. We understand Title IV funding mechanisms are 
relatively fixed; but we encourage Congress to think creatively about 
assisting our students and potential students, who cannot access 
funding today but would enroll tomorrow if they could access guaranteed 
student loans or similar supports. As we request these considerations, 
LIFT and Republic will continue to do our part so more students can 
access high quality structured training.
                               Conclusion
    Chairman Larsen, Ranking Member Graves, and members of the 
Subcommittee, thank you for taking the time to hold this hearing and 
making workforce development a priority. It is a privilege to testify 
today, and I welcome any questions you may have.

    Mr. Larsen. Thank you very much. I will now turn to Member 
questions, and I will start by recognizing myself for 5 
minutes. And I am going to just maybe randomly pick just one 
of--it will be Mr. McDermott.
    On the part 147 mechanics curriculum, how ready are you--
and maybe you could talk to the industry, and if not I will 
call on others--to flip the switch on that curriculum? If the 
FAA were to come out today with a rule--and we heard it may be 
later this fall--if they were to come out with a rule, how 
quickly could you flip the switch on the curriculum? The 
training people, the equipment to support that curriculum, and 
so on.
    Mr. McDermott. From a Delta----
    Mr. Larsen. Get that microphone.
    Mr. McDermott. Yes. From a Delta perspective, we are 
absolutely ready to go. In our partnerships, and having the 
discussions at all the schools, we are making it very clear 
that, once the curriculum has been updated, we will find ways 
to be able to assist them in many, many ways we have already 
been doing.
    It is too important to the industry to be able to get that 
modified curriculum--specifically, in avionics, as well as 
composites. We have done some payments out of our foundation to 
different schools to start building on that today. We are not 
going to wait. But certainly, as this progresses, we will be 
ready to go.
    Mr. Larsen. Ms. Donati, can you discuss that question, as 
well, from an educator's perspective? And I will go back to 
Aviation High School on this question, as well. How quickly 
could you flip the switch to an updated curriculum?
    Ms. Donati. Well, for LIFT Academy, it is a little 
different, because we are an apprenticeship program. So our 
entire fleet at LIFT is composite, because we are training what 
Republic Airways needs, which is technicians to work on 
composite aircraft.
    We are meeting the requirements of part 147 through, you 
know, different teaching models to teach dope and fabric. But 
those students, other than learning it in the classroom, they 
are not really experiencing it. So, as far as, you know, how 
quickly we can adjust to new curriculum, it could happen 
overnight at LIFT Academy.
    Mr. Larsen. Mr. Jackson, could you respond to that 
question?
    Mr. Jackson. Sure, and I want to first thank you for having 
two of us represent the school.
    So it is a great question, because, as a New York City 
public high school, as I mentioned in my statement, we have a 
lot of regulations, not just FAA, but New York City and State 
requirements to follow.
    Mr. Larsen. Yes, right.
    Mr. Jackson. So it is definitely a challenge for us.
    And Mr. Cotumaccio oversees the aviation maintenance 
program, so I would like him to address that aspect of it.
    Mr. Cotumaccio. Good morning, thank you. I know we have 
been speaking quite--very clearly today on the modernization of 
curriculum, and the words ``composite'' and ``avionics'' come 
to mind. Avionics and composites, as it addresses a part 147 
school, becomes a difficult challenge. Just in budget alone, it 
would seriously affect our school budget to support such 
technology. However, we at Aviation High School are working 
very closely in collaboration with our local FSDO, with Delta 
Air Lines--thank you, Delta--and with JetBlue to move in that 
direction.
    I have with me here today a project that was designed 
locally at our school, in collaboration with the parties 
mentioned, where we do just that. We have taken an old design--
going back to Ms. Donati's testimony concerning wood and 
fabric. This wing bay--and we call this a wing bay, and this is 
a section of an aircraft wing with the associated aileron, a 
flight control. For many years at Aviation High School it was 
constructed out of wood, dope, and fabric. We have moved to 
composites, where we now have our youngsters incorporate 
advanced sheet metal and composite technology, where we 
actually do the repairs that our airline partners are so 
desperately in need of.
    So very quickly, just to wrap this up, can we flip a 
switch? My answer is no. We cannot. It will take some time. It 
will take a collaboration of all parties mentioned. However, it 
is doable, absolutely. We are proving it. It can be done.
    Mr. Larsen. Great, yes. Thank you.
    And, Ms. DeVivo, can you answer the same question?
    Ms. DeVivo. Yes, similar. There is--it is not a flip of a 
switch. It would take some time. You would need to give us an 
opportunity to make sure we had budget dedicated, then to work 
with the FAA to work through the whole process of the manual 
update and the laboratories.
    I mean we are fortunate, as a Hispanic-serving institution, 
to qualify for title V and title III grants, and have actually 
just added a state-of-the-art composites lab. So in some ways 
we are ahead of the curve, knowing this was coming, right?
    But it is unclear to us exactly what all the rule changes 
will look like, so having an opportunity to have time to 
implement would be helpful.
    Mr. Larsen. Yes. Excellent. Sorry, just a moment.
    Mr. Neely, can you kind of come up with--in the 5 minutes 
there--sorry, I am out of--can you address your veterans 
program, veterans outreach program?
    Mr. Neely. Actually, it is----
    Mr. Larsen. More directly.
    Mr. Neely. I am sorry, actually, it is multiple programs 
that--the first layer, quite frankly, is taking advantage of 
the fact that we have so many veterans in our business, and 
they have colleagues that they worked with in the military, and 
so there is direct outreach. And that is true with--at all of 
the jobs within Gulfstream, where we recruit veterans.
    The--another example is the transition support program, 
where--I am sure you are familiar--active members of the 
military during the last--I think it is 6 months of their 
active service can go and work in industry. We are very much 
involved in that. We think that is a wonderful program. Two 
great examples.
    Mr. Larsen. That is good, thank you. Thank you, and I will 
recognize Representative Graves of Louisiana for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    You have all described various steps and programs that we 
can take to help address this gap that was identified in some 
of the opening statements, and the first panel's statements. 
Two questions, and I am happy to hear from any of you on this.
    Number one, if we were to implement all of your 
recommendations, does that close the gap? Does it close the 
gap?
    Secondly, if you are us--mainly, him--what is the one thing 
that Congress--and again, I can't emphasize this enough. A lot 
of times people like to jump out of their lanes and do other 
people's jobs, but what is the one biggest thing that Congress 
could work on to help address the gap that we are now facing 
and expect to be much greater in the future?
    Again, any, all of you. Don't pretend like you are shy.
    Ms. DeVivo. So I would--just want to reemphasize this idea 
of increasing Pell, especially for under-represented 
populations, right? Our average family income is $39,000. They 
just don't have enough funding, right? The average debt load is 
about $17,500. Now, they are going to get great-paying jobs and 
be able to pay back that debt. But to make that choice, they 
could use some extra support.
    In New York they have done things like dedicate a certain 
amount of funding to STEM fields. Could Congress take that 
route, given that this is such a demand, and such an area where 
we need extra support? Could they do some kind of supplemental 
funding for something like a student who wanted to pursue 
aviation maintenance?
    And I think all the things that have been discussed on this 
panel, the work that we are doing in Queens, in terms of who we 
serve, we are going to close this gap. But you have to see it 
to be it, right? So getting more people into those role model 
positions will definitely change the story.
    Mr. Graves of Louisiana. Great, thank you.
    Mr. Jackson. And, I agree, definitely funding is a huge 
part of it, especially for our school, as well.
    But in addition, as you heard us state earlier----
    Mr. Graves of Louisiana. Can I interrupt you on that? Just 
a quick question.
    So you talk about funding being an obstacle. So do all of 
you perceive the fact that this--that aviation programs, 
particularly pilot and others, because of the specialized 
training and the length of training, that the cost is one of 
the biggest barriers or obstacles?
    Mr. Jackson. So, speaking on behalf of a high school--and 
again, a public high school--it is a bit different than a 
college or technical school. For us, for sure. We get funding 
from the city, State, and the Federal Perkins grant, of course. 
But it is very, very expensive for a school to run.
    And, for example, we get $500,000 for Perkins. It doesn't 
go very far. It looks like a big number on paper, but you are 
talking about aviation equipment, and mockups, and engines, and 
aircraft that will eat up most of that money.
    So definitely funding, for us, is an issue. And we could 
definitely improve our equipment and experiences for our 
students.
    But I want to add, in addition to that, going back to the 
earlier statements on elementary and middle school, we 
definitely have a challenge, as a high school, of students 
coming in--they will work on their licensing, they will be--
they will learn to love aviation from our staff, who are 
graduates of our school and also work in industry. But they 
have also heard college and university since they were born, 
understandably.
    So it is really a shift of mindset of looking at it as a 
lucrative career, and definitely Delta paying out a large part 
of their profit-sharing definitely helps, and all the wages 
that are going up across industry is definitely helping, as 
well. But that is definitely a big part of it. If we are 
talking about high school students, students that are coming in 
at 14, applying to high school as a 13-year-old, it is the 
image and the allure of the field that we have to really 
promote younger.
    So if we can get students working with their hands, 
understanding how systems work, seeing what it might be like to 
do as a career, or at least portions of it, that would go a 
long way, as well, for us, especially.
    Mr. Graves of Louisiana. Thank you.
    Others?
    Ms. Donati. I support that, as well. The funding is a huge 
barrier. So, you know, almost 25 percent of our applicants who 
have been accepted into our program cannot receive personal 
loans--because we don't qualify for title IV funding as of yet. 
So you know, that is a huge barrier.
    So these are applicants that have the aptitude skills, and 
they have the motivation to get through a 12-month, intense 
training program, but they just don't have the funds to do it. 
So if there were opportunities out there to help them, we would 
see more people coming through the program.
    Mr. Graves of Louisiana. Ms. Donati, while you are on the 
mic, you run a successful pilot training program. Now that you 
are migrating into repair, mechanic-type activities, what are 
some of the lessons learned from the pilot training that we can 
apply to some of the other fields, including repair?
    Ms. Donati. I believe it is all structure. So you know, as 
we are training for an airline, we are focused on replicating 
what the airline's needs are in a training environment. Under 
the apprenticeship program, the apprentices have to be with us 
for 30 months. So why not give them the most structured 
training environment for 30 months, versus just checking off 
boxes that they know how to do something that won't correlate 
into Republic?
    Mr. Graves of Louisiana. Yes, thank you. You know, we have 
Fletcher Technical Community College in our district, and they 
have actually brought in the real workers from the field, bring 
them into the classroom. They donate the equipment, and they 
have those folks that are going to be their bosses on day one 
in the workforce actually doing the training, and just these 
seamless transitions--of course, not in the aviation space, but 
in other technical fields. And it has worked out really well.
    So thank you all very much. I yield back.
    Mr. Larsen. I now turn to Ms. Plaskett from U.S. Virgin 
Islands for 5 minutes.
    Ms. Plaskett. Thank you very much, Mr. Chair, and thank you 
all for your testimony and for the work that you are doing.
    Mr. McDermott, I wanted to talk with you a little bit about 
your testimony. When you discuss in your testimony Delta's 
pride in paying competitive wages and investment heavily in 
workforce, can you talk about how that has helped Delta weather 
any workforce challenges in this strategically sustainable 
workforce? How is it making you more competitive?
    Mr. McDermott. Certainly, from a brand standpoint, the 
Delta name is substantially out in the marketplace now as a 
great place to work. That certainly doesn't hurt.
    Delta contributes 1 percent of all our earnings back into 
communities to be able to drive opportunities for people to be 
able to develop, to come to the workforce at Delta Air Lines.
    And then our ability to go out into the marketplace--which 
we promote, every city, every State to go out and get involved 
within the communities--allows us to get into the schools to be 
able to work with our 50 aviation partners, the AMT school 
partners, to be able to go out and actually drive interest in 
the aviation fields. That includes everything from us talking 
about pilots, all the way through engineers, as well as AMT 
mechanics.
    Ms. Plaskett. So how do you create this collaborative 
nature of your work? You talk about the mentoring programs you 
have, collaborating with regionals. How does that work? And how 
are you able to sustain that?
    Mr. McDermott. We have actually reached out and approached 
all our regional partners, as well as the AMT schools, and we 
developed a strategy early on.
    We know, from the A&P perspective, there were three things 
we were focused on: one is diversity inclusion; the other one 
was community service; and then our overall volume of A&P 
mechanics we are going to need for the future.
    As we looked at our 35 maintenance bases that we have 
across the country, we tried to pair up those maintenance bases 
with local schools, so we could make sure that we are actually 
engaged at that local level, and providing the services that 
the schools would need, and advise what the schools would need 
to be able to continue with their support.
    We did the same thing with our regional partners. We are 
going to do the same thing, and continue to be able to expand 
the program, and we have to make sure we keep up with the 
overall pipeline strategy to get that--to get our needs filled 
for the future.
    Ms. Plaskett. Great, thank you. That is--I am wishing you 
continued success in that, and that it be an example for others 
on how to get that done. And, you know, just keep talking with 
us. I would love to talk with you more about how you are able 
to keep that collaboration going.
    Mr. Jackson, I don't have any questions for you, but just 
wanted you to know, although I represent the Virgin Islands, I 
was born and raised in New York City. And everyone knows the 
great success of Aviation High School. In my own middle school, 
at Grace Lutheran in Queens Village, that was someplace that a 
lot of young people in my class applied to, your school. So 
thank you for the tremendous work that you are doing.
    Mr. Jackson. Thank you very much.
    Ms. Plaskett. Thank you.
    I wanted to follow up with Ms. Donati about the LIFT 
Academy. Some of the work that you are doing is really 
incredible. And I was hoping that you could talk a little bit 
more about some of the certification, and how you are able to 
improve the supply of maintenance technicians and mechanics in 
the field.
    Ms. Donati. So last year we were approved for an Aviation 
Maintenance Technician Apprenticeship program through the 
Department of Labor. And we have reached out and partnered with 
Indiana high schools, as well as career technology centers to 
find students who have the mechanical aptitude, who would be 
interested in a career in aviation.
    These students are provided compensation, day one. And it 
is an ``earn and learn'' model, so they are working under 
supervision of a licensed A&P, so hands-on experience in the 
hangar, and then classroom experience, as well, to ensure that 
they will be ready for their test with the FAA at the end of 
the 30th month.
    Ms. Plaskett. Great. I have no further questions. Thank you 
so much for having this hearing, and us being able to question 
and learn about these best practices in the field.
    Mr. Larsen. Thank you. I recognize Representative Woodall 
from Georgia for 5 minutes.
    Mr. Woodall. Thank you, Mr. Chairman. I wanted to ask you, 
Ms. DeVivo, thinking about the different programs that you all 
have, and the stamp of disapproval that our high schools are 
well aware of, of going into that maintenance workload, you 
have got certificate programs, you have got bachelor's 
programs. Is there a greater demand for your bachelor of 
science in aviation maintenance than there is for a certificate 
program in aviation maintenance, just to try to get beyond that 
stigma that Mom and Dad put in your head?
    Ms. DeVivo. So the way that we have our program structured 
is you have to finish the certification program before you can 
get into a bachelor's degree.
    So--and what will often happen, and it is especially true 
right now because they are paying so well, is that students go 
off as soon as they have been certified, and then will come 
back to us at some later point for the bachelor of science 
degree, when somebody else is going to pick up the tab.
    Mr. Woodall. But the almighty dollar has motivated folks to 
use their value today not to just get a piece of paper that may 
add no additional value to----
    Ms. DeVivo. Correct, correct. And they are--the airlines 
are not necessarily interested, until they are at a manager's 
or supervisor's role. What they really need is to be certified.
    Mr. Woodall. Ms. Donati, I was really interested in what 
you said to the chairman, that you could flip the switch 
tomorrow because--I don't want to misquote you--something to 
the effect of, we are actually training our folks for what our 
customers demand, so we are just backwards training to meet FAA 
requirements. But if we get rid of those outdated requirements, 
we will just keep teaching the skills that we are teaching, 
because these are the skills our customers demand.
    Is there something, as you look forward, that you are 
thinking--this fall, when the new standards come out--that you 
are going to have to improve your curriculum because you are 
not preparing folks properly for your customers' needs today?
    Ms. Donati. I would like to emphasize an apprenticeship 
program is much different than a 2-year or, you know, 4-year 
degree program. So we have the flexibility in our program. We 
don't have the high cost of operation. We don't have, you know, 
sheet metal stations and painting labs and welding. So, in that 
sense, we can quickly adapt to what the FAA needs us to teach.
    We are teaching everything in the curriculum to meet the 
certification of the apprenticeship program. But if there was 
anything that they would introduce that we are not currently 
teaching now, we just add that into their time with us.
    So again, dope and fabric, we are teaching it, but we are 
not--we don't have a station designated for that. So, 
therefore, we don't have to have the expense of updating our 
equipment.
    Mr. Woodall. Mr. Neely, because we are focused on safety, 
and I do believe you care more about your customers' safety 
than any of us on the dais do, what is it that you expect to 
see this fall, in terms of a new Government training standard, 
that you are not training your current mechanics and 
maintenance personnel up to that standard today?
    Mr. Neely. It works better if I push the button.
    So you are absolutely right, we are focused like a laser 
beam, as the saying goes, on our customers' safety and our 
employees' safety, quite frankly. The two go hand in hand.
    We do have extensive, in-house training capabilities. We 
have an on-the-job training facility that we built over the 
last number of years that has real Gulfstream aircraft in them, 
modern Gulfstream aircraft, where new hires and more 
experienced workers can come in, update their skills, do 
recurrent training, et cetera.
    So we are--you are right, we are already doing, for our own 
employees, all of the work that we think they need to have the 
right skill sets. We do that internally, we do that with our 
partners at Flight Safety, which is a training organization we 
use both for pilots and for, obviously, our maintenance 
personnel.
    I mean there is certainly a role for--clearly, there is a 
role for the FAA and regulations related to that training, and 
we very much look forward to seeing the new regulations, and 
hopefully it allows for a lot more flexibility.
    Mr. Woodall. And tell me about that role, because I think 
there is, clearly, a role for the FAA in terms of safety. But 
you are not going to allow an unqualified mechanic to be on 
your line. Delta is not going to allow--if you come to Delta, 
and you are not prepared, Mr. McDermott is going to train you 
up or he is going to move you on. I am trying to understand 
what the benefit is, what the value add is of 60 years of 
Government stumbling down the pavement on promulgating new 
training standards.
    Of course, in 1940 this was a conversation, and 1950, and 
1960. But in 2020, you all have to be ahead of us. As good as 
our chairman is, you have to be moving faster than we are. I am 
trying to understand if our role needs to continue to be to set 
a floor of standards, or if our role needs to be to set some 
safety standards for an airline that then you all will hire, 
and your training partners will train to meet those globally, 
not line by line.
    Mr. Neely. Right. I think the--you know, the--this concept 
of having the safety regulations that are more flexible and 
less detailed, prescriptive, I think there is actually some 
precedent in that, and some of the other parts of the FAA. 
There is a lot of benefit to that, because it allows the FAA 
themselves to be a lot more nimble, ensuring that their 
people--that, you know, that are part of the team that we are 
part of, we--Mr. McDermott, myself, Gulfstream, the FAA, et 
cetera--for overall safety.
    But that flexibility, I think, is key, because technology--
as you pointed out, technology is moving at the speed of light 
these days, and that is especially true on the maintenance side 
of the airplanes. No doubt about it.
    Mr. Woodall. Mr. Chairman, if you have had a hearing with 
two finer Georgia companies represented, I can't remember when 
it was. So thank you for doing that today.
    Mr. Larsen. For the record, so noted.
    I don't think 2\1/2\ hours exhausted this subject, so I do 
think there is more work to do.
    I think you have outlined very well a good curriculum for 
the FAA and Ms. Lang to follow up on, as well. And we will look 
forward to tracking the progress of the rule, as well as some 
of these initiatives we discussed today.
    I see no further questions from members of the 
subcommittee. And, seeing none, I want to thank each of the 
witnesses today for your testimony. Your contribution to 
today's discussion was very informative, it was very helpful.
    I ask unanimous consent the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    If Members have nothing else to add, the subcommittee 
stands adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              

   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Larsen, for calling today's hearing on the outlook 
for the workforce of women and men who build airplanes and those who 
maintain them.
    Challenges in sustaining this workforce are looming, if not already 
upon us. According to Federal Aviation Administration (FAA) data, half 
of the 330,000 mechanics and repairmen in the United States were 
between 50 and 70 years old at the end of 2018. And the industry 
anticipates a need for 193,000 new mechanics and technicians in North 
America over the next 20 years.
    The current generation of airplanes is extraordinarily complex. 
There are between 60 and 70 miles of electrical wire in a single Boeing 
787. The Airbus A350 performed the world's first fully automated 
takeoff last month. Gulfstream's G650 jet is built using significantly 
different manufacturing techniques than previous designs, which 
required the company to provide specialized training to manufacturing 
workers.
    And U.S. firms' global competition is intense and unyielding. The 
transport airplane market is essentially a duopoly between Boeing and 
Airbus, but China is resolute about entering that market with serious 
contenders in every size category except the largest airplanes over the 
next 20 years. French, Canadian, and Brazilian firms compete with 
business jet manufacturers in the United States, including Gulfstream, 
which is represented on our second panel.
    If the government and industry don't take the right steps now to 
prepare the next generation of aerospace workers in the United States, 
there's a new generation in multiple other countries ready to assume 
our mantle of the world's leader in aviation innovation.
    Data reflecting a shortfall between the supply of new workers and 
the industry's demand for them is the canary in the coal mine. 
According to the Government Accountability Office (GAO), the Labor 
Department predicts roughly 11,800 job openings per year from 2018 
through 2028 for mechanics and technicians, but the FAA certificated 
only about 8,600 per year over the last four years.
    This is also a decidedly non-diverse workforce in many respects. 
For example, according to the GAO, only three percent of aviation 
maintenance workers with FAA certificates are women. In order to expand 
the pipeline and meet the growing industry demand for FAA-certificated 
workers, we can and must do better.
    I look forward to hearing from today's witnesses regarding what 
this Committee can do to foster the education, training, and hiring of 
the next generation of aerospace workers--and to ensure that women, 
people of color, and other minority groups are amply represented. 
However, rolling back training requirements for mechanics is not on the 
table.
    Before I conclude, let me just say that I expect today's discussion 
will also touch on the supply of airline pilots, even though that is 
not the intended focus of this hearing. To the extent there is a 
shortage of qualified airline pilots, the airlines are stepping up to 
resolve it. As recently as five years ago, regional airlines were 
paying new pilots unsustainably low wages: as little as $20,000 per 
year, according to a 2017 report by the Department of Transportation 
Inspector General. The first officer of Colgan flight 3407, which 
crashed near Buffalo in 2009, 11 years ago tomorrow, earned just 
$15,800 the year before the accident and was recorded by the cockpit 
voice recorder just before the crash saying ``that her husband had 
earned more in one weekend of military drill exercises than she earned 
in an entire pay cycle.''
    But the airlines have recognized that very few young people will 
take on a debt of as much as $250,000 for college and pilot training to 
make just $20,000 per year. Indeed, Republic Airways, which is 
represented on the second panel, pays new first officers a base salary 
of approximately $41,000 per year.
    We now have the strongest airline pilot training standards in 
history and in the world. And airlines are finally starting to pay new 
pilots a salary commensurate with their professional responsibilities. 
This is good news and something we want to encourage.
    Thank you, Chair Larsen, and I yield back.

                                 <F-dash>
 Letter of February 11, 2020, from Christian A. Klein, Executive Vice 
 President, Aeronautical Repair Station Association, Submitted for the 
                       Record by Hon. Rick Larsen
           Aeronautical Repair Station Association,
                                    121 North Henry Street,
                      Alexandria, VA 22314-2903, February 11, 2020.
The Honorable Rick Larsen,
Chairman,
Aviation Subcommittee, U.S. House of Representatives, Washington, DC.
The Honorable Garret Graves,
Ranking Member,
Aviation Subcommittee, U.S. House of Representatives, Washington, DC.

    Dear Chairman Larsen and Ranking Member Graves:
    The Aeronautical Repair Station Association (ARSA) commends the 
subcommittee for holding today's hearing on aviation workforce 
challenges, which represent a significant threat to the vitality of all 
sectors of the U.S. aviation industry.
    ARSA is the trade association for the global aviation maintenance 
industry, which employs more than 288,000 Americans in all 50 states 
and contributes more than $50 billion each year to the U.S. economy. A 
state-by-state overview of the industry's employment and economic 
impact is available at arsa.org/news-media/economic-data.
    While ARSA's core members are companies certificated by the FAA and 
other safety regulators to perform work on civil aviation products and 
articles, our membership also includes manufacturers, airlines, 
industry service providers, educators and others with an interest in 
regulatory and legislative issues affecting the maintenance sector.
                               Background
    The U.S. aviation industry is facing a technician shortage that 
threatens to undermine the growth and competitiveness of one of the 
most important sectors of our economy. More than two-thirds of U.S. 
companies responding to ARSA's 2019 member survey reported vacant 
technician positions, a total of 4,615 openings. Those empty positions 
have real consequences: increasing time to complete work, driving up 
overtime and training costs and preventing new business development. 
Based on that data, ARSA projects the technician shortage is costing 
the U.S. aviation maintenance industry $118.416 million per month 
($1.421 billion per year) in lost economic opportunity while well-
paying jobs in a growing, high-tech global industry remain vacant.
    Underscoring the long-term challenge, the Aviation Technician 
Education Council projects that the mechanic population will decrease 
five percent in the next 15 years and that new entrants make up just 
two percent of the technician workforce annually, while 30 percent is 
at or near retirement age. Underscoring that latter point, a Government 
Accountability Office (GAO) report requested by Congress and released 
on Feb. 6, found that more than half of the maintenance technicians 
certificated by the FAA as of December 2018 were between 50 and 70 
years old. Similarly, Boeing recently projected that North America will 
require 193,000 new technicians over the next 20 years.
    The 2018 Federal Aviation Administration (FAA) Reauthorization Act 
of 2018 (Pub. L. No. 115-254) (``the act'' or ``the law'') included 
many important provisions designed to address workforce challenges 
confronting both the aviation industry and the FAA itself. We commend 
the subcommittee for recognizing the problem during the reauthorization 
process and making workforce a priority in the bill. ARSA appreciates 
that the new law gave the FAA a sizeable ``to-do'' list and that the 
agency is navigating an important and high-profile safety-related 
investigation. However, given that neither the agency nor the industry 
can function effectively without well-trained and capable employees, we 
are frustrated by the FAA's slowness in implementing key provisions of 
the law. It is imperative that the subcommittee keep pressure on to 
ensure the FAA accomplishes its workforce-related tasks. ARSA considers 
the following to be among the most important.
         Aviation Technician and Pilot Workforce Grant Programs
    Sec. 625 of the act directed the Department of Transportation (DOT) 
to establish grant programs to help recruit and train aviation 
maintenance technicians and educate pilots. The programs enjoy broad, 
bipartisan support on Capitol Hill and throughout the industry. A 
letter to House appropriators in support of including full funding in 
the FY 2020 Transportation, Housing and Urban Development and Related 
Agencies (T-HUD) appropriations bill was signed by 50 House members, 
including more than 20 from the House Aviation Subcommittee. S. 2506, 
the 115th Congress Senate bill that formed the basis for the technician 
program, attracted 25 cosponsors representing both parties; H.R. 5701, 
the House companion bill, had 24. More than 40 national and state level 
aviation organizations are involved in our coalition to secure funding 
for the new grant programs.
    The technician and pilot grant programs are each authorized at $5 
million per year for fiscal years 2019 to 2023. In a significant and 
positive development, Congress provided full funding for the programs 
as part of the FY 2020 appropriations process. However, 
disappointingly, the FAA has not yet initiated the grant programs. That 
implementation delay is unacceptable given the current impact of the 
technician shortage and predictions that it is only going to get worse.
    The Sec. 625 grant program confronts the challenge by incentivizing 
collaboration among businesses, labor organizations, schools and state 
and local governmental entities. We urge the subcommittee to request 
the agency rapidly implement the programs so that grant applications 
can be received in late winter or spring of 2020 and grants can be 
awarded this summer, prior to the start of the 2020-21 academic year. 
Each day of inaction represents a lost opportunity to collectively 
confront a problem with major consequences for the nation's aviation 
system.
             Enhancing the Value of Repairman Certificates
    Sec. 582 of the act directed the FAA administrator to task the 
agency's Aviation Rulemaking Advisory Committee (ARAC) with ``making 
recommendations with respect to the regulatory and policy changes . . . 
to allow a repairman certificate issued under section 65.101 of title 
14, Code of Federal Regulations, to be portable from one employing 
certificate holder to another.'' The law states that the administrator 
must take appropriate action within one year of receiving the 
recommendations.
    Under current regulations (14 CFR part 65, subpart E), individuals 
employed by an FAA-certificated repair station or air carrier may apply 
for and obtain a repairman certificate allowing him or her to supervise 
and/or approve for return to service the maintenance, preventive 
maintenance, or alteration of civil aviation aircraft or aircraft 
components. The repairman certificate differs from the airframe and/or 
powerplant (A&P) mechanic certificate issued under part 65, subpart D 
in that it only qualifies the individual to work under an existing 
repair station or air carrier certificate, whereas an A&P mechanic can 
perform, supervise and approve work under his or her own authority.
    When the repairman leaves the employ of the endorsing repair 
station or air carrier, the certificate must be surrendered and the 
individual must reapply with a recommendation from his or her new 
employer. Not only does the individual's certificate not follow him or 
her into the new position--which in some cases is true even when moving 
to another role within the same company--there is no opportunity to 
speed the application process based on previously holding the 
certificate. The current rules undermine labor mobility, create 
unnecessary regulatory burdens for the individual and employer, and are 
an inefficient use of agency resources because regulators must process 
new applications each time qualified individuals move from one job to 
another. Making repairman certificates portable would enhance the value 
of the credential and encourage more individuals to seek it.
    It is important to note that ARSA is not proposing to alter the 
requirement that repairmen must work under an employing certificate 
holder's quality system, nor to eliminate the requirement that repair 
stations and air carriers ensure the individual be qualified to 
exercise the privileges of the repairman certificate by being capable 
of performing any tasks assigned. Our hope is that the ARAC 
recommendations will result in improvements to part 65 that better 
recognize the varied (and constantly evolving) skills and knowledge 
required in the aviation maintenance industry, enhance the value of the 
certificate for the technicians who earn it, and increase efficiency in 
the certification process to the benefit of workers, employers and the 
FAA itself.
    However, more than a year after enactment, the task has not been 
assigned to ARAC. We appreciate that the FAA is working to fulfill many 
complex directives; however, the purpose of ARAC is to leverage 
stakeholder expertise to help support the agency's safety and oversight 
mission. Assigning tasks to ARAC consumes comparatively few resources 
(particularly given that ARSA has sent the agency a draft task that 
achieves the objectives of the law) and puts the onus on ARAC members 
to initially fulfill FAA's obligation under the act. We hope the 
subcommittee will urge the agency to expeditiously initiate this task.
                     FAA Safety Workforce Training
    Recognizing that a sufficient number of well-trained FAA personnel 
is also essential to a safe and efficient industry, Sec. 231 of the act 
directed the Administrator to review and revise the agency's safety 
workforce training strategy to ensure, inter alia, that it ``seeks 
knowledge-sharing opportunities between the FAA and the aviation 
industry in new technologies, equipment and systems, best practices, 
and other areas of interest related to safety oversight''.
    ARSA views this provision of the act as a significant opportunity 
to improve FAA operations. Our members are constantly frustrated by a 
lack of understanding within the FAA's own workforce about the plain 
meaning of regulations. This lack of basic knowledge leads to 
inconsistency between rules and guidance and in enforcement from 
inspector to inspector and region to region. That, in turn, undermines 
efficiency, compliance and confidence.
    In addition to creating opportunities for a better-trained FAA 
workforce, if properly implemented, Sec. 231 could also enhance 
industry access to FAA training so that regulators and certificate 
holders are trained to the same standards. In furtherance of this 
effort, ARSA has urged the executive directors of the Flight Standards 
and Aircraft Certification Services to develop criteria for determining 
whether FAA Academy training will be accessible to non-FAA attendees. 
ARSA has also recommended that the FAA accept external training 
providers to facilitate the knowledge sharing between the agency and 
industry contemplated by the act.
    We urge the subcommittee to make improving FAA workforce training 
an ongoing priority.
                Updating Technician Education Standards
    Sec. 624(a) directed the FAA to issue a final rule within 180 days 
of enactment to modernize the schools certificated by the FAA under 14 
CFR part 147 to train aviation mechanics. Sec. 624(b) further directs 
the agency to coordinate with stakeholders to develop and publish 
guidance or model curricula for AMT schools ``to ensure workforce 
readiness for industry needs.''
    Part 147 desperately needs updating and this provision enjoyed 
broad industry support. Frankly, it is unconscionable that curricula 
designed to train mechanics for jobs in the rapidly evolving aviation 
sector are five decades old. These ossified, out-of-date standards make 
it more difficult for educators to teach, for students to learn and for 
businesses to find capable workers. Indeed, a recent ARSA survey found 
that it takes repair stations an average of nine months to make a 
technician educated by a part 147 school a profitable employee (with 
some ARSA members saying that it takes as long as two years).
    In furtherance of the act's directive, FAA issued a Supplemental 
Notice of Proposed Rulemaking (SNPRM) related to its part 147 
rulemaking on April 16, 2019. However, as reflected by industry 
comments on the SNPRM that ARSA joined, the FAA's proposal to update 
the rules falls far short of needs. ARSA and its allies are asking the 
agency to reconsider its overly prescriptive policies, to adopt an 
outcomes-based approach for dual enrollment programs and to give 
deference to Department of Education requirements in matters concerning 
the quality of education.
    Despite the broad recognition that part 147 is in desperate need of 
overhaul, the FAA has not yet issued a final rule. The introduction of 
the Promoting Aviation Regulations for Technical Training (PARTT) 147 
Act (H.R. 5427/S. 3043) by a bipartisan group of lawmakers last year is 
a reflection of the frustration on Capitol Hill and within the industry 
about FAA's inaction. The PARTT 147 Act not only directs the agency to 
issue new technician school regulations within 90 days of enactment, 
but would also establish specific certification, operational and 
quality control requirements to improve part 147.
    We urge support for the PARTT 147 Act and encourage the 
subcommittee to ensure that FAA rapidly complies with Congress's 
mandate to update part 147 to reflect 21st century industry needs and 
learning tools.
                     Workforce-Related GAO Reports
    We were pleased that the act requested several GAO reports on 
workforce issues. Specifically:
    <bullet>  Sec. 232 directed GAO to assess FAA Office of Aviation 
Safety workforce and training needs, including reviewing ``safety 
inspector and aviation safety engineer hiring, training, and recurrent 
training requirements'' and ways FAA can work with industry and labor 
to establish knowledge sharing opportunities.
    <bullet>  Sec. 567 directed GAO to study, inter alia, FAA's long-
term workforce and training needs, skills and qualifications needed by 
FAA workforce, and opportunities for knowledge sharing between FAA and 
industry.
    <bullet>  Sec. 622 directed GAO to study, inter alia, the current 
and future supply of aviation and aerospace workers, factors and 
barriers influencing supply, best practices for recruitment and 
retention.
    <bullet>  Sec. 624(e) directed GAO to conduct a study on 
maintenance industry technical workers, including analysis of Standard 
Occupational Classification system, Federal employment classification, 
impact of regulations, recommendations on how FAA regs and policies 
could be improved, ways to improve coordination between business, 
schools and government, resources for training. This report was 
released on Feb. 6. It recommends that the FAA take steps to use 
existing agency data and coordinate with other federal agencies to 
identify and gather the information the FAA needs to measure progress 
and target resources toward its goal of promoting a robust, qualified, 
and diverse aviation maintenance workforce.

    Since enactment, ARSA, its members and allies have been contacted 
by GAO personnel involved in these and other reports. We look forward 
to their completion, seeing what insights they provide into FAA and 
industry workforce issues and working with the subcommittee to use the 
information to shape future policy.
                  Workforce-Related Stakeholder Panels
    Sec. 602 of the act directed Administrator to establish a Youth 
Access to American Jobs in Aviation Task Force. Similarly, Sec. 612 
directs the Administrator to establish a Women in Aviation Advisory 
Board. Acting according to the Federal Advisory Committee Act, the FAA 
solicited and received nominations to each body during the fall of 
2019. According to agency sources, FAA received more than 300 
applications--a sign of the high-level of interest in such industry-
government collaboration--and the FAA is working with the Department of 
Transportation to vet candidates. ARSA believes that both initiatives 
will help identify opportunities to grow the aviation workforce and 
looks forward to engaging with the agency and other industry 
stakeholders to make them successful.
                               Conclusion
    We commend the subcommittee for making workforce a priority in the 
recent FAA bill and for maintaining its focus in this area. If properly 
implemented, the workforce mandates will do much to position the agency 
and industry for long-term success. We look forward to continuing to 
work with the subcommittee, the FAA and our industry partners to 
fulfill the law's objectives.
        Sincerely,
                                        Christian A. Klein,
                                          Executive Vice President.

cc: All members of the House Transportation & Infrastructure Committee

                                 <F-dash>
 Statement of the Aircraft Mechanics Fraternal Association, Submitted 
                   for the Record by Hon. Rick Larsen
    The Aircraft Mechanics Fraternal Association (AMFA) would like to 
thank Chairman Larsen for bringing attention to the important issues 
regarding America's future aircraft maintenance workforce via this 
hearing. AMFA is a craft-specific labor union that represents aircraft 
mechanics at several airlines and advocates for the craft as a whole.
    We would like to begin our comments by echoing Chairman Larsen's 
astute questioning of the Federal Aviation Administration (FAA) 
regarding how they plan to approach a common effort.
    AMFA is concerned that without the FAA directly involved in the 
effort, various segments of stakeholders will develop individual 
strategies towards solving individual problems rather than working 
together towards a holistic solution that solves not only a recruitment 
issue, but also the lack of diversity and possible barriers of entry to 
aviation careers. An individual corporation developing a workforce 
plan, for instance, is not being criticized here; however, if the 
solution is solely individual, then we believe that any common effort 
will be thwarted, and the lack of a cohesive overarching plan will be 
supplanted for intense competition of what is left of the workforce.
    To accomplish this common effort, we believe that multiple 
stakeholders should be involved, as it is, in fact, a common effort. 
The FAA should engage and recruit people from academia, industry, and 
labor to help develop and maintain solutions that ensure the pipeline 
of aviation workers is always producing a highly trained and skilled 
workforce representative of the population as a whole. We suggest a 
steering committee made up of the above-mentioned stakeholders to 
advise the Administrator or his designee. Excluding stakeholders will 
likely lead to a lack of consensus at implementation, and could produce 
failure, whereas including all segments will help mitigate that risk.
    Like many of the Members of Congress who brought up Section 625 of 
the 2018 FAA Reauthorization Act, AMFA agrees that the program needs to 
be stood up as soon as possible. Along with a coalition of 
stakeholders, we were instrumental in helping to achieve this language 
and the appropriations necessary to accomplish it, and furthermore 
believe this is an integral part of the common effort.
    Another issue brought up by various Members of Congress was the 
lack of an updated Part 147 and the timeframe to accomplish a new rule. 
AMFA agrees that it has taken far too long to produce this rule, and 
therefore supports The Promoting Aviation Regulations for Technical 
Training (PARTT) 147 Act (S.3043/H.R.5427). It is difficult to 
understand how we plan to address workforce pipeline issues in a timely 
manner when the pathway that is Part 147 schools must sit idly by in 
anticipation of a rule that has been delayed for years. The proposed 
legislation is a direct replacement and was a collaboration of 
academia, industry, and labor, and will allow our Part 147 schools the 
nimbleness they require to produce a highly educated workforce while 
ensuring proper FAA oversight.
    We are growing concerned that there is a ``wait-and-see'' approach 
being taken on this issue, and although we understand and appreciate a 
deliberative approach, one must ask themselves how much further behind 
in fixing the workforce pipeline we will become if the FAA rule is 
incompatible with what is actually needed. We ask all Members of 
Congress to become familiar with and support The Promoting Aviation 
Regulations for Technical Training (PARTT) 147 Act (S.3043/H.R.5427).
    Finally, as the FAA goes about researching possible solutions, 
there is no question that the FAA should seek out proven methods and 
best practices from other industries; however, we posit that they 
should also think outside of the box and engage a suite of solutions 
that can help serve the common effort. One such program that should be 
considered is chooseaerospace.org, a collaboration of academia, 
industry, and labor that is attempting to find solutions concerning the 
aircraft mechanic workforce and related pipeline issues. They are in 
the process of conducting research that will help us understand what 
motivates students to choose an aerospace career, and ultimately want 
to provide guidance and best practices to schools and other 
institutions that have an influence over young people to help them 
choose aircraft maintenance as a career.
    We look forward to the continuation of discussion regarding this 
topic and again thank the Chairman for conducting the hearing.

                                 <F-dash>
Statement of Mark Baker, President and CEO, Aircraft Owners and Pilots 
       Association, Submitted for the Record by Hon. Rick Larsen
    Thank you for the opportunity to provide the Aircraft Owners and 
Pilots Association's (AOPA) perspectives to the Aviation Subcommittee 
hearing on ``Looking Forward: The Future of America's Aviation 
Maintenance and Manufacturing Workforce.''
    AOPA represents more than 300,000 of America's pilots and aviation 
enthusiasts. We were founded in 1939 with the simple mission: to give a 
united voice to what was then called ``miscellaneous aviation.'' 
Through the decades, we have been faithful to our core missions--
promoting safety, preserving the freedom to fly and building the next 
generation of pilots.
    General aviation generates over $219 billion in total economic 
output, supports 1.1 million jobs, and includes a network of thousands 
of airports that connect communities across the nation. According to 
FAA data, there are over 633,317 active private pilots, flying 25 
million fight hours in over 200,000 aircraft every year in the United 
States.
         Pilot and Aviation Technician Workforce Grant Programs
    Getting the next generation of Americans interested in aviation and 
aerospace is a key component of the aviation industry's future. 
Boeing's 2019 Pilot & Technician Outlook for aviation jobs projects 
that 804,000 new civil aviation pilots, 769,000 new maintenance 
technicians and 914,000 new cabin crew will be needed to operate and 
maintain the global aircraft fleet over the next 20 years. In North 
America alone, Boeing suggests 212,000 new pilots and 193,000 new 
technicians will be needed over the next two decades.
    While the number of pilot certificates issued by the FAA has 
decreased more than 60 percent since 1980, this mismatch of supply and 
demand offers a tremendous opportunity for students to pursue aviation 
careers, including aviation opportunities in the military. This will be 
a formidable challenge and one we must confront together--industry and 
government.
    Congress, and this subcommittee specifically, recognized the need 
to support aviation workforce development programs by authorizing two 
new grant programs under Section 625 of the Federal Aviation 
Administration Reauthorization Act of 2018 (PL115-254) to recruit and 
train the next generation of pilots and aerospace workers. This is an 
important provision intended to introduce high school students and 
others to STEM aviation education and opportunities, as well as 
training in aviation and aerospace skills. This issue is a top priority 
for AOPA.
    Most people that aspire to become aviators start in general 
aviation, so it is vital that we collaborate on efforts to ensure that 
this pipeline remains open to all. The new FAA Aircraft Pilots 
Workforce Development Grant Program would support the creation and 
delivery of curriculum designed to provide high school students with 
meaningful science, technology, engineering, math and aviation 
education and encouraging our nation's youth to become the next 
generation of commercial, general aviation, drone or military pilots. 
The aviation technical workforce grant program includes scholarships, 
apprenticeships, establishing new training programs, purchasing 
equipment for schools and supporting career transition for members of 
the armed forces.
    We were pleased Congress provided full funding in FY2020 for both 
grant programs under the FY2020 Further Consolidated Appropriations Act 
(P.L. 116-93). We hope that these grant programs will continue to be 
funded at their full authorized levels over the next several years to 
help ensure the future of our nation's aviation industry will have the 
pilots and aviation technical workforce needed to meet the growing 
demand for a well-trained aviation workforce.
               AOPA Efforts to Develop Aviation Workforce
    AOPA has taken a leadership role in developing our future aviation 
workforce by getting young people interested in aviation. As the 
world's largest aviation community, AOPA is building aviation STEM 
curriculum for high schools across America. By providing high-quality 
STEM-based aviation education to high school students nationwide, AOPA 
is opening the door to aviation careers for thousands of teens.
    We are creating these courses as part of two career and technical 
education (CTE) pathways: pilot (manned aircraft) and unmanned aircraft 
systems (drones). Each pathway will be four years in length, and 
schools can decide to implement one or more complete pathways, or 
select individual courses to use as standalone electives.
    The courses are designed to capture the imagination and give 
students from diverse backgrounds the tools to pursue advanced 
education and careers in aviation fields. Working with professional 
instructional designers, AOPA is currently offering three years of a 
four-year high school aviation STEM program. The fourth year of the 
program is currently in development.
    In the current 2019-2020 academic year, there are more than 5,000 
students using the AOPA curriculum in more than 160 high schools across 
34 states. Participating students represent a diverse group of American 
youth, including approximately 22 percent females and 37 percent people 
of color. These students attend schools of all sizes in rural, 
suburban, and urban settings.
    When complete, the program will be the first of its kind, offering 
students comprehensive four-year aviation study options that are 
aligned to rigorous math and science standards, including Next 
Generation Science Standards (NGSS) and Common Core standards used in 
many states nationwide.
    In addition, the annual AOPA High School Aviation STEM Symposium 
brings dedicated educators from around the nation for two full days of 
sharing insights, ideas, and best practices for starting and building 
aviation STEM programs. This Symposium is the ONLY high school event in 
the nation that specifically targets aviation and aerospace content and 
it is a great opportunity for educators and administrators to discover 
how they can prepare students for success in these exciting and well-
paying careers.
    Hundreds of educators from across the country participated in the 
2019 Symposium and the 2020 Symposium is already scheduled for November 
16-17 at the Hyatt Regency at the Orlando International Airport in 
Florida, where participants will have the opportunity to learn more 
about preparing students to fill the ecosystem of aviation-related STEM 
careers available in the U.S. military services, airlines, and at 
airports nationwide.
    AOPA's goal is to make our curriculum available to the twenty-five 
thousand high schools across the country. While the interest in our 
curriculum has been overwhelming, we cannot do it alone. Funding the 
FAA Aircraft Pilots Workforce Development Grant Program mandated by 
Section 625 of the FAA Reauthorization of 2018, Public Law 115-254 will 
help but we need to do more.
    We look forward to working with the Subcommittee and others 
throughout our industry to ensure that high schools who want to teach 
students about aviation and all that if offers actually have that 
opportunity.
                     AOPA High School Scholarships
    In addition to the AOPA High School Initiative, a total of $1 
million in AOPA scholarships were awarded in 2019 to exceptional, 
aviation-minded students age 15 to 18, and teachers dedicated to 
advancing aviation education in their classrooms.
    Last year, AOPA announced 80 high school students and 20 teachers 
won scholarships of $10,000 each as part of the 2019 AOPA You Can Fly 
High School Flight Training Scholarship program.
    Scholarship recipients can use the money for direct flight training 
expenses to pursue a primary pilot certificate. They must also complete 
a flight training milestone, achieving either solo or earning a primary 
pilot certificate, within one year of receiving a scholarship.
                 Looking Forward on Aviation Workforce
    While the FAA Reauthorization Act of 2018, Public Law 115-254 
provides a five-year authorization, each sector of aviation, civil, 
commercial, and military will still face significant challenges in 
preparing for the future. There are hundreds of programs and projects 
being undertaken today to address these challenges whether they be 
workforce, technology, environmental, commercial space, air redesign, 
unmanned aircraft, and several others. More coordination and knowledge 
sharing are seriously warranted in these areas.
    Private and governmental organizations working together to address 
the development and sustainability of the aviation workforce, 
conducting and coordinating research activities and developing new 
aviation materials, training programs, and procedures, and leveraging 
the knowledge of organizations and federal agencies are all vital to 
protect and grow the aviation industry.
            National Center for the Advancement of Aviation
    As the subcommittee is aware, in order to meet bold challenges, we 
need bold initiatives. Recognizing this, I am hopeful the subcommittee 
will work with Senator Jim Inhofe (R-OK) and Senator Tammy Duckworth 
(D-IL) and others to establish a National Center for the Advancement of 
Aviation. We strongly believe standing up such a center will facilitate 
cooperation, collaboration, and coordination across all sectors of 
aviation; civil, commercial, and military--and which is so desperately 
needed.
    A national aviation center would bring the industry together by 
fostering such things as programs that create a diverse and skilled 
aviation workforce, ensuring the deployment of STEM aviation 
educational opportunities for high school students, leveraging the 
sharing of new and emerging flight training methods, and conducting 
safety and economic data analysis. A national aviation center would do 
more to grow, develop, and promote aviation and bring the needed and 
long overdue collaboration of our collective industry that is so vital 
to our nation's economy. We welcome the subcommittee's support for this 
proposal.
    Again, thank you for the opportunity to provide the Aircraft Owners 
and Pilots Association's perspectives on the future of our aviation 
workforce.

                                 <F-dash>
Letter of February 26, 2020, from Crystal Maguire, Executive Director, 
Aviation Technician Education Council, Submitted for the Record by Hon. 
                              Rick Larsen
             Aviation Technician Education Council,
                                                PO Box 234,
                                Jenks, OK 74037, February 26, 2020.
The Honorable Rick Larsen,
Chairman,
Aviation Subcommittee, U.S. House of Representatives, Washington, DC.
The Honorable Garret Graves,
Ranking Member,
Aviation Subcommittee, U.S. House of Representatives, Washington, DC.

Re: Statement for the Hearing Record, ``Looking Forward: The Future of 
America's Aviation Maintenance and Manufacturing Workforce'' before the 
U.S. House of Representatives Aviation Subcommittee

    Dear Chairman Larsen and Ranking Member Graves:
    On behalf of the aviation maintenance education community, thank 
you for your leadership and for providing a forum to discuss the 
workforce challenges facing our industry. Continued aviation growth is 
threatened by our ability to produce the qualified individuals required 
to support all industry sectors, including commercial flight, general 
aviation, business aviation, manufacturing, and repair. We appreciate 
the committee's work to highlight the issue and support proffered 
solutions to meet future workforce needs.
    The Aviation Technician Education Council (ATEC) represents 
aviation maintenance technical programs across the United States, 
including the 171 educational institutions holding a Federal Aviation 
Administration (FAA) Title 14 Code of Federal Regulations (CFR) part 
147 certificate, and the companies that employ their students. ``Part 
147'' schools supply 64% of the entering aviation mechanic workforce 
(the remaining 36% are individuals that obtain mechanic certification 
by virtue of civil or military experience) and work closely with 
industry partners to bring jobs to our local communities. Workforce 
development initiatives discussed at the Feb. 11 hearing, many of which 
are set forth in the 2018 Federal Aviation Administration (FAA) 
Reauthorization Act of 2018, directly impact our efforts to create 
future aviators in support of industry's growth trajectory.
    Our schools know first-hand the increasing demand for aviation 
mechanics, and the opportunities that exist for those that choose a 
career in aviation maintenance. Our students are in school for 
relatively short periods, 21 months on average. Sixty percent of 
graduates are employed upon graduation. Alumni enter high-paying 
careers, with an average starting annual salary of $45,000. And they 
leave school with little debt, tuition rates across the system average 
$16,351 per year.
    While student placement and return on investment is high, aviation 
maintenance student populations have stayed relatively flat over the 
last few decades, and only three out of every five seats available in 
aviation mechanic programs are filled. Schools report that the biggest 
barrier to growing our student population is finding qualified 
instructors--evidencing technical education's own workforce 
challenges--followed closely by career awareness. FAA regulatory 
burdens and lack of technical equipment was cited as the third and 
fourth leading impediments to program growth.
    ATEC supports recently passed and proposed legislative initiatives 
that would address several of these obstacles. The FAA Reauthorization 
Act included several workforce-related directives, most notably the 
establishment of a grant program to help recruit and train aviation 
maintenance technicians. The education community--in collaboration with 
our industry partners--is eager to take advantage of the opportunity 
and stands by to assist the FAA with program development and 
implementation. We ask members of the subcommittee to continue 
encouraging agency officials to rapidly implement the program so that 
we can put 2020 fiscal year dollars to work.
    The Promoting Service in Transportation Act (H.R. 5118), introduced 
by Representatives Rick Larsen (WA-2), Don Young (R-AK), and Angie 
Craig (MN-2), would help raise aviation career awareness, and 
ultimately get more would-be aviators in the workforce pipeline.
    The Promoting Aviation Regulations for Technical Training (PARTT) 
147 Act (H.R. 5427) would direct the FAA to modernize aviation 
maintenance curriculum, something our community desperately needs to 
make a more meaningful impact. Seeing no consequential regulatory 
relief in sight, the bill has broad support from a coalition of 
aviation groups. We ask you to schedule the PARTT 147 Act for committee 
markup, the next step towards giving schools the flexibility to better 
educate our students and prepare them for today's high-tech jobs in 
aviation.
    On behalf of aviation education, thank you for your consideration 
of these priorities, and for the opportunity to submit this statement 
for the record.
        Sincerely,
                                           Crystal Maguire,
                                                Executive Director.

                                 <F-dash>
 Statement of Ed Bolen, President and CEO, National Business Aviation 
       Association, Submitted for the Record by Hon. Rick Larsen
    Chairman Larsen, Ranking Member Graves, and members of the 
Subcommittee on Aviation thank you for holding this hearing to address 
the future of America's Aviation Maintenance and Manufacturing 
Workforce. On behalf of the National Business Aviation Association's 
(NBAA's) 11,000-member companies, we are pleased to provide this 
statement for the record.
    NBAA's members, many of which are small businesses, rely on 
business aircraft to meet some portion of their transportation 
challenges. Business aircraft provide connectivity to communities in 
nearly every Congressional district, many of which are not served by 
commercial airlines. While the airlines serve only around 500 airports, 
business aviation can reach 5,000.
    Business aviation is part of the general aviation industry, which 
includes all operations and manufacturing other than those supporting 
scheduled commercial air service or the military. Our industry supports 
nearly 1.2 million jobs and more than $240 billion in economic output. 
In 2018 alone, highly skilled American workers produced new aircraft 
and components worth more than $30 billion. Further, the U.S. civil 
aviation industry is a vital part of international trade, providing a 
$75 billion favorable balance of trade in 2018.
    However, for general aviation to continue growing and supporting 
communities, we must address the significant workforce challenges, 
including the growing shortage of pilots and technicians. According to 
the Boeing company outlook, 645,000 new commercial pilots and nearly 
100,000 new business aircraft pilots will be needed worldwide between 
2019 and 2038. In the maintenance sector, there is a projected 
worldwide demand for almost 770,000 new technicians over the next 20 
years.
    Another challenge we face is the aging pilot population, with the 
average age of commercial pilots at 51, and a mandatory retirement age 
of 65 for airline pilots, future demand will only increase. New 
entrants to the workforce are also not choosing aviation careers as 
they did in the past, and the supply of pilots has decreased by 30% 
since 1987.
    With the worldwide demand for air travel continuing to increase, we 
must come together and take bold actions that will enable the U.S. to 
maintain its role as the world leader in aviation. To help support 
those efforts, NBAA worked with Chairman Larsen, Congressman Don Young, 
and Congresswoman Angie Craig on the introduction of H.R. 5118, the 
Promoting Service in Transportation Act. This legislation would 
authorize the Department of Transportation to develop a series of 
broadcast, digital and print public service announcements to promote 
career opportunities and improve diversity in the transportation 
workforce.
    Through these public service announcements, we will raise awareness 
of careers across all modes of transportation, including aviation. 
There will also be synergies with the President's efforts to grow the 
STEM workforce and related educational opportunities. While momentum 
around the future STEM workforce is strong, aircraft pilot and aviation 
technician careers are often not considered by students. That is why 
the passage of H.R. 5118 is critical as it will help address these 
challenges by building linkages between STEM programs and the 
significant career opportunities for pilots and technicians.
    We also applaud the efforts of this Committee to secure passage of 
the FAA Reauthorization Act of 2018, which includes numerous workforce 
development initiatives. Specifically, the bill establishes grant 
programs to support the education of future aircraft pilots and the 
recruitment of much-needed aviation maintenance technicians. Both 
programs received the full $5 million in funding through this year's 
appropriations process, and we encourage the FAA to stand up the 
infrastructure to evaluate grant applications and begin awarding funds. 
We also support full funding of both programs next year as part of the 
FY2021 appropriations process.
    NBAA is leading several significant initiatives to attract the next 
generation of pilots and technicians to the general aviation industry. 
At our largest event, NBAA-BACE, which attracts nearly 26,000 
attendees, we host a ``Careers in Business Aviation Day'' that draws 
hundreds of students and provides three days of workforce development 
programming as part of the ``Collegiate Connect'' effort. During our 
most recent event, students heard from FAA Administrator Steve Dickson 
and leaders of the Perlan Project, which is responsible for record-
breaking high altitude glider flights.
    We continue these efforts at NBAA's regional events and targeted 
educational programs each year by offering student-focused programming 
to educate young people about the many business aviation career 
opportunities. Utilizing our events to introduce students to business 
aviation allows us to build networking opportunities and expand a 
dedicated mentoring program--all of which create valuable connections 
between students and industry professionals.
    Some of the most qualified potential business aviation employees 
are our dedicated military professionals that are transitioning to 
civilian careers. These individuals often have advanced technical 
training and can successfully move into rewarding general aviation 
careers. We are currently working with Hiring Our Heroes and the U.S. 
Air Force to increase awareness of business aviation career 
opportunities to members of the military.
    Finally, through NBAA's Young Professionals in Business Aviation 
group, we are using social media to highlight the positive personal and 
societal impact of a career in aviation. These efforts are paying off, 
with thousands of young people following and engaging with our YoPro 
Instagram and Facebook groups. We plan to leverage these social media 
opportunities with focused content for students in Business Aviation 
Insider, NBAA's print publication for the community.
    With the passage of the FAA Reauthorization bill and introduction 
of H.R. 5118, Congress has already shown strong leadership in 
addressing aviation workforce challenges. With rapidly advancing 
technology, including electric aircraft and unmanned systems, our 
industry is ready to grow; however, to be successful, we must all work 
to attract the next generation of employees. As the Subcommittee 
continues to bring stakeholders together in developing solutions to 
workforce challenges, NBAA looks forward to being part of the process 
and highlighting the importance of general aviation to the nation.

                                 <F-dash>
 Statement of Faye Malarkey Black, President and CEO, Regional Airline 
       Association, Submitted for the Record by Hon. Rick Larsen
    The Regional Airline Association (RAA) would like to express strong 
support for the February 11, 2020 Aviation Subcommittee hearing 
entitled, ``Looking Forward: The Future of America's Aviation 
Maintenance and Manufacturing Workforce'' and submits this statement 
for the record to inform the Committee on actions that the regional 
airline industry is taking to attract, recruit, and retain a robust 
aviation maintenance workforce.
    As you know, the U.S. aviation system drives $1.6 trillion in 
annual economic activity and supports 10.6 million jobs, with $446.8 
billion in earnings. Regional airlines play a critical role in 
upholding this system and operate 41 percent of all commercial airline 
departures and serve approximately 153 million passengers each year. In 
fact, fully 409 airports (about two-thirds of our nation's commercial 
airports) are too small to support air service from larger airlines 
with larger aircraft, yet still need reliable air service to connect 
with loved ones, business contacts, travel destinations and the global 
economy. For these 409 airports, regional airlines provide the only 
source of scheduled, commercial air service. Regional airlines 
therefore play a singular, critical role for smaller communities and 
this air service to smaller communities also supports the nation's 
economy writ large. In fact, regional airline service to the nation's 
smallest airports alone (non-hub and small hub) drives a conservatively 
estimated $134 billion in annual economic activity and supports more 
than 1 million jobs, with $36.4 billion in earnings.
    We applaud the committee for including an Aviation Workforce Title 
in the FAA Reauthorization Act of 2018. This title includes several 
initiatives that are critical for the advancement of the aviation 
maintenance profession, and we look forward to working with the 
Committee and FAA to implement those provisions.
 Regional Airlines are a Career Entry Point for Maintenance Technicians
    Our industry has focused a lot of attention on the pilot shortage, 
and rightly so; in recent years, this urgent issue has undermined the 
ability of our member airlines to continue serving some smaller 
communities. As we continue to work toward combatting this challenge, 
airlines also face an acute maintenance technician shortage. As the 
career entry point for many aviation maintenance technicians, regional 
airlines have high exposure to this workforce shortage.
    There is a missing generation of aircraft maintenance technicians 
in the United States. According to the Aviation Technician Education 
Council (ATEC) the mechanic population will decrease by five percent in 
the next 15 years and approximately 30 percent of the workforce is at 
or near retirement age today. At the same time, new entrants make up 
only two percent of the annual workforce. The Boeing 2019 Technician 
Forecast further highlighted the need for additional maintenance 
technicians and predicts the need for 193,000 new technicians over the 
next twenty years. Meanwhile, technicians continue to retire faster 
than they are being replaced, even without accounting for industry 
growth. Additionally, high-tech maintenance workers are needed across a 
host of industries. Aviation is competing with the automotive industry 
and the robotics industry to attract new technicians and in the face of 
this fierce competition, some existing workers are being drawn away 
from the aviation sector altogether.
    The financial health of the regional airline industry, but also the 
economic prosperity for the numerous small and rural communities that 
completely rely on our air service depends on our ability to reverse 
these trends and to recruit and support the next generation of 
maintenance technicians. A future with too few maintenance workers 
could bring similar impacts to those associated with the early stages 
of the pilot shortage, where an inability to staff all routes led to 
air service losses and reductions at hundreds of smaller U.S. 
communities.
    Unfortunately, vocational education has gone out of vogue in the 
U.S. over the past several decades. At the same time, aircraft 
maintenance has really evolved over the last 10-15 years, creating a 
more dynamic--and, in some ways, more complicated--workforce. Many 
technicians today are using computers as much as wrenches. As an 
industry, we must do more outreach with schools, helping to instill a 
sense of wonder about aviation and to get them to start thinking about 
a career in aviation maintenance. We need to differentiate A&P 
mechanics vs. repairmen vs. general maintenance staff and prioritize 
action accordingly. A technician plugging a laptop into an aircraft and 
analyzing data needs a different skillset than the mechanic using a 
wrench to affix a replacement part. Each of these jobs are important, 
and we need to recruit for all of them. To succeed on all levels, it is 
imperative that we reach populations who have not historically gone 
into aviation maintenance, including women and people of color. This 
win-win will help connect young people to outstanding jobs with a high 
return on investment. As the Subcommittee considers this challenge, I 
would like to share a few programs our member airlines have offered, to 
help address technician workforce challenges.
 Actions Taken by Regional Airlines to Attract Maintenance Technicians
    As the career entry point for many maintenance technicians, it is 
incumbent on the regional airline industry to create a talent pipeline. 
The pipeline must not only connect regional airlines with students who 
have shown an interest in joining a skills workforce by partnering with 
Aircraft Maintenance Technician (AMT) schools and vocation high 
schools, but it must also reach new populations by seeking to inspire 
those who have never considered aviation industry as a career 
destination for them. To attract the next generation, regional airlines 
are partnering with AMT schools, vocational high schools, and starting 
their own apprenticeship programs for recent high school graduates to 
create a talent pipeline. In addition to partnerships, some carriers 
take it a step further and offer apprenticeship programs for recent 
high school graduates who want to work in the industry but lack 
experience. In these programs, carriers follow a ``earn and learn'' 
career pathway model, which offers paid training along with pay and 
benefits that improve as the student progresses through their education 
and training courses. Carriers will also often pay for FAA testing. In 
the apprenticeship program, trainees work next to licensed airframe and 
powerplant professionals, getting important hands-on experience while 
maintaining in service aircraft. Upon completion, graduates will 
receive formal job offers as aviation maintenance technicians. Some of 
these apprenticeship programs have been formally recognized by the U.S. 
Department of Labor.
    Carriers have also set up transition programs for military 
personnel with aviation maintenance experience to help them get their 
A&P license so that they can use their skills and experience in 
civilian life. Veterans are highly regarded and sought after as 
employees because they are the best of the best, having worked on the 
world's most advanced aircraft and have demonstrated leadership and a 
strong work ethic throughout their military careers. These programs 
typically include a transition or signing bonus, paid training, 
training stipend, and free testing upon commitment to the carrier. A 
non-exhaustive sampling of RAA member outreach programs follows.
    One RAA member, Republic Airways, has launched LIFT Academy and you 
will hear more about that today. Another RAA member airline Envoy Air, 
has started an Apprenticeship Program, certified through DOL and 
TransPORTs, and is designing components of its Cadet programs to bring 
more AMTs into the pipeline. Envoy has also launched a military 
transition program, where the airline put AMTs through schools for 
training and licensing, pays for testing, and helps them purchase 
tools. Like many carriers, Envoy is also partnering with schools to get 
young people engaged in the career. RAA member Piedmont Airlines also 
highlights outreach as crucial and has worked with the MikeRoweWORKS 
Foundation, which aims to ``make work cool again'' by sponsoring Work 
Ethic Scholarships that recognizes the hardworking people across the 
country who keep the lights on, water running, air flowing and planes 
flying; in other words, the next generation of skilled workers. 
Piedmont and other members point to the aviation industry campaign 
``Choose Aerospace'' as undertaking some of the industry's most 
important work fostering interest in aerospace careers and noting the 
cross-industry participation that includes industry trade associations, 
airlines, labor unions and educational institutions and RAA endorses 
their determined approach.
    RAA member Horizon Air details several programs and notes the 
importance of formalizing partnerships with schools and offering 
tangible support such as scholarships. Horizon is also sponsoring job 
fairs and maintenance competitions as a means of reaching and sparking 
interest from young people.
    As part of these outreach programs, company maintenance employees 
volunteer their time to meet with students and share with them the 
work, techniques, and technology they use day to day. RAA member Cape 
Air emphasizes the importance of airlines supporting technician 
education materially, with donated aircraft and engine components to a 
partner technical school. Donating these materials helps to ensure that 
students have recent technology to study and train on. Cape Air has 
also created a paid internship program, where students shadow licensed 
Airframe and Powerplant professionals, providing them with an 
opportunity to see how their coursework is applied in the hanger. 
During these internships, students become familiar with the technology 
they will be working on after they have been awarded their airframe and 
powerplant licenses. Being an A&P mechanic is the first step for a lot 
of different paths in the company given the central role of technology 
in modern aircraft. For many carriers, flow is important and thoughtful 
programs have established pathways between technician education and 
airlines through preferred hiring agreements. In some cases, flow is 
also established between regional and mainline partners. These 
represent just a few examples of the industry-wide recruitment programs 
instituted by regional airlines. While programs vary from carrier to 
carrier, the overwhelming trend is one of outreach and support.
    Given the competition for talent, these programs and initiatives 
are built on a foundation of competitive pay that includes signing and 
retention bonuses; medical, dental, vision, and life insurance; 
retirement benefits; and flight benefits along with discounts for the 
employee and their family. Despite these comprehensive measures, 
ensuring sufficient maintenance personnel are available for airlines to 
attract remains challenging. To amplify the efficacy of individual 
airline programs and airline industry collective outreach, Congress, 
the FAA and aviation stakeholders must work together to advance key 
workforce measures that were advanced through your leadership in the 
FAA Reauthorization Act of 2018.
 Fully Fund and Implement the Aviation Technician and Pilot Workforce 
                             Grant Programs
    As you know, Section 625 of the FAA Reauthorization Bill created 
two new workforce development grant programs to help grow the 
technician and pilot workforce. The bill authorizes $5 million per year 
over five years to support stakeholder initiatives to recruit and train 
maintenance technicians and $5 million per year over five years to 
advance aviation curriculum in high schools to help address the pilot 
shortage. Now that these programs have been secured, the RAA hopes that 
the FAA will work with stakeholders to quickly stand up these programs.
    Additionally, it is critical for Congress and the FAA to continue 
investing in both of these programs over the course of the 
reauthorization; we hope the Administration and Congress will continue 
to prioritize funding to these grant programs and conduct appropriate 
oversight to ensure that they are implemented as intended. Importantly, 
the maintenance technician grant program requires an application to be 
jointly submitted by multiple stakeholders to further collaboration and 
help develop the talent pipeline. RAA wholeheartedly supports this 
approach, since collaborating with other stakeholders is one of the 
main strategies that regional airlines are deploying to address their 
workforce needs.
        RAA Urges Congress to Quickly Update Part 147 Curriculum
    As the industry focuses on recruiting and encouraging the next 
generation of maintenance technicians, RAA also urges Congress to 
ensure tomorrow's workers receive the appropriate training. A study by 
the Government Accountability Office in 2003 noted that certified 
programs today do not fully prepare A&P mechanics to work on 
technologically advanced commercial aircraft and emphasized that modern 
aircraft require a different set of skills than those being taught at 
aviation technician maintenance schools.
    In practice, outdated curricula in Part 147 aviation technician 
schools leads to an enormous skills gap. Airlines report that it takes 
over a year of on-the-job training to close the skills gap introduced 
by a lack of rudimentary skills demanded by today's modern industry. 
Section 624(a) of H.R. 302 (P.L. 115-254), the FAA Reauthorization Act 
of 2018, directed FAA to issue a final rule within 180 days of 
enactment to modernize Part 147 curricula standards for aviation 
mechanics, and Sec 624(b) further directs the agency to work with 
stakeholders to develop and publish guidance and model curricula for 
AMT schools so that classroom instruction and training reflect industry 
needs. Unfortunately, the FAA has not yet undertaken this work. While 
we recognize the constraints FAA faces in attempting to meet each 
deadline in this very comprehensive law, especially in view of a 
government shutdown last year, the supplemental notice of proposed 
rulemaking (SNPRM) published on April 16, 2019 does not match the 
urgency of the moment and fails to meet the needs of the industry.
    RAA, alongside ATEC, the Aeronautical Repair Station Association 
and other aviation stakeholders has urged the FAA to create an outcome-
based model for dual enrollment programs and completely defer to the 
Department of Education as it relates to concerns of quality of 
education through the accreditation process. It is our understanding 
that the FAA could publish a final rule towards the end of 2020 at the 
earliest; we hope it grants schools the appropriate flexibility to 
fully train students to current industry standards. Reflecting a desire 
to maintain congressional engagement on this issue, RAA joined many 
other aviation stakeholders in supporting the Promoting Aviation 
Regulations for Technical Training (PARTT) 147 Act, which was 
introduced on Dec. 12, 2019 by Congressman Young (R-AK) and would 
require FAA promulgation of community-draft language to replace the 
current part 147.
    Lack of progress on this issue has undermined industry efforts to 
maximize this talent pipeline. The FAA has placed a burden on employers 
to educate technicians who attended a part 147 school, further 
exacerbating the shortage by preventing companies from optimizing their 
workforce. The FAA must make aviation education a rulemaking priority 
and provide AMT schools with the flexibility to meet industry's demands 
for technicians who are proficient and adequately trained to maintain 
the modern aircraft our members operate.
                               Conclusion
    A healthy, reliable and safe aviation system is only possible with 
the collaboration and cooperation of all aviation stakeholders and the 
federal government. We must all work together to recruit, attract, and 
retain a robust maintenance technician workforce.
    The Regional Airline Association stands ready to support the 
Committee in its work to address the maintenance and pilot shortage 
while upholding the very highest level of safety across all workforce 
populations. Ultimately, successful resolution of these challenges is 
critical so that passengers from communities of all sizes can access 
the nation's air transportation network.
    Thank you for this opportunity to provide comments.
                                 <F-dash>
Statement of Airbus, Submitted for the Record by Hon. Garret Graves of 
                               Louisiana
                              FlightPath9
    In 2015, Airbus opened its first U.S.-based commercial aircraft 
manufacturing facility in Mobile, Alabama to assemble and deliver A320 
Family single-aisle aircraft. Airbus delivered its first aircraft in 
April 2016 (an A321 to JetBlue) and is currently producing at least 70 
A320 Family aircraft each year. In 2017, the company announced it would 
begin producing the A220 Family of aircraft in Mobile. Production of 
the first aircraft (an A220-300 destined for Delta Air Lines) began in 
2019 and will be delivered in Q3 2020. The facility will produce nearly 
50 aircraft a year by the middle of the decade. The Mobile production 
facility--a $1 billion investment--is part of Airbus' strategy to 
enhance its global competitiveness by meeting the growing needs of its 
customers in the United States and beyond. As the Airbus aircraft 
production rate grows, proportionately so does the number of employees 
at the site. In order to address its current and future workforce 
needs, Airbus has created partnerships with local education 
institutions, local industries and municipal and state governments.
    In 2018, Airbus and the State of Alabama, collaborated to create 
Flight Works Alabama, an aviation education center. This center will 
focus on career awareness, skills-based training, and workforce 
development delivery for the U.S. Gulf Coast. As a part of this 
initiative, FlightPath9 was designed, developed, and launched.
    FlightPath9 is a unique pre-employment training program for high 
school seniors created through a partnership between Flight Works 
Alabama and Airbus. Following the completion of training and high 
school graduation, participating high school seniors, enrolled at 
accredited schools in Mobile or Baldwin County, are guaranteed full-
time employment at the Airbus Final Assembly Line in Mobile. The ideal 
candidate has decided they will not attend college or enlist in the 
military but would prefer to begin a career and are committed to attend 
all classes throughout the program.
    Flight Works Alabama, a member of the National Coalition of 
Certification Centers (NC3), and through its partnership with Embry-
Riddle Aeronautical University, provides industry-recognized 
certifications in <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f3a79c9c9f80b3bb969a949b87">[email&#160;protected]</a>, Precision Measurement Instruments, 
Precision Electrical Termination, Multimeter, Structural Sheetmetal, 
and Mechanical and Electrical Torque. In addition, the students will 
receive skills-based training and certifications in safety, aviation 
basics, lean manufacturing, critical thinking skills, and leadership.
    FlightPath9's inaugural class of twenty-five attend class every 
Tuesday and Thursday evening from September to May. In order to provide 
the students the best atmosphere for success, Flight Works Alabama, 
with an array of community and industry partners, creates a safe 
workplace environment through providing real world applications inside 
the classroom. On day one, each student is issued a uniform including 
pocketless pants, t-shirts, steel-toe shoes, a bump-cap and FOD bag. 
Students are required to wear these uniforms and have their personal 
protective equipment on them at all times. Great work habits are 
introduced and enforced throughout the class time.
    To ensure the success of the students, Flight Works Alabama hired a 
``Success Coach''. A former educator from the local school system, our 
``Coach'' is the dedicated point of contact for the students, parents 
and school counselors. Not only does she assist in teaching basic math 
and comprehension during class as necessary, she also maintains an open 
line of communication with the students to understand any issues they 
may have in or outside of FligthPath9 class. Additionally, Flight Works 
Alabama has recruited and matched Airbus employee mentors to each 
student. Mentors attend classes, encourage the students, help them as 
they learn certain skills, and provide answers to questions students 
may have about their future workplace. As a result, when this class 
enters the workforce at Airbus they will have an enormous support 
group.
    The cost of the program is $7,550 per student. For the inaugural 
class, the cost of every student was funded by the federal Workforce 
Innovation & Opportunity Act legislation (WIOA), Airbus, and local 
school systems. There were no out-of-pocket expenses paid by the 
students or their families.
    This creative and innovative program is changing the lives of these 
students and their families along the Gulf Coast. Mr. Larry Mouton, 
Assistant Superintendent of Workforce Development and Career Technical 
Education, stated recently, ``At the Mobile County Public School 
System, we are always searching for new and innovative ways to prepare 
our students for successful careers. The FlightPath9 program answers 
this call and is the most impressive workforce development program I 
have seen in the last 10 years.''

                                 <F-dash>
  Letter of March 4, 2020, from Jordan G. Lyons, Associate Professor, 
    Louis Waller Endowed Professorship, Department of Professional 
 Aviation, Louisiana Tech University, Submitted for the Record by Hon. 
                       Garret Graves of Louisiana
                                                     March 4, 2020.
Hon. Garret Graves.
Ranking Member,
Subcommittee on Aviation, U.S. House of Representatives, Washington, 
        DC.
Hon. Rick Larsen.
Chairman,
Subcommittee on Aviation, U.S. House of Representatives, Washington, 
        DC.
    Greetings:
    Beginning in 1967, the Department of Professional Aviation at 
Louisiana Tech University currently offers Bachelor of Science (B.S.) 
degrees in Professional Aviation and Aviation Management. Like many 
collegiate aviation programs in the United States accredited through 
the Aviation Accreditation Board International (AABI), we are 
experiencing a high demand for our degree programs from both in-state 
and out-of-state students. For the past decade, Department resources 
have not needed to accommodate more than 60 new students in an academic 
year. However, the B.S. Professional Aviation program experienced a 
380% increase in applications from students intending to start in Fall 
2018. We believe this demand is likely attributed to industry needs, 
our AABI-accredited status, and the affordability of our degree 
programs. In response, a new selective admission policy was implemented 
in August 2017 to help our academic unit manage this growth.
    Our program admission policy helps us better ensure that all 
enrolled students can progress with limited interruptions to their 
flight training continuity. At Louisiana Tech, a maximum 10:1 student 
to flight instructor ratio yields efficient flight training continuity 
and a satisfactory level of safety and supervision. Therefore, the 
number of flight instructors available sets our Department's enrollment 
capacity each academic quarter. The ongoing challenge for our team is 
that many of our graduates working as flight instructors will leave 
Louisiana Tech within 12 months of graduation as first-year pay in the 
industry now exceeds $70,000. Also, graduates of our B.S. Professional 
Aviation program can enter the professional airlines sooner under our 
14 CFR Part 61.160 institutional authority.
    In the end, aviation employers are hiring our graduates almost as 
quickly as we can train them; however, we remain committed to safely 
training aviation professionals in support of their needs. We continue 
to enroll the maximum number of students each academic quarter based on 
our available flight instructor resources. However, any additional 
support from the Federal Aviation Administration in providing other 
Designated Pilot Examiners in our area or authorizing examining 
authority under 14 CFR Part 141 would be beneficial to our students. In 
doing so, our students could more efficiently gain the requisite 
aeronautical experience needed for employment after Louisiana Tech.
    Your support is appreciated.
        Very Respectfully,
                                       Mr. Jordan G. Lyons,
Associate Professor, Louis Waller Endowed Professorship, Department 
               of Professional Aviation, Louisiana Tech University.

Enclosure: Program Admission Summary

cc: Col. Tom Garza, Interim Chair, Department of Professional Aviation9
                       Louisiana Tech University
                    Department Professional Aviation
                   B.S. Professional Aviation (PRAV)
                       Program Admission Summary
    Situation: Exponential increase in applications declaring PRAV from 
Fall 2016 to Fall 2018
Student Demand
    <bullet>  48% increase in enrollment from Fall 2010 to Fall 2017
    <bullet>  Program demand historically below 30 students per quarter
    <bullet>  Fall 2017--90 new applications received

    In response, new admission criteria were approved to manage our 
growth (effective Fall 2018)
        HS GPA (unweighted) 3.0
        ACT composite score 23
        Transfer GPA 3.0 (if applicable)
        Interview with Department Chair
        Early application (December of year prior to intended start)
        Medically qualify to be a pilot

    <bullet>  Fall 2018--126 applications received
      <bullet>  46 students qualified and were admitted
      <bullet>  80 students did not meet one or more of the above 
criteria
    <bullet>  All qualified students have been enrolled since Fall 2018
      <bullet>  Students that do not initially qualify are encouraged 
to attend Louisiana Tech in another degree program and compete for a 
major change based on earned GPA
        <bullet>  The Department has enrolled 100% of current Louisiana 
Tech students that request a major change and meet the minimum GPA 
requirement
Flight Training
    <bullet>  Enrollment capacity defined by the number of flight 
instructors available
    <bullet>  A 10:1 student to instructor ratio or less is required to 
yield efficient flight training continuity and a satisfactory level of 
safety and supervision
      <bullet>  Fall 2017--17:1 ratio
      <bullet>  Fall 2020--8:1 ratio
    <bullet>  Very limited flight instructor pool outside of our 
program

                                 <F-dash>
 Press Release, ``United Airlines To Become Only Major U.S. Carrier To 
 Own and Operate a Flight Training Academy,'' Submitted for the Record 
                   by Hon. Garret Graves of Louisiana
United Airlines To Become Only Major U.S. Carrier To Own and Operate a 
                        Flight Training Academy
February 05, 2020

    CHICAGO, Feb. 5, 2020/PRNewswire/--United Airlines today further 
expanded its innovative Aviate pilot program by signing a purchase 
agreement to become the only major U.S. carrier to own a flight 
training academy. The United Aviate Academy will give the airline more 
visibility and direction over the recruitment, development and training 
of future pilots, enabling United to increase the percentage of women 
and minorities who become pilots. United expects approximately 300 
students to graduate from the United Aviate Academy in its first full 
year of operation.
    The flight training academy--currently operating as Westwind School 
of Aeronautics in Phoenix, Arizona--will be an extension of the 
airline's Aviate program, a pilot development and recruitment program 
that offers aspiring aviators the most direct path to achieve their 
dreams of becoming a United pilot. The airline anticipates hiring more 
than 10,000 pilots by 2029.
    ``We have developed the Aviate program in collaboration with the 
Air Line Pilots Association, International to have greater influence on 
the next generation of aviators at United,'' said Captain Bebe O'Neil, 
United's managing director of Aviate. ``Launching our own academy 
provides us with the unique opportunity to not only ensure we maintain 
the ideal number of quality candidates within our pilot pipeline, but 
also play a significant role in recruiting, developing and welcoming 
those with diverse backgrounds to the United family.''
    In addition to launching the flight academy, United plans to reduce 
financial barriers to joining the program, making the dream of becoming 
a United pilot even more accessible to more individuals. The carrier is 
currently engaging with financial institutions with the goal of making 
attractive financing terms--such as industry-tailored grace periods and 
competitive interest rates--available to qualified individuals. 
Additionally, United plans to launch a scholarship program specifically 
focused on encouraging women and minorities to consider joining the 
United family. The airline will provide more details regarding these 
financing options as they become available.
    Aviate partners currently include:
  <bullet>  Embry-Riddle Aeronautical University
  <bullet>  Western Michigan University
  <bullet>  Lufthansa Aviation Training Academy
  <bullet>  University of North Dakota
  <bullet>  Hillsboro Aero Academy
  <bullet>  US Aviation Academy
  <bullet>  FlightSafety International
  <bullet>  Ameriflight
  <bullet>  Boutique Air
  <bullet>  ATP Flight School
  <bullet>  ExpressJet
  <bullet>  CommutAir
  <bullet>  Air Wisconsin
  <bullet>  Mesa Airlines
  <bullet>  Florida Institute of Technology
                   Aviate: Love to fly, born to lead
    Last year, United launched Aviate, its innovative pilot recruitment 
and development program. Those who apply to Aviate and are successful 
in the selection process will receive a program acceptance job offer 
with United. Aviate also provides support and coaching for pilots to 
develop into leaders who exemplify the professionalism, level of 
excellence and commitment to providing safe, caring, dependable and 
efficient service that United expects from its pilots. Additionally, 
Aviate provides those who aspire to a career as a United captain with 
the most direct route to achieving that goal.
    United's Aviate career path program offers pilots competitive 
benefits, including:
    <bullet>  The most direct path within the industry to a major 
airline, with an Aviate regional partner minimum requirement of 24 
months and 2,000 hours
    <bullet>  More options in program entry points throughout a pilot's 
career and choice of select United Express carriers
    <bullet>  Increased transparency and clarity along the path from 
program entry to flying for United
    <bullet>  Improved career development, mentoring and access to 
United pilots and learning tools.
    <bullet>  Immediate inclusion in the United family, with access to 
senior leadership, site visits and tours, and certain travel privileges

    For more information on Aviate, please visit unitedaviate.com
                              About United
    United's shared purpose is ``Connecting People. Uniting the 
World.'' We are more focused than ever on our commitment to customers 
through a series of innovations and improvements designed to help build 
a great experience: Every customer. Every flight. Every day. Together, 
United and United Express operate approximately 4,900 flights a day to 
362 airports across six continents. In 2019, United and United Express 
operated more than 1.7 million flights carrying more than 162 million 
customers. United is proud to have the world's most comprehensive route 
network, including U.S. mainland hubs in Chicago, Denver, Houston, Los 
Angeles, New York/Newark, San Francisco and Washington, D.C. United 
operates 791 mainline aircraft and the airline's United Express 
partners operate 581 regional aircraft. United is a founding member of 
Star Alliance, which provides service to 195 countries via 26 member 
airlines. For more information, visit united.com, follow @United on 
Twitter and Instagram or connect on Facebook. The common stock of 
United's parent, United Airlines Holdings, Inc., is traded on the 
Nasdaq under the symbol ``UAL''.



                                Appendix

                              ----------                              


Questions from Hon. Salud O. Carbajal to Catherine Lang, Senior Advisor 
    for Aviation Workforce Outreach, Federal Aviation Administration

    Question 1. What progress has FAA achieved in determining the 
criteria and application process under Section 632 of the FAA 
Reauthorization Act of 2018 for community colleges or universities to 
become designated by the FAA as a Collegiate Training Initiative (CTI) 
for unmanned aircraft systems?
    Answer. A response was not received at the time of publication.

    Question 2. The FAA is also responsible for overseeing AMT schools 
and establishing the minimum curriculum and training requirements 
students need. What progress has the FAA achieved in modernizing these 
training requirements?
    Answer. A response was not received at the time of publication.

    Question 3. Do you expect that training programs like these will 
help with the potential labor shortage for aircraft mechanics or 
aerospace engineers identified by a recent analysis by the Government 
Accountability Office (GAO)?
    Answer. A response was not received at the time of publication.

    Question 4. With only 13 percent of aerospace engineers being women 
and over 75 percent being white, what are some recommendations for 
Congress to consider in order to make our workforce more representative 
of our current population?
    Answer. A response was not received at the time of publication.

  Question from Hon. Sam Graves of Missouri to Catherine Lang, Senior 
       Advisor for Aviation Workforce Outreach, Federal Aviation 
                             Administration

    Question 1. What do you hope to get out of the two advisory 
committees on women and youth in aviation that were set up by the FAA 
Reauthorization Act of 2018?
    Answer. The Women in Aviation Advisory Board (WIAAB) is tasked to 
provide the FAA with a comprehensive plan of strategies to attract more 
women and girls into the field of aviation. The FAA needs the knowledge 
and expertise of stakeholders from the entire aviation community to 
help identify the potential barriers to women entering into the 
aviation workforce, and more importantly, to develop coordinated 
efforts across the industry to address the issue. The barriers 
identified by the WIAAB will assist the FAA in finding ways to expand 
outreach (e.g. identification of women and girls' organizations and 
clubs) and attract more women in order to help diversify the workforce. 
Additionally, the WIAAB's work will allow the FAA to build upon work-
life balance tools to help facilitate the recruitment and retention of 
women in the workplace. The WIABB's report to the FAA and Congress will 
outline a comprehensive plan and will include avenues to promote 
organizations and programs that are providing education, training, 
mentorship, outreach, and recruitment of women in the aviation 
industry.
    The Youth Access to American Jobs in Aviation Task Force presents 
the opportunity to exchange ideas, recommendations, and best practices 
for establishing and growing a reliable source of qualified aviation 
professionals for the future of the industry. The task force will 
engage in robust discussions about barriers to entry (i.e. 
geographical, socio-economic), awareness of aviation careers among 
American youth, and traditional and non-traditional aviation career 
pathways. Leveraging the recommendations and strategies of the Task 
Force, the FAA hopes to identify specific actions to improve current 
efforts or create new programs to encourage American youth to enroll in 
and matriculate from an aviation course of study. The FAA also hopes to 
establish partnerships among government, industry, academia, and 
community organizations to implement programs and recommendations that 
will ensure a robust pipeline of aviation professionals. The task 
force's report to the FAA and Congress will include recommendations and 
strategies to facilitate and encourage high school students to pursue 
aviation careers.

Question from Hon. Garret Graves of Louisiana to Catherine Lang, Senior 
       Advisor for Aviation Workforce Outreach, Federal Aviation 
                             Administration

    Question 2. As FAA works to strengthen its oversight of aviation 
workforce development while continuing to prioritize the safety of our 
national air space, how does the FAA intend to ensure a balance between 
safety regulation and the need to encourage qualified individuals to 
pursue an aviation career?
    Answer. Safety is the core of the FAA's mission, and our top 
priority. While we have made significant strides in commercial aviation 
safety, our efforts to improve will never stop. Though technological 
advancements have helped us to minimize risks, ultimately, it is people 
who will take us to the next level of safety and operational 
excellence. The FAA's efforts are focused in part on ensuring that our 
own workforce is up to the challenge of setting and enforcing the 
standards for the broader aviation workforce, and we recognize the 
important role of all aviation stakeholders in maintaining safety. The 
U.S. aviation system is the safest, most dynamic, and innovative in the 
world, largely due to the collaborative approach to safety championed 
by the FAA, and shared by our partners in industry, academia, and 
government. To that end, an increasing share of the industry's 
technical workforce is moving toward retirement, and the pipeline of 
aviation professionals that support the industry has shown signs of 
slowing. For this reason, we are examining these trends and working 
with our industry partners to identify and take steps to avoid it. We 
are committed to partnering with industry, the academic community, and 
government agencies to remove unnecessary barriers for entry into 
aviation careers, as well as to enhance education pathways and build 
the pipeline of qualified aviation professionals. However, as the 
nation's aviation safety regulator, our first and foremost priority is 
always safety.

Questions from Hon. Sam Graves of Missouri to Heather Krause, Director, 
     Physical Infrastructure, U.S. Government Accountability Office

    Question 1. What are the main barriers to people pursuing aerospace 
careers?
    Answer. Our prior work identified a variety of barriers to entering 
aerospace careers--specifically, with regard to commercial airline 
pilots and aviation maintenance technicians.
                             Airline Pilots
    In our prior work on pilot supply, stakeholders identified several 
barriers to entry into a pilot career, including:
    <bullet>  Cost of pilot training: We reported in 2018 that pilot 
training programs can be particularly expensive, and therefore 
unaffordable to many students.\1\ Professional pilot students incur 
flight training ``lab fees'' in addition to general college tuition and 
fees that together often exceed $100,000.\2\
---------------------------------------------------------------------------
    \1\ GAO, Collegiate Aviation Schools: Stakeholders' Views on 
Challenges for Initial Pilot Training Programs, GAO-18-403 (Washington, 
D.C.: May 15, 2018).
    \2\ In 2018, associations representing pilot training providers and 
pilots told us that mainline airlines prefer pilots with a 4-year 
degree. See GAO-18-403.
---------------------------------------------------------------------------
    <bullet>  Limited sources of financial assistance: We reported in 
2014 that many private banks have tightened restrictions on financing 
available to potential new-pilot students, which has made it more 
difficult for students to qualify for financial aid.\3\
---------------------------------------------------------------------------
    \3\ GAO, Aviation Workforce: Current and Future Availability of 
Airline Pilots, GAO-14-232 (Washington, D.C.: February 28, 2014).
---------------------------------------------------------------------------
    <bullet>  Schools' retention of flight instructors: In 2018, we 
reported that some schools are unable to recruit and retain enough 
flight instructors to train all the pilots that they otherwise could 
accept in their pilot programs. School representatives told us that 
most pilots work as flight instructors to accrue the required flight 
time to become an airline pilot and generally seek employment with an 
airline as soon as they are eligible.
    <bullet>  ATP qualification requirements: Additionally, in 2014 we 
reported that the requirements for pilots to have an Air Transport 
Pilot (ATP) certificate to qualify as a first officer have required 
pilots to spend more time accruing flight hours (i.e., 1-2 additional 
years) prior to being qualified to work for an airline. Pilots receive 
relatively low wages during this time, which increases the length of 
time before they may be financially able to begin repaying their 
student loan debt.

    Some stakeholders we interviewed said the federal government could 
help by revising existing student loan requirements as they pertain to 
pilot education, such as increasing the maximum loan amount, extending 
the loan repayment period, deferring the start of loan repayment, or 
establishing a student-loan repayment or forgiveness program for 
airline pilots. Stakeholders also told us that FAA should consider 
creating additional pathways to achieving an ATP certificate.
                          Aviation Maintenance
    In our 2014 report on the aviation maintenance workforce \4\, 
aviation stakeholders identified several challenges associated with 
aviation maintenance workforce supply, including:
---------------------------------------------------------------------------
    \4\ GAO, Aviation Workforce: Current and Future Availability of 
Aviation Engineering and Maintenance Professionals, GAO-14-237 
(Washington, D.C.: February 28, 2014).
---------------------------------------------------------------------------
    <bullet>  Changes in K-12 education: Several employers cited the 
absence of vocational and shop classes in high school as a reason that 
interest and critical knowledge in aviation maintenance are waning.
    <bullet>  Perceived emphasis on earning a four-year degree: Several 
employers and stakeholders said that with parents and counselors 
insisting that a college degree is needed to do well in society today, 
students may not be aware that there are well-paying professions, such 
as in aviation maintenance, which do not require a four-year degree.
    <bullet>  Perceived decreased desirability of working in aviation: 
Several employers and stakeholders noted that aviation used to be 
viewed as a more ``exciting'' industry, which attracted people even 
though wages were often lower than other similar industries. They said 
that events including 9/11 and airline bankruptcies and mergers have 
resulted in the aviation industry being viewed as unstable, compared to 
other industries.
    <bullet>  Focus of aviation maintenance technician school 
curriculum on outdated technologies. Stakeholders indicated that the 
core curriculum at these schools provides mechanics with a solid 
understanding of basic repair principles, but some parts of the 
curriculum are obsolete and cover aspects of aviation repair that are 
rarely needed or used by A&P mechanics.

    We were not able to verify these concerns with available data. 
However, if a labor shortage were to develop, it could be expected that 
employers would continue to take actions at their disposal, such as 
adjusting wages or changing recruiting and training practices.

    Question 2. What do you believe is the most appropriate role for 
the FAA in terms of addressing workforce shortages and barriers to 
entry?
    Answer. Our previous work has found that federal agencies have a 
limited role in helping to attract people to aviation careers. On the 
other hand, employers may be the first to identify a developing 
shortage of workers in an occupation when they encounter difficulty 
filling vacancies at the current wage rate. Generally, employers in 
need of labor are likely to respond to difficulty hiring workers by 
increasing recruiting efforts, providing training for new hires, 
improving working conditions, reducing the minimum qualifications for 
the job, offering bonuses, improving wages and fringe benefits, 
contracting out the work, and turning down work.\5\ For example, in 
2018, we reported that compensation for commercial airline pilots has 
increased in recent years, most noticeably in new-hire compensation at 
regional airlines.\6\
---------------------------------------------------------------------------
    \5\ GAO-14-232.
    \6\ GAO, Military Personnel: Collecting Additional Data Could 
Enhance Pilot Retention Efforts, GAO-18-439 (Washington, D.C.: June 21, 
2018).
---------------------------------------------------------------------------
    The most appropriate role for the FAA in addressing workforce 
shortages is to continue to effectively implement and leverage its 
programs and initiatives that aim to grow the pipeline of individuals 
seeking to work in aviation. For example, FAA's STEM Aviation and Space 
Education (AVSED) program allows FAA to partner with groups like 
Aviation Career Education Academy and Women in Aviation to promote 
aviation careers to young people across the country. FAA should also 
continue to use institutional mechanisms like its Aviation Workforce 
Steering Committee to develop short- and long-term strategies to 
attract people to aviation careers. Other initiatives that FAA has 
recently established to address workforce shortages include its 
Aviation Workforce Expansion Aviation Rulemaking Committee and its 
partnership with the Air Force to review pilot supply challenges.
    Regarding barriers to entry into aviation careers, FAA has a direct 
role in addressing certain barriers, while others are less directly 
within its control. For example, FAA's ongoing rulemaking to amend 14 
C.F.R. Part 147, which governs the curriculum of FAA-certificated 
Aviation Maintenance Technician Schools, could help address concerns 
that out-of-date curriculum is impeding graduates from attaining the 
jobs they seek in the aviation industry. Additionally, as we previously 
reported, FAA could consider developing alternative pathways to 
qualification for an ATP--an option some stakeholders suggested in our 
2014 work--if it is clear that the first officer qualification 
requirements are discouraging a sufficient number of students from 
pursuing pilot careers. On the other hand, efforts to address such 
barriers as the cost of a pilot education and the limited financial 
assistance available, or the perceived attractiveness of aviation 
maintenance careers, would likely involve stakeholders across the 
public and private sectors, such as the Department of Education, 
collegiate aviation schools, airlines, and manufacturers.

   Question from Hon. Garret Graves of Louisiana to Heather Krause, 
   Director, Physical Infrastructure, U.S. Government Accountability 
                                 Office

    Question 3. GAO was directed to conduct a study to evaluate the 
current and future workforce needs. Can you provide the Committee with 
a status update on the GAO's workforce of the future study?
    Answer. We are currently completing our audit work and anticipate 
issuing a final report this summer.

   Questions from Hon. Sam Graves of Missouri to Steven R. Jackson, 
                    Principal, Aviation High School

    Question 1. What are your thoughts on Military AMP experience? In 
your opinion, should the hours those military professionals accumulate 
during their military service be transferable or be counted towards an 
FAA certification?
    Answer. As a New York City public school that does not deal with 
military technicians who are transitioning to the commercial aviation 
maintenance field, it may be better to address this question to post-
secondary Aviation Maintenance Technician Schools (AMTS) and the 
Federal Aviation Administration (FAA). With that being said, our input, 
based on the experiences of some of our staff members who earned their 
aviation maintenance licenses through their military training, we 
believe that military aviation work is very highly specialized and it 
may be difficult to transfer enough skills or experiences to cover all 
requirements of the Federal Aviation Administration General, Airframe 
and Powerplant license hour requirements. However, as we stated in our 
written testimony we suggest stripping away the extraneous tasks of 
having a military aircraft technician demonstrate such outdated skills 
as the proper method for preforming a scarf splice repair on an 
aircraft wood structure which may help experienced military technicians 
to cross directly into the workplace based a proven track record and 
verifiable training to back up their credentials. Moreover, give AMTS 
programs the flexibility in assessing and evaluating Military 
Occupation Specialty Code (MOS), Air Force Specialty Code (AFSC), and 
Navy Enlisted Classification system (NEC) military credentials. Please 
note that these are our brief opinions, and we suggest that you ask 
this question of post-secondary AMTS programs such as Vaughn College 
for a more detailed, informed answer.

    Question 2. What types of incentives does a career in the aerospace 
industry provide to a younger generation who do not have an aviation or 
aerospace background? In your opinion, what might make them want to 
pursue such a career path?
    Answer. As a New York City public school that has a student body 
comprised of very diverse ethnic and cultural backgrounds, as well as 
many first generation American students who are looking to find a 
pathway to a better quality of life for themselves and their families, 
the incentives are plentiful for the high school students we encounter. 
Currently young students are attracted by the increased pay, 
incentives, bonuses, profit sharing, tuition reimbursement, etc. that 
will help them improve their quality of life and enable them to live an 
upper middle-class life, especially in an expensive city such as New 
York. Additionally, many young people today also value experiences over 
monetary rewards and the fact that working for commercial airlines 
means that young people can travel the world, virtually for free, is 
also another major incentive for youth today. Though we are eager to 
provide input on how to address the looming aviation maintenance 
technician shortage, it must also be said that there is a wide world of 
career opportunities in the aviation industry and attending a school 
such as Aviation High School can also encourage students to begin as a 
technician, but possibly go on to related, high needs positions such as 
engineers, air traffic controllers, pilots, managers, etc.
    The overall question of what may make a young person pursue the 
aviation maintenance career path is the fundamental question that we 
are facing as a school and industry today. We strongly believe that the 
Congress, FAA and industry partners can help entice young people to 
explore and enter the aviation maintenance field through the 
development, broadcasting and investment in public service 
announcements, advertisements and experiences that expose not only 
young people, but their parents to the exciting, rewarding and 
lucrative career choice that aviation maintenance (and the wider 
aviation industry) can provide for today's youth. In conjunction with 
greater expose and positive messaging, it is important for our nation 
to provide elementary, middle and high school students with aviation 
industry related experiences, such as hangar and maintenance facility 
visits, airport events and fun, hands on activities where students who 
are drawn to more tactile learning (and work) will become encouraged to 
enroll in an aviation maintenance technician high school or college.
    Lastly, we also believe that young people need to be provided with 
more experiences that match their modern day interests, such as 
exposure to aviation maintenance work on advanced technologies, modern, 
sophisticated machinery, computer programming based avionics work, and 
the various adventurous real-work based experiences that would further 
attract young people into the aviation maintenance field. All of the 
points in the answer to this question would help young people and their 
parents learn that the aviation maintenance technician (preferably 
called an aircraft engineer) is not an employee that works a simple 
nine to five job.

    Question 3. Can you characterize any collaborative discussions with 
the other tech-schools in your area? What type of feedback have you 
received from the school boards regarding the incorporation of more 
``hands-on'' courses? Are they generally receptive? What do officials 
highlight as major obstacles to reinstituting more hands-on, ``shop''-
like courses?
    Answer. The New York City public education system is comprised of 
all the public schools of the five boroughs of New York City and as 
such, Aviation High School is a part of a subset of Career and 
Technical Education (CTE) schools and programs that are located 
throughout the city. Our CTE school community does collaborate to 
explore ways to improve technical, hand skill training, align program 
outcomes with industry need, and gain input from local industries to 
improve the quality of CTE programs. We not only participate in such 
CTE school committee meetings, but each CTE school also has an advisory 
board comprised of industry partners and post-secondary institutions to 
gain input on how well a school's program is aligned to industry need 
and job entry expectations. Discussion and collaborations with these 
groups support the idea of improving young students' hand skills (as 
well as soft skills) through improvements in curriculum, mentoring, 
internship and on-the-job training opportunities. New York State is 
also currently in the process of requiring middle schools to develop 
CTE based experiences for students that would hopefully better align 
with the CTE high school programs offered to the students of New York 
City and help improve alignment of student interest with the careers 
available to them. (Please note this is currently in the early stages 
of being developed.)
    In addition to the obstacles referred to in the answers above, 
additional obstacles include funding for schools to maintain and add 
appropriate, modern equipment and supplies for students to work with 
and learn by ``doing.'' (It must also be stated that the cost of 
tuition, personal supplies and tools are an obstacle for many post-
secondary school students, and additional grant funds would help more 
students attend and complete these programs.) Speaking on behalf of 
public schools (both primary and secondary), an additional obstacle is 
the fact that such schools face a great many local, state and federal 
mandates, expectations and oversight agencies (local boards, central 
office supervisors, politicians, etc.) that create logistical and 
scheduling difficulties for schools to add additional hands on ``shop'' 
type classes. The great array of mandated expectations may serve as a 
hindrance for many primary and secondary schools to offer appropriate 
(but not required) hands on courses.
    Lastly, we must also remind everyone that the current aviation 
maintenance technician shortage is also creating a shortage of FAA 
certified, industry experienced aviation maintenance technician 
teachers who are available to teach at any one of the 176 AMTS schools 
across the nation.
    We would also like to add, that though there are real and 
challenging obstacles that schools such as ours face, by working 
through these obstacles to provide young students with more hands on 
shop courses, we believe that AMTS schools can ensure that their 
programs create entry-level ready young technicians (engineers) who:
    <bullet>  are able to read, interpret, and understand maintenance 
manuals and wiring diagrams
    <bullet>  display solid hand skills while incorporating proper 
safety procedures
    <bullet>  effectively use a multimeter for troubleshooting purposes
    <bullet>  have basic computer knowledge to complete basic BITE 
tests on aircraft systems
    <bullet>  have an overall understanding of how aircraft systems 
work
    <bullet>  are able to think critically and ``outside of the box''

    We hope that our (and the entire panel's) testimony and answers 
provide the Subcommittee with enough insight and ideas to enable the 
Congress to support the FAA, aviation industry and Aviation Maintenance 
Technician Schools to entice young people to enter aviation maintenance 
programs and schools, develop proper entry-level skills and become 
career aircraft engineers.

  Question from Hon. Garret Graves of Louisiana to Steven R. Jackson, 
                    Principal, Aviation High School

    Question 1. What are ways to expose students who attend non-
aviation specific high schools to aerospace careers?
    Answer. In addition to the above suggestions and input, we believe 
that governmental agencies (such as the FAA), aviation industry 
partners and local school boards need to create opportunities for 
elementary and middle school students to be exposed to the exciting 
world of aviation. As an example of plans our advisory board is 
developing, we are looking into the possibility of having a site (such 
as the TWA Hotel at JFK International Airport) host an aviation themed 
event for young students followed by an event based at Aviation High 
School where young students can work on aviation related projects and 
create something with their own hands and see what type of fun jobs an 
aircraft engineer can do in the aviation maintenance career field. 
Creating the interest, excitement and pathways to a school such as 
Aviation High School would also potentially lead to increased 
enrollment in post-secondary AMTS schools such as Vaughn College.

    Questions from Hon. Sam Graves of Missouri to Sharon B. DeVivo, 
        President, Vaughn College of Aeronautics and Technology

    Question 1. What types of incentives does a career in the aerospace 
industry provide to a younger generation who do not have an aviation or 
aerospace background? In your opinion, what might make them want to 
pursue such a career path?
    Answer. Most of Vaughn's graduates, based on our location in New 
York City, go to the regional airlines (e.g. Endeavor, Envoy, Republic) 
for a short tenure (roughly one to two years) and then make their way 
to the major airlines. The greatest incentive to take a position in 
aviation in the last three years has been the increase in the hourly 
wage, which has topped $25 per hour to start and can go higher than $80 
per hour at the major airlines. We have heard anecdotal information 
that crew chiefs at a major airline are making $125,000 without 
overtime.
    In addition to the increasing salaries, aviation maintenance 
technicians with the airlines enjoy medical, retirement and flight 
benefits. Graduates also have the option to take positions with public 
utilities such as Consolidated Edison and Keyspan, or public 
transportation entities such as Long Island Railroad, the MTA and 
companies such as Kawasaki Railcar (all located regionally). These are 
good union positions offering competitive salaries and benefits.
    In order to get more young people to pursue these careers we need 
to reach them earlier (high school is too late) and we need a way to 
reach adults who may have decided that college was not their path. 
Students and families will be motivated to make the investment in 
education if they can see a clear career pathway with demand and long-
term stability.

    Question 2. What are your thoughts on Military AMP experience? In 
your opinion, should the hours those military professionals accumulate 
during their military service be transferable or be counted towards an 
FAA certification?
    Answer. Most of the Veteran students that Vaughn enrolls come with 
very specific aviation skills, but generally not a solid understanding 
of the entire aircraft. For example, they may have only worked as sheet 
metal technicians while in the military and have a good understanding 
of aircraft structures, but have no understanding of electricity, 
aircraft weight and balance, or basic knowledge of FAA required 
maintenance records, and how these systems interact with each other. We 
counsel students to get as much of their experience listed on their 
discharge papers, and along with their military occupational specialty 
codes. We guide students to the local Flight Standards District Office 
of the Federal Aviation Administration to assist them on any areas that 
they can effectively ``bypass.'' Many Veteran students qualify as 
applicable for an authorization to test and may bypass further 
training, but most feel that they require a more thorough understanding 
of aircraft systems and operations, so they choose to retrain with us 
to better prepare them for industry.
    Veteran students also have the opportunity to directly bypass 
components of their education at Vaughn College through bypass exams 
based on the education received at military technical specialty 
schools. The amount of credit is determined by a test that is 
equivalent to one given to students who complete comparable subject 
matter at Vaughn College. Credit for previous experience is granted 
only when experience is comparable to curricula subject matter. The 
amount of credit allowed is verified by documentation of experience and 
by an examination equal to that given to students who complete 
comparable required subjects.

    Question 3. There are concerns about workforce shortages across the 
industry, including pilots--two questions:
    a.  What do you believe is the greatest barrier to pursuing a 
career as a pilot?
    b.  What do you believe Congress, the Federal Government, and 
industry can do to address that barrier?
    Answer. The greatest barrier for underserved populations to 
becoming a pilot is the cost. For students enrolled in Vaughn's 
bachelor's degree in aircraft operations (flight), tuition and fees are 
about $26,000 per year and the cost of achieving your private pilot, 
instrument, commercial, certified flight instructor and certified 
flight instructor-instrument is between $60,000 and $70,000, but it 
very much depends on the individual student and could go higher if one 
or more licenses require additional hours to capture the concepts.
    The other issue for underserved populations from a low 
socioeconomic background is their access to PLUS loans--these are the 
federal loans granted to the parents of students. Vaughn's average 
family income is $39,000 and many families do not have the credit 
history and/or the credit scores to qualify for loans so they have to 
try and get funding in the form of an alternative loan, which can come 
with high interest rates making the payback even more difficult. To aid 
this issue, the best course for the federal government is to increase 
the federal student Pell amount, and provide access to government-
secured loan amounts beyond Pell to cover the cost of flight training. 
In addition, because of the Pell rules governing ``Standard Academic 
Progress'' students are not currently able to use more than four 
straight semesters of Pell meaning that they have difficulty using 
those funds to fly every summer. The federal government could provide 
expanded SAP rules for students in programs where we face a nationwide 
demand issue.
    While students' long-term salary prospects are very good, when a 
student graduates they need to build their time as a certified flight 
instructor which typically pays a fairly low hourly rate and can make 
paying back any loans fairly difficult in the beginning of their 
professional careers. Providing greater access to federal funds with 
repayment tied to graduates' income would significantly increase 
underserved students access to this career path.

    Question 4. Do you think Vaughn's US. vs. Foreign enrollment is 
typical? Are the other degree programs enrolling more or fewer 
international students?
    Answer. Out of our entire population of 1,650 Vaughn students about 
five percent are international. However, many of our students came to 
America when they were children or are the first in their family to be 
born in the United States. Just in terms of the aviation maintenance 
program, there are 650 students. We have a collaboration with an 
institution in China: Jian Jiao University in Shanghai. Students 
complete three years at Jian Jiao and then come to Vaughn to complete 
their certification. We have 82 students currently enrolled from that 
program, and just had our first three graduates in December. Those 
students are already employed in China with Boeing Shanghai. Given the 
demand for pilots and aviation maintenance technicians worldwide, we 
can assist developing nations with standing up their aviation 
workforce. In terms of flight, we can accept international students 
into our program, but the numbers remain relatively small.

  Questions from Hon. Garret Graves of Louisiana to Sharon B. DeVivo, 
        President, Vaughn College of Aeronautics and Technology

    Question 5. What challenges, if any, does Vaughn College face in 
terms of recruiting and retaining students? How do you compare with 
other schools facing similar challenges?
    Answer. In terms of recruiting, our typical aviation maintenance 
student is slightly older with an average age of 23 and they come to us 
having pursued careers that do not have long-term growth opportunities. 
The best way to reach them is with digital advertising which, we do on 
a year-round basis to drive students to campus. We offer a ``white 
paper'' on our website that provides information on the education we 
offer and the career path along with information about the demand. We 
provide this information to assist in driving visits to campus. We have 
about 100 unfilled seats at this point and battle the image of a 
maintenance technician as a ``grease monkey'' when they are in fact 
using high-tech tools to diagnose and repair aircraft. The other issue 
that can be unappealing is working nights and weekends (generally what 
will happen in the beginning of their careers before they gain some 
seniority) often in uncomfortable settings (e.g. freezing, raining, 
etc.), but we convey this during information sessions and balance that 
with the great long-term prospects and benefits to working in the 
industry.
    In terms of retaining students, our greatest challenges are tool 
aptitude and basic math skills. Students no longer come to us with 
experience with tools, and, in response, we are adding several Snap-on 
(the tool company) certifications that students will take prior to 
enrolling to build familiarization and also to assist with some basic 
math skills with measurement exercises. Our retention rate for students 
in this program is 67.7 percent year-to-year and this is up from 
roughly 57.5 percent three years ago. We attribute this to 
standardizing the curriculum, providing more tutoring and the 
increasing demand for technicians.
    In terms of our flight program, we recruit a more traditional aged 
student of 18, and host groups throughout the year to campus where they 
see our flight and air traffic control simulators, our small fleet of 
aircraft and speak with current students and faculty. We also regularly 
host Scouting groups through aviation and STEM activities to expose 
them to these fields.
    Our students are also active in their outreach to middle and high 
school students in the region through their activities as part of our 
student chapters of Women in Aviation, the Society of Women Engineers 
and our Unmanned Aerial Vehicle Club. In the future, having access to 
funds that would allow us to take simulators to K-12 students (e.g. a 
mobile unit with a flight, air traffic control and drone simulator) 
would vastly increase our ability to expose underserved students at an 
earlier age and get them excited about these fields.

    Question 6. When Vaughn College holds outreach events for the young 
people, what best grabs their attention to get them focused on an 
aerospace career path?
    Answer. Vaughn regularly hosts open house events and provides tours 
to groups as well as on a one-on-one basis. At those events, we provide 
information about all of the opportunities available, the conditions 
they will work in, the benefits, the curriculum and knowledge they will 
acquire as a result of the program. Students are motivated by changing 
their, and their family's, trajectory, and so the career path as well 
as the salary and benefit opportunities are important.
    Vaughn is also able to demonstrate our terrific outcomes by 
promoting the fact that we have a 99 percent placement rate within one 
year of graduation; 83 percent in their field. The institution has also 
been recognized as the number one institution in the nation by a report 
published in The New York Times and we are the best at moving students 
from the bottom 40 percent in income to the top 40 percent. These two 
statistics lead us to develop the ``Vaughn Guarantee'' for students 
enrolled in our bachelor of science degrees or the aviation maintenance 
program (where they can achieve a certificate or an associate's in 
occupational studies). In order to qualify, students must stay 
continuously enrolled full-time and meet regularly with career 
services. If those students do not have a position in their field 
within one year, we will pay their federal loans for one year. We want 
students and families to know that we value their investment and want 
to truly partner for their success.
    Finally, many are motivated by the opportunity to pursue their 
passion. These are the same people who crane their necks every time an 
aircraft passes overhead, and in our community they are surrounded by 
likeminded individuals. We think that an additional motivator will be 
the updated Part 147 rules which will put emphasis, we think, on newer 
technologies such as composites. We are also exploring the opportunity 
with one of our airline partners to experience engine technology with 
virtual reality, which could help to change the fundamental 
understanding of aviation maintenance and further the image that this 
is a high-tech field.

    Questions from Hon. Sam Graves of Missouri to Joseph McDermott, 
        Managing Director, Technical Operations, Delta Air Lines

    Question 1. What are your thoughts on Military AMP experience? In 
your opinion, should the hours those military professionals accumulate 
during their military service be transferable or be counted towards an 
FAA certification?
    Answer. Military experience is valuable in any number of careers in 
the aviation industry. At Delta, we are extremely proud of our veteran 
workforce: across the company we employ approximately 12,000 veterans, 
and veterans comprise 20% of the TechOps population. The military is a 
key part of our recruitment strategy as it allows Delta to connect with 
hard-to-find skill sets and specialized training provided by the 
military.
    Since each airline has a unique fleet and maintenance program, 
every new hire must go through Delta specific training once they are 
brought on-board at TechOps. We find that veterans with AMP backgrounds 
have the skills needed to excel in this training and throughout their 
careers at Delta, making their military experience highly transferable 
and a strong indicator of future performance.

    Question 2. In your opinion, how do we overcome the ``stigma'' 
associated with technical colleges or other vocational programs?
    Answer. In order to overcome the possible stigma associated with 
technical colleges, vocational programs and other skills-based 
training, we must directly connect with students early to advance 
interest in aviation careers. That is why the TechOps Outreach program 
seeks to educate our potential workforce on the benefits of a career in 
TechOps while they are making critical life choices as high school 
students. It offers these students the ability to interact with and be 
encouraged by AMT role models, who can give them a realistic day-in-the 
life overview as well as hands-on practice with tools, aircraft parts 
and some of the problem solving that is part of the job. The Outreach 
program also provides a venue to reach the influencers of the next 
generation, such as parents, teachers, and school counselors to help 
shape their perception of aviation maintenance as a rewarding, stable 
career.
    In addition, we must highlight the significant benefits of a career 
in the aviation industry--including high-paying jobs, steady careers 
with advancement opportunities, lifelong learning potential and other 
associated perks. As noted at the hearing, Delta's best recruiting tool 
is the fact that our maintenance workforce receives industry-leading 
total compensation and benefits. Top-of-scale mechanics make an average 
base salary of more than $100,000. And they can achieve this pay after 
7.5 years of service--approximately 75% of mechanics currently earn 
top-of-scale pay, a reflection of the seniority of our workforce. This 
compensation does not include Delta's robust profit-sharing program. On 
February 14, Delta paid out $1.6 billion to our employees, which 
equates to 2 months additional salary per employee. For each of the 
past six years, we have returned more than $1 billion in profit sharing 
to our deserving workforce.

  Questions from Hon. Garret Graves of Louisiana to Joseph McDermott, 
        Managing Director, Technical Operations, Delta Air Lines

    Question 3. Delta was recently accepted into the DoD Skillbridge 
Program. Is your company finding it easier to fill positions now that 
you are able to pull from such a large potential employee base?
    Answer. We believe the DOD Skillbridge Program will make it much 
easier for both Delta to meet our workforce demands and for veterans to 
find meaningful, well-compensated employment. As our program was just 
approved recently, however, we are in the early stages of this 
partnership and do not have data to evaluate our experience. We are 
happy to follow up with your staff in the coming months as we truly 
begin to leverage this important tool.

    Question 4. Through the Skillbridge Program, are you finding that 
employees hire from this pool offer skill sets that non-military 
personnel do not?
    Answer. As noted above, we are in the early stages of the 
Skillbridge Program and it is too soon to do an assessment. We are 
happy to follow up with your office as we learn more.

    Question 5. What types of incentives does a career in the aerospace 
industry provide to a younger generation who do not have an aviation or 
aerospace background? In your opinion, what might make them want to 
pursue such a career path?
    Answer. Our culture, commitment to employees, and of course, our 
compensation are all factors in the loyalty that our workforce 
demonstrates in long-tenured careers at Delta. One reason the TechOps 
jobs at Delta are attractive is because our employees receive industry 
leading compensation and benefits. However, what we think what makes 
Delta a leader in the industry is our culture--we take pride in 
connecting the world and being the best in the business.

 Questions from Hon. Sam Graves of Missouri to John J. Neely III, Vice 
  President, Law and Public Affairs, Gulfstream Aerospace, a General 
                            Dynamics Company

    Question 1. What are your thoughts on Military AMP experience? In 
your opinion, should the hours those military professionals accumulate 
during their military service be transferable or be counted towards an 
FAA certification?
    Answer. A response was not received at the time of publication.

    Question 2. In your testimony, you reference Gulfstream's success 
in implementing the Advanced Cabin Maker course [in response to having 
difficulty finding skilled cabinet makers], what percentage of those 
who successfully completed this program went on to full-time employment 
at Gulfstream or other aviation-related company?
    Answer. A response was not received at the time of publication.

 Questions from Hon. Garret Graves of Louisiana to John J. Neely III, 
Vice President, Law and Public Affairs, Gulfstream Aerospace, a General 
                            Dynamics Company

    Question 3. How do colleges and high schools reach out to 
Gulfstream to establish programs with your company?
    Answer. A response was not received at the time of publication.

    Question 4. What types of incentives does a career in the aerospace 
industry provide to a younger generation who do not have an aviation or 
aerospace background? In your opinion, what might make them want to 
pursue such a career path?
    Answer. A response was not received at the time of publication.

  Questions from Hon. Sam Graves of Missouri to Dana Donati, General 
        Manager and Director of Academic Programs, LIFT Academy

    Question 1. In your experience, would you recommend that all flight 
schools and pilot training programs take a more structured approach to 
flight training, similar to your program?
    Answer. It is important for student pilots pursuing an aviation 
career as an airline pilot to receive training from a structured flight 
training program. Structured flight training programs teach students 
the behaviors needed to successfully pass a Part 121 airline training 
event. It's important for students to experience flying in a controlled 
airspace environment, and to fly the same arrivals and departure 
procedures that airline pilots fly. It's important for pilots to learn 
complex avionics systems and engine systems similar to the aircraft 
systems knowledge needed in a Part 121 airline. Overall, the procedures 
that airline pilots are required to know should be taught in all 
training programs leading up to airline training rather than a pilot 
having to relearn a behavior in first officer new hire training.

    Question 2. Why are simulators so important to the Academy's pilot 
training program?
    Answer. Simulators are an important training tool at LIFT Academy. 
We can increase the intensity of training in a simulator that we can't 
necessarily train for in the aircraft. We can introduce abnormal 
procedures or emergency procedures in a simulator, which teach decision 
making skills and checklist procedural training. For example, lowering 
the weather minimums or introducing wind shear in a simulator allows 
the Academy to test the decision-making skills of a pilot.

    Question 3. What are your thoughts on Military AMP experience? In 
your opinion, should the hours those military professionals accumulate 
during their military service be transferable or be counted towards an 
FAA certification?
    Answer. Title 14 CFR Part 65 provides guidance regarding the 
transfer of military AMP experience. Regulations state that all 
experience must add up to 18 or 30 months for the rating(s) sought. As 
the FAA updates Part 147 curriculum, we would recommend a review of the 
Part 65 regulations to ensure that military service experience is being 
used to its full potential.

Questions from Hon. Garret Graves of Louisiana to Dana Donati, General 
        Manager and Director of Academic Programs, LIFT Academy

    Question 4. In your experience, have you seen a big difference 
between pilots who completed a structured flight school versus those 
who did not? If so, in what way?
    Answer. There are differences in pilots who have trained in a 
structured flight school environment versus those who have not trained 
in a structured flight school environment. In a structured training 
environment, students follow a FAA approved curriculum, completing the 
requirements they need to become certified. Once certified with a 
Commercial Pilot certificate, pilots have an option to build hours in a 
structured environment teaching structured procedures and building 
experience in controlled airspace following visual and instrument 
flight rules.
    In a non-structured flight school environment, pilots will meet the 
FAA Part 61 certification requirements. After pilots are certified, 
they could build their flight hours by flying in visual flight 
conditions and in many cases, flying the same maneuvers repeatedly 
until they have met the Part 121 flight time minimums. This type of 
time building does not require the pilot to utilize procedural 
training, fly arrivals and departure procedures in controlled airspace, 
or practice emergency procedures that reflect the airlines safety 
protocols. Instead, a pilot is merely flying around in a non-structured 
environment without gaining relevant experience and as often discovered 
by the airline training programs, learning negative behaviors. In the 
worst case, repeating these behaviors for 1250 flight hours, to meet 
the 1500-hour requirement, results in a student airline pilot failing 
new hire training events and/or requiring remedial training. Relearning 
deeply embedded behaviors can be challenging for those who have been 
flying in a less structured environment and inevitably they do worse in 
training.
    New hire training at any airline is highly structured. Pilots are 
required to have the knowledge and skill needed to meet the airline's 
expectation, yet 1500 hours only represents total flight time and does 
not provide insight into the training and experience a pilot has 
received.
    If structure is not introduced or practice within the first 1500 
hours of flight time, pilots may not have the experience needed to 
successfully pass a Part 121 new hire training event. Just because a 
pilot meets the flight time requirements for Part 121 training and 
certification, does not mean they are quality pilots.

    Question 5. Can you tell me more about how your program is lowering 
the cost of pilot training and any challenges you have encountered in 
attracting minorities, women, and other underrepresented groups into 
your program?
    Answer. Republic Airways subsidizes $20,000 per student, lowering 
the total cost of flight training to $65,000. Once a student 
successfully graduates from the program, they will receive $15,000 in 
loan assistance and a guaranteed job.
    The challenges we have encountered in attracting underrepresented 
groups is the cost of flight training and the available means to borrow 
funds. With the help of Republic Airways, the cost of training has 
significantly been lowered but LIFT Academy applicants are seeking 
private loans to pay for training. The lenders LIFT Academy work with, 
provide credit counseling to those applicants who are unable to be 
approved for a loan. These are applicants who have met the standards of 
the aptitude test and have passed the verbal interview but are unable 
to find the funds needed to enroll and participate in the program. The 
approval of Title IV financial aid would help students pay for 
structured training from LIFT Academy and allow us a bigger reach to 
underrepresented groups.

    Question 6. What types of incentives does a career in the aerospace 
industry provide to a younger generation who do not have an aviation or 
aerospace background? In your opinion, what might make them want to 
pursue such a career path?
    Answer. Having a background in aviation and aerospace is not 
required to be a pilot or a technician. What is needed by an interested 
applicant is the aptitude skills, mechanical skills and the motivation 
to get through training.
    As a LIFT Academy student, Republic Airways offers financial 
subsidy and loan assistance as well as Republic Airways tailored 
training material. An airline pilot's salary has increased at all 
levels of the aviation industry, and incentives, such as high 401K 
matching benefits and travel benefits, are offered by airlines as well.
    When comparing an aviation career to careers in medicine, law and 
education, the aviation industry is providing students a higher return 
on investment. The financial incentives and added benefits offered by 
Republic Airways makes a career in aviation a very rewarding pathway.

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
